<html>
<title> - PERSPECTIVES ON TSA'S POLICIES TO PREVENT UNLAWFUL PROFILING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


      PERSPECTIVES ON TSA'S POLICIES TO PREVENT UNLAWFUL PROFILING

=======================================================================

                                HEARING

                              BEFORE THE
                              
                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2019

                               __________

                           Serial No. 116-24

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                            

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-870 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     6

                               Witnesses

Mr. W. William Russell, Acting Director, Homeland Security and 
  Justice Team, U.S. Government Accountability Office:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. Sim J. Singh, Senior Manager of Policy and Advocacy, The Sikh 
  Coalition:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Ms. Janai S. Nelson, Associate Director-Counsel, NAACP Legal 
  Defense and Educational Fund, Inc.:
  Oral Statement.................................................    32
  Prepared Statement.............................................    34

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Report From the National Center for Transgender Equity.........    64

                                Appendix

Questions for W. William Russell From Chairman Bennie G. Thompson    69
Questions for Sim J. Singh From Chairman Bennie G. Thompson......    70
Question for Janai S. Nelson From Chairman Bennie G. Thompson....    71

 
      PERSPECTIVES ON TSA'S POLICIES TO PREVENT UNLAWFUL PROFILING

                              ----------                              


                         Tuesday, June 4, 2019

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
310, Cannon House Office Building, Hon. Bennie G. Thompson 
(Chairman of the committee) presiding.
    Present: Representatives Thompson, Jackson Lee, Payne, 
Correa, Rose, Underwood, Slotkin, Cleaver, Green of Texas, 
Clarke, Titus, Barragan, Demings, Rogers, King, McCaul, Katko, 
Walker, Higgins, Lesko, Taylor, Joyce, and Crenshaw.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony on 
perspectives on TSA's process to prevent unlawful profiling.
    Good morning. Thank you to our witnesses for joining us 
today.
    We are meeting to examine whether TSA's policies and 
screening processes allow for unlawful profiling and 
discrimination.
    TSA has a difficult security mission. Terrorists continue 
to target the transportation sector and would like nothing 
better than to take a plane out of the sky. Every Member of 
this committee appreciates the need to protect against that 
threat.
    This committee is focused on ensuring that TSA continues to 
mature into an effective, professionalized agency that fulfills 
its security mission in a manner that does not allow unlawful 
profiling or discrimination.
    The report GAO is releasing today shows that TSA's current 
operations do not meet the mark. GAO found that TSA has 
antiprofiling policies in place for its behavioral detection 
program, yet lacks an oversight mechanism to ensure 
antiprofiling policies are actually followed.
    Given the concerns this committee and others have voiced 
for more than a decade regarding TSA's behavior detection 
program and the door it opens to unlawful profiling, it is 
unconscionable that TSA has not developed better oversight 
procedures.
    GAO's new report follows a 2013 report that recommended 
that Congress limit future funding for TSA's behavior detection 
activities. It also follows GAO's 2017 finding that TSA lacks 
valid scientific evidence to support nearly 80 percent of the 
behaviors it relies upon to identify suspicious travelers for 
additional screening.
    Meanwhile, TSA has not provided sufficient evidence of the 
security benefits of behavior detection. TSA has scaled back 
the scope of its behavior detection program, but the logical 
conclusion from years of evidence is clear: It is time to end 
the program entirely.
    For today's report, GAO also looked at 3,700 complaints 
related to civil rights and civil liberties filed against the 
agency over 2\1/2\ years and found over 1,000 complaints with 
potential indicators of discrimination. These complaints allege 
a variety of discriminatory incidents and practices 
encompassing all of TSA's screening operations.
    DHS's response to GAO's findings shows the Department does 
not understand the gravity of the allegations it faces. DHS 
stated it was ``pleased to note'' that GAO identified ``only 
3,700 complaints related to passenger screening alleging civil 
rights and civil liberties violations'' during the relevant 
time period.
    DHS has missed the point entirely. First, 3,700 is not an 
insignificant number. A single incident where a traveler feels 
traumatized as a result of allegedly discriminatory treatment 
is certainly not insignificant to that person and should not be 
considered insignificant to anyone.
    Under my leadership, this committee will not ignore or 
downplay the significance of any American making a credible 
allegation of discrimination by their Government. As TSA says: 
``Not on our watch.''
    Moreover, incidents are likely unreported, as people who 
are discriminated against in various ways throughout society 
may not have the time or resources to lodge formal complaints 
in every instance.
    It is clear from the complaints GAO has documented and 
recent media reports that TSA's screening processes 
disproportionately impact minority populations. In particular, 
Advanced Imaging Technology, or AIT machines, regularly alarm 
on certain populations, such as Sikh passengers, African 
American women, and transgender people, leading to increased 
delays and pat-downs.
    AIT machines rely on algorithms that define what TSA 
considers normal, and religious headwear, hairstyles, or bodies 
that fall outside that definition are flagged for further 
inspection.
    TSA must improve its technology to address this issue while 
considering the diversity of the public when it solicits and 
tests new technology.
    Finally, I want to make clear my concerns are not with the 
TSA work force. TSA's front-line officers have proven their 
commitment to TSA's mission, despite insufficient pay and 
during the Government shutdown missed paychecks.
    Over and over again TSA has made the news due to a poor 
passenger screening experience, and after an investigation 
TSA's statement has almost always noted that officers followed 
security protocols appropriately. By and large, TSA's problems 
lie with its procedures, not its officers.
    As for the agency, I commend TSA for the work it has done 
to engage advocacy groups and improve cultural awareness 
training for officers. The next step is for TSA to ensure it 
fully considers concerns voiced by multicultural groups when 
developing technologies and screening procedures.
    TSA must provide effective security without 
disproportionately impacting certain groups of Americans. This 
is not an ``either/or'' proposition. TSA interacts more 
intimately with the public on a regular basis than any other 
Government agency, screening over 2 million passengers every 
day and physically touching many of them. For many, TSA is not 
just the public face of Government, but its hands, too.
    Its success as a security agency depends upon the trust and 
compliance of a diverse public. I hope to have a productive 
dialog today about how we can continue to move TSA toward that 
important goal.
    I thank the Members for joining us and look forward to our 
discussion.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentleman from Alabama, Mr. Rogers, for an 
opening statement.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                              June 4, 2019
    We are meeting to examine whether TSA's policies and screening 
processes allow for unlawful profiling and discrimination. TSA has a 
difficult security mission. Terrorists continue to target the 
transportation sector and would like nothing better than to take a 
plane out of the sky. Every Member on this committee appreciates the 
need to protect against that threat. This committee is focused on 
ensuring that TSA continues to mature into an effective, 
professionalized agency that fulfills its security mission in a manner 
that does not allow unlawful profiling or discrimination.
    The report GAO is releasing today shows that TSA's current 
operations do not meet the mark. GAO found that TSA has anti-profiling 
policies in place for its behavioral detection program, yet lacks an 
oversight mechanism to ensure anti-profiling policies are actually 
followed. Given the concerns this committee and others have voiced for 
more than a decade regarding TSA's behavior detection program and the 
door it opens to unlawful profiling, it is unconscionable that TSA has 
not developed better oversight procedures. GAO's new report follows a 
2013 report that recommended that Congress limit future funding for 
TSA's behavior detection activities. It also follows GAO's 2017 finding 
that TSA lacks valid scientific evidence to support nearly 80 percent 
of the behaviors it relies upon to identify suspicious travelers for 
additional screening.
    Meanwhile, TSA has not provided sufficient evidence of the security 
benefits of behavior detection. TSA has scaled back the scope of its 
behavior detection program, but the logical conclusion from years of 
evidence is clear: It is time to end the program entirely. For today's 
report, GAO also looked at 3,700 complaints related to civil rights and 
civil liberties filed against the agency over 2\1/2\ years and found 
over 1,000 complaints with potential indicators of discrimination. 
These complaints allege a variety of discriminatory incidents and 
practices encompassing all of TSA's screening operations.
    DHS's response to GAO's findings shows that the Department does not 
understand the gravity of the allegations it faces. DHS stated it was 
``pleased to note'' that GAO identified ``only 3,700 complaints related 
to passenger screening alleging civil rights and civil liberties 
violations'' during the relevant time period. DHS has missed the point 
entirely. First, 3,700 is not an insignificant number. A single 
incident where a traveler feels traumatized as a result of allegedly 
discriminatory treatment is certainly not insignificant to that person, 
and should not be considered insignificant to anyone. Under my 
leadership, this committee will not ignore or downplay the significance 
of any American making a credible allegation of discrimination by their 
Government. As TSA says: ``Not On Our Watch.''
    Moreover, incidents are likely underreported, as people who are 
discriminated against in various ways throughout society may not have 
the time or resources to lodge formal complaints in every instance. It 
is clear from the complaints GAO has documented and recent media 
reports that TSA's screening processes disproportionately impact 
minority populations. In particular, Advanced Imaging Technology or 
``AIT'' machines regularly alarm on certain populations--such as Sikh 
passengers, African American women, and transgender people--leading to 
increased delays and pat-downs. AIT machines rely on algorithms that 
define what TSA considers ``normal''--and religious headwear, 
hairstyles, or bodies that fall outside that definition are flagged for 
further inspection. TSA must improve its technology to address this 
issue, while considering the diversity of the public when it solicits 
and tests new technologies.
    Finally, I want to make clear that my concerns are not with the TSA 
workforce. TSA's front-line officers have proven their commitment to 
TSA's mission, despite insufficient pay and, during the Government 
shutdown, missed paychecks. Over and over again, TSA has made the news 
due to a poor passenger screening experience, and after an 
investigation, TSA's statement has almost always noted that officers 
followed security procedures appropriately. By and large, TSA's 
problems lie with its procedures--not its officers. As for the agency, 
I commend TSA for the work it has done to engage advocacy groups and 
improve cultural awareness training for officers. The next step is for 
TSA to ensure it fully considers concerns voiced by multicultural 
groups when developing technologies and screening procedures.
    TSA must provide effective security without disproportionately 
impacting certain groups of Americans. This is not an ``either/or'' 
proposition. TSA interacts more intimately with the public on a regular 
basis than any other Government agency, screening over 2 million 
passengers every day and physically touching many of them. For many, 
TSA is not just the ``public face'' of Government--but its ``hands'' 
too. Its success as a security agency depends upon the trust and 
compliance of a diverse public. I hope to have a productive dialog 
today about how we can continue to move TSA toward that important goal.

    Mr. Rogers. Thank you, Mr. Chairman.
    Unfortunately, allegations of unlawful profiling are 
nothing new for TSA. Since the agency was created after 9/11, 
it has faced allegations that its screening practices unfairly 
target certain populations of travelers.
    Some of these allegations have stemmed from TSA's behavior 
detection program. Throughout the program's several iterations, 
the TSA has faced bipartisan criticism from this committee for 
its lack of scientific validation in evaluating passengers' 
risk to the aviation security.
    That is why I am pleased that last Congress the Republican 
Majority enacted legislation Representative Katko authored to 
end stand-alone Behavior Detection Officer positions and 
require them to be integrated into the primary screening 
functions at checkpoints. This important step has helped 
alleviate passenger wait times while sending a strong message 
to TSA about Congress' dissatisfaction with the behavior 
detection program.
    In the most recent review, GAO issued a single 
recommendation for TSA to establish an oversight mechanism to 
better monitor behavior detection activities. TSA should 
implement this recommendation immediately.
    I would note that during the full year period GAO considers 
part of this report, TSA conducted nearly 3 billion passenger 
screenings. Of those 3 billion, only 1,066 passengers had 
allegations of unlawful profiling that were substantiated and 
resulted in employee retraining. That is an average of one 
substantiated allegation for every 2.8 million passengers 
screened.
    In no way does this minimize the very real experiences of 
those who have faced discrimination. Even one incident is too 
many. However, this context is important.
    The vast majority of TSA officers conduct themselves 
professionally. It would be unfortunate for this committee to 
send a message to them or the traveling public that unlawful 
profiling is rampant within the ranks when, according to this 
data, it is not.
    In contrast to the low rates of unlawful profiling, 
previous media reports have highlighted the very high rates of 
TSA screeners failing to detect threats at checkpoints. I hope 
at some point in the near future the Majority will focus on 
oversight efforts on finding a solution to this tremendous risk 
to aviation security.
    Finally, this is the second hearing concerning TSA in as 
many weeks where the Majority chose not to invite the agency to 
testify. I think all Members would agree that it would have 
been beneficial for the TSA to appear today to respond to the 
GAO report and the perspectives of other witnesses.
    At some point, I hope the Majority will seek input from TSA 
on these important issues. In the interim, I look forward to 
this hearing and from our witnesses today.
    Thank you. I yield back.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
                              June 4, 2019
    Thank you, Mr. Chairman.
    Unfortunately, allegations of unlawful profiling are nothing new 
for the TSA. Since the agency was created after September 11, it has 
faced allegations that its screening practices unfairly target certain 
populations of travelers.
    Some of these allegations have stemmed from TSA's behavior 
detection program. Throughout the program's several iterations, the TSA 
has faced bipartisan criticism from this committee for its lack of 
scientific validation in evaluating passengers' risk to aviation 
security.
    That is why I am pleased that last Congress, the Republican 
Majority enacted legislation Representative Katko authored to end 
stand-alone Behavior Detection Officer positions and require them to be 
integrated into the primary screening functions at checkpoints. This 
important step has helped alleviate passenger wait times while sending 
a strong message to TSA about Congress's dissatisfaction with the 
behavior detection program.
    In its most recent review, GAO issued a single recommendation for 
TSA to establish an oversight mechanism to better monitor behavior 
detection activities. TSA should implement this recommendation 
immediately.
    I would note that during the 4-year period GAO considered as part 
of its report, TSA conducted nearly 3 billion passenger screenings. Of 
that 3 billion, only 1,066 passengers had allegations of unlawful 
profiling that were substantiated and resulted in employee retraining. 
That's an average of 1 substantiated allegation for every 2.8 million 
passengers screened.
    In no way does this minimize the very real experiences of those who 
have faced discrimination. Even one such incident is too many. However, 
this context is important.
    The vast majority of TSA officers conduct themselves 
professionally. It would be unfortunate for this committee to send a 
message to them and the traveling public that unlawful profiling is 
rampant within their ranks, when, according to the data, it is not.
    In contrast to the low rates of unlawful profiling, previous media 
reports have highlighted very high rates of TSA screeners failing to 
detect threat items at checkpoints. I hope that at some point in the 
near future, the Majority will focus its oversight efforts on finding a 
solution to this tremendous risk to aviation security.
    Finally, this is the second hearing concerning the TSA in as many 
weeks where the Majority chose not to invite the agency to testify. I 
think all Members would agree that it would have been beneficial for 
TSA to appear today to respond to the GAO report and the perspectives 
of our other witnesses. At some point, I hope the Majority will seek 
input from the TSA on these important issues. In the interim, I look 
forward to hearing from our witnesses today.
    I yield back.

    Chairman Thompson. Other Members of the committee are 
reminded that under committee rules opening statements may be 
submitted for the record.
    [The statement of Hon. Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                              June 4, 2019
    Thank you, Chairman Thompson for holding today's hearing on 
``Examining TSA Mechanisms to Prevent Unlawful Profiling.''
    The United States is a Nation of laws and as such we must be 
mindful of the reason for the creation of the TSA following the 
horrific attacks of September 11, 2001.
    Today's hearing provides an opportunity for Members of this 
committee to examine whether TSA's policies and screening processes 
allow for unlawful profiling and discuss the perspectives of community 
groups that have worked to improve processes and address potential 
discrimination by TSA.
    The September 11, 2001 was also the date Mr. Balbir Singh Sodhi was 
murdered because of his religious beliefs.
    Mr. Balbir Singh, an Indian Sikh immigrant was gunned down at the 
gas station that he owned in Mesa, Arizona.
    Balbir Singh Sodhi was the oldest of 5 brothers and had immigrated 
to the United States from India in 1988 to realize the American Dream.
    Mr. Balbir Singh Sodhi was a husband and a father of 2 daughters.
    Mr. Balbir Singh Sodhi would regularly send money to his family 
that still lived in India.
    Balbir Sodhi's murderer, Frank Roque had stated earlier: ``I'm 
going to go out and shoot some towel heads,'' and ``We should kill 
their children, too, because they'll grow up to be like their 
parents.''
    Four days later, Frank Roque shot Balbir Sodhi in the back 5 times.
    Balbir Singh Sodhi was the first murder victim in the post-9/11 
backlash.
    Balbir Singh Sodhi was targeted simply because he had a beard and 
wore a turban in accordance with his Sikh faith.
    Such senseless acts of violence highlight how important it is for 
racial profiling and discrimination to be eradicated.
    The murder may have killed Balbir Singh Sodhi, but he could not 
kill his spirit, which lives on in the lives of his children and his 
relatives, one of whom, Hargun Sodhi is an excellent student at the 
University of Houston and an intern in my office.
    I look forward to hearing from today's witnesses testimony on 
preventing unlawful profiling:
  <bullet> Mr. Bill Russell, director, homeland security and justice, 
        Government Accountability Office (GAO);
  <bullet> Mr. Sim Singh, senior manager of policy & advocacy, The Sikh 
        Coalition; and
  <bullet> Ms. Janai Nelson, associate director-counsel, NAACP Legal 
        Defense and Educational Fund, Inc.
    My admiration and respect for the men and women of the TSA as 
public servants who are our Nation's first line of defense against 
terrorism that targets our Nation's transportation is well-known.
    Today's hearing is not about the rank and file of the TSA who work 
under different circumstances than other Federal employees--they have 
no collective bargaining rights.
    TSA employees are essential personnel so during the recent Federal 
Government shutdown that lasted over a month, they were expected to go 
to work each day, which most of them did at great personal sacrifice.
    TSA professionals work long hours due to insufficient staffing.
    Securing our Nation's airports requires efficiency and 
effectiveness of all aspects of recruitment, training, and retention of 
TSA professionals.
    This hearing is about a policy that they must implement that is 
void of input from TSA rank-and-file and impacts every traveler 
boarding a flight originating in the United States are arriving in this 
country from abroad.
    TSA screening protols should reflect the real threats that exist to 
our Nation's transportation systems.
    In the last decade, domestic terrorism has become an increasing 
concern in the United States.
    In 2018, domestic extremists killed at least 50 people in the 
United States, a sharp increase from the 37 extremist-related murders 
documented in 2017, though still lower than the totals for 2015 (70) 
and 2016 (72).
    The 50 deaths made 2018 the fourth-deadliest year on record for 
domestic extremist-related killings since 1970.
    According to an analysis by the Washington Post, between 2010 and 
2017, right-wing terrorists committed a third of all acts of domestic 
terrorism in the United States (92 out of 263), more than Islamist 
terrorists (38 out of 263) and left-wing terrorists (34 out of 263) put 
together.
    Recent unpublished FBI data leaked to the Washington Post in early 
March 2019 reveal that there were more domestic terrorism-related 
arrests than international terrorism-related arrests in both fiscal 
year 2017 and fiscal year 2018.
    From 2009 to 2018 there were 427 extremist-related killings in the 
United States. Of those, 73.3 percent were committed by right-wing 
extremists, 23.4 percent by Islamist extremists, and 3.2 percent by 
left-wing extremists.
    In short, 3 out of 4 killings committed by right-wing extremists in 
the United States were committed by white supremacists (313 from 2009 
to 2018).
    The culmination of the 2016 mid-term election was consumed by bombs 
placed in the mail addressed to Democrats.
    TSA interacts more intimately with broad swaths of the public than 
any other Government agency, screening over 2 million passengers every 
day.
    TSA policies, procedures, and technologies should reflect the 
diversity of the population it serves, without disproportionately 
affecting minorities.
    The Government Accountability Office conducted a study to review 
TSA's measures to prevent behavior detection activities from resulting 
in unlawful profiling.
    GAO reviewed TSA policies and procedures; analyzed passenger 
complaint data received by TSA from October 2015 through February 2018 
and actions taken to address them; and interviewed TSA officials.
    From its findings, GAO recommends that TSA develop a specific 
oversight mechanism to monitor behavior detection activities for 
compliance with policies that prohibit unlawful profiling. DHS 
concurred with GAO's recommendation.
    Some notable statistics:
  <bullet> From October 2015 through February 2018, TSA received about 
        3,700 complaints alleging civil rights and civil liberties 
        violations related to passenger screening.
  <bullet> TSA operates at about 450 airports Nation-wide, but just 10 
        airports accounted for a full third of all complaints analyzed.
  <bullet> Approximately 2,250 of 3,663 of the complaints alleged 
        discrimination or profiling based on personal attributes and 
        characteristics.
  <bullet> For example, the TSA Contact Center (TCC) received 
        complaints alleging discrimination that involved assertions by 
        passengers that they had been selected for pat-downs based on 
        race and ethnicity, among other reasons, when the passengers 
        believed they did not trigger an alarm prompting the pat-downs.
  <bullet> The TSA TCC received complaints related to passengers' 
        transgender identity alleging selection for additional 
        screening because of their transgender status.
  <bullet> TCC also received passenger complaints alleging that 
        screening procedures were aggressive or inappropriate for 
        senior citizens.
    The American Civil Liberties Union published a report, ``BAD TRIP: 
Debunking the TSA's Behavior Detection Program,'' based on documents 
the ACLU obtained in a Freedom of Information Act lawsuit.
    The ACLU report reveals that materials in TSA's own files discredit 
the program.
    The report recommends that the TSA implement a rigorous anti-
discrimination training program for its workforce.
    Specifically, the ACLU found that TSA protocols for behavior 
screening misunderstand nonverbal behavior due to inadequate 
understanding of cultural norms and cues.
    Further, they found that nonverbal patterns typical for ethnic 
groups are easily interpreted by Caucasian observers as signs of 
deception.
    Documents in the TSA's files underscore that physiological signs 
such as blushing, sweating, or trembling have numerous potential 
causes, including medical conditions.
    The fact that the TSA associates those signs with stress, fear, or 
deception increases the likelihood that officers will more intensively 
scrutinize travelers with medical conditions.
    The topic of today's hearing is important and I thank the Chairman 
for his foresight in bringing today's witnesses before the committee.
    I look forward to the testimony of today's witnesses.
    Thank you.

    Chairman Thompson. Also, we had informed the Minority weeks 
ago that we intended to hold this hearing today and formal 
notice of the hearing was made in full compliance with the 
rules. We, too, would have wanted TSA to be here. The committee 
has been engaged with TSA and other stakeholders, and this is 
just part of what we have to do to look at this situation. So 
we look forward to getting TSA before the committee at some 
point.
    I would also like to welcome our panel of witnesses today.
    Our first witness, Mr. William Russell, is an acting 
director of the Government Accountability Office, Homeland 
Security and Justice team, where he is responsible for leading 
GAO's work on aviation and transportation security. Mr. Russell 
has over 17 years of experience at GAO and was previously an 
assistant director in GAO's Contracting and National Security 
Acquisitions team.
    Mr. Sim Singh is a senior manager of policy and advocacy at 
the Sikh Coalition, where he works on National advocacy issues 
against hate crimes, school bullying, employer discrimination, 
and racial profiling. Prior to joining the Sikh Coalition, Mr. 
Singh developed apps that provide free legal resources for 
highly-vulnerable communities and worked in governmental 
affairs through prior positions at Facebook and the U.S. 
Chamber of Commerce.
    Ms. Janai Nelson is associate director-counsel for the 
NAACP Legal Defense and Educational Fund, Inc., where she 
helped oversee the operation of LDF's program. Prior to joining 
LDF in June 2014, Ms. Nelson held senior leadership positions 
at St. John's University School of Law, where she also was a 
full professor of law.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
or her statement for 5 minutes, beginning with Mr. Russell.

  STATEMENT OF W. WILLIAM RUSSELL, ACTING DIRECTOR, HOMELAND 
   SECURITY AND JUSTICE TEAM, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Russell. Good morning, Chairman Thompson, Ranking 
Member Rogers, and Members of the committee. I am pleased to be 
here today to discuss perspectives on TSA's policies to prevent 
unlawful profiling while screening passengers.
    In our report issued today, we examined a range of issues 
related to how TSA implements policies that prohibit unlawful 
profiling, to include oversight of behavior detection 
activities, as well as how TSA addressed passenger screening-
related complaints that allege profiling and other civil rights 
and civil liberties issues.
    The bottom line is that TSA has policies and procedures in 
place that prohibit unlawful profiling of passengers, but can 
improve oversight of its behavior detection activities related 
to profiling.
    Second, based on our review of passenger screening-related 
complaints, TSA found indications of potential discrimination 
and unprofessional conduct by screeners that involved race or 
other factors for more than 1,000 of the complaints reviewed.
    In terms of behavior detection oversight, TSA began using 
behavior detection in a more limited way in 2016 to identify 
potentially high-risk passengers who exhibit certain behaviors 
it asserts are indicative of stress, fear, or deception, and 
refer them for additional screening.
    We found that TSA has oversight policies for behavior 
detection that do prohibit unlawful profiling, but does not 
specifically assess whether profiling occurs. For example, 
TSA's Optimized Behavior Detection Handbook and Oversight 
Guidance require supervisors to conduct routine checks on 
behavior detection operations to monitor compliance with 
standard operating procedures. This includes 7 specific 
assessments and checklists for managers to document completion 
of routine oversight.
    However, our review of the checklist found that they do not 
specifically instruct supervisors to monitor for compliance 
with procedures intended to prohibit unlawful profiling. We 
recommended that TSA develop a specific oversight mechanism to 
address compliance in this regard. TSA agreed to do so and 
plans to implement this recommendation by the end of September 
2019.
    Second, apart from behavior detection, we also examined 
civil rights and civil liberty-related passenger screening 
complaints received by TSA from October 2015 through February 
2018 and looked at what TSA did to address those complaints.
    In total, TSA received about 3,700 of these types of 
complaints, the majority of which allege discrimination or 
profiling based on personal attributes and characteristics, a 
number of specific complaints related to hair and transgender 
issues.
    TSA's Multicultural Branch, the office responsible for 
reviewing these types of complaints, assessed over 2,000 of 
them, and for about half, 1,066 to be exact, found indications 
of potential discrimination and unprofessional conduct that 
involved race or other factors.
    For example, in one case we reviewed a passenger alleged 
profiling based on headwear. TSA officials used camera 
recordings and statements from officers involved in the 
encounter to substantiate that screening procedures violations 
had occurred.
    In response to these complaints, TSA recommended a range of 
refresher training across airports or for screeners at 
individual airports identified in the complaints.
    We found that TSA's responses to the complainants included, 
but were not limited, to apologizing for the screening 
experience or informing the complainant about next steps, such 
as agency plans to address the complaint or the underlying 
conduct that gave rise to it. We also found that TSA reviewed 
trends in the passenger complaint data and used that 
information to further inform and update screener training.
    In conclusion, TSA can improve how it conducts oversight of 
behavior detection activities related to profiling and should 
continue efforts to identify and address passenger screening 
complaints that allege civil rights and civil liberty issues.
    Chairman Thompson, Ranking Member Rogers, this concludes my 
prepared remarks. I look forward to any questions you may have.
    [The prepared statement of Mr. Russell follows:]
                Prepared Statement of W. William Russell
                              June 4, 2019
 aviation security.--tsa has policies that prohibit unlawful profiling 
   but should improve its oversight of behavior detection activities
                              gao-19-490t
    Chairman Thompson, Ranking Member Rogers, and Members of the 
committee: I am pleased to be here today to discuss mechanisms the 
Transportation Security Administration (TSA) uses to prevent unlawful 
profiling while screening passengers using behavior detection 
techniques. TSA uses behavior detection to identify potentially high-
risk passengers who exhibit certain behaviors it asserts are indicative 
of stress, fear, or deception, and refer them for additional screening 
or, when warranted, to law enforcement.\1\ Although TSA's policies and 
procedures prohibit unlawful profiling, and screeners are prohibited 
from selecting passengers for additional screening based on race, 
ethnicity, or other factors, allegations of racial profiling have 
raised questions about TSA's use of behavior detection.
---------------------------------------------------------------------------
    \1\ We reported in November 2013 that available evidence did not 
support whether behavioral indicators can be used to identify persons 
who may pose a risk to aviation security. We recommended that TSA limit 
future funding support for the agency's behavior detection activities 
until TSA could provide scientifically-validated evidence that 
demonstrates that behavioral indicators can be used to identify 
passengers who may pose a threat to aviation security. In 2017, we 
reported that TSA had reduced funding for behavior detection activities 
and revised its behavioral indicators. We stated that TSA should 
continue to limit funding for such activities until it can provide 
valid evidence demonstrating that behavioral indicators can be used to 
identify passengers who may pose a threat to aviation security. GAO, 
Aviation Security: TSA Should Limit Future Funding for Behavior 
Detection Activities, GAO-14-159 (Washington, DC: Nov. 8, 2013); and 
Aviation Security: TSA Does Not Have Valid Evidence Supporting Most of 
the Revised Behavioral Indicators Used in Its Behavior Detection 
Activities, GAO-17-608R (Washington, DC.: July 20, 2017).
---------------------------------------------------------------------------
    My testimony today discusses: (1) How TSA trains screeners who 
engage in behavior detection on policies and procedures that prohibit 
unlawful profiling; (2) TSA's oversight of behavior detection 
activities; (3) the number of complaints TSA received alleging 
violations of civil rights and civil liberties related to passenger 
screening from October 2015 through February 2018, and actions taken by 
TSA to address them; and (4) how TSA used complaint data to inform 
screener training.
    This statement summarizes our April 2019 report on TSA's measures 
to prevent behavior detection activities from resulting in unlawful 
profiling.\2\ For this work, we reviewed TSA policies and procedures; 
interviewed TSA officials; and analyzed civil rights and civil 
liberties complaints made by passengers from October 2015 through 
February 2018 and actions taken by TSA to address them.
---------------------------------------------------------------------------
    \2\ GAO, Aviation Security: TSA Has Policies that Prohibit Unlawful 
Profiling But Should Improve Its Oversight of Behavior Detection 
Activities, GAO-19-268 (Washington, DC: April 23, 2019).
---------------------------------------------------------------------------
    Further details on the scope and methodology for the April 2019 
report are available within the published product. The work on which 
this statement is based was conducted in accordance with generally 
accepted Government auditing standards.
                               background
TSA's Use of Behavior Detection
    The Aviation and Transportation Security Act established TSA as the 
Federal agency with primary responsibility for securing the Nation's 
civil aviation system, which includes the screening of all passengers 
and property transported by commercial passenger aircraft.\3\ At the 
approximately 440 TSA-regulated airports in the United States, all 
passengers, their accessible property, and their checked baggage are to 
be screened prior to boarding an aircraft or entering the sterile area 
of an airport pursuant to statutory and regulatory requirements and 
TSA-established standard operating procedures.\4\ TSA began using 
behavior detection in 2006 as an added layer of security to identify 
potentially high-risk passengers.
---------------------------------------------------------------------------
    \3\ See Pub. L. No. 107-71,  101(a), 115 Stat. 597 (2001); 49 
U.S.C.  114. For purposes of this statement, ``commercial passenger 
aircraft'' generally encompasses the scheduled passenger operations of 
U.S.-flagged air carriers operating in accordance with their TSA-
approved security programs and foreign-flagged air carriers operating 
in accordance with security programs deemed acceptable by TSA. See 49 
C.F.R.  1544 (governing U.S.-flagged air carriers) and 1546 (governing 
foreign-flagged air carriers).
    \4\ See 49 C.F.R.  1540.5 (defining the sterile area of the 
airport as, in general, an area of an airport that provides passengers 
access to boarding aircraft and to which access is controlled through 
the screening of persons and property).
---------------------------------------------------------------------------
    Through the end of fiscal year 2016, TSA's behavior detection 
screening process was a stand-alone program that used specially-trained 
Behavior Detection Officers to observe passengers at the screening 
checkpoint and engage them in brief verbal exchanges. If the Behavior 
Detection Officers determined during this interaction that a passenger 
exhibited a certain number of behavioral indicators, the Behavior 
Detection Officer was to refer the passenger for additional screening 
or, if circumstances warranted, contact a law enforcement officer. The 
law enforcement officer then would determine next steps, which could 
include questioning the passenger or conducting a criminal background 
check. The law enforcement officer then would determine whether to 
release the passenger, refer the passenger to another law enforcement 
agency, or arrest him or her.
    In fiscal year 2017, consistent with the Aviation Security Act of 
2016, TSA eliminated the stand-alone Behavior Detection Officer 
position.\5\ TSA transferred the former Behavior Detection Officers to 
serve as part of the screener workforce and began assigning them to the 
checkpoint to screen passengers. According to TSA officials, when 
screeners trained in behavior detection are assigned to a position, TSA 
policies and procedures permit them to use behavior detection when 
applicable. Furthermore, some screeners trained in behavior detection 
work in conjunction with canine teams to observe passenger behavior and 
identify passenger behaviors that may indicate that a passenger poses a 
higher risk to the aviation system.\6\
---------------------------------------------------------------------------
    \5\ See Pub. L. No. 114-190,  3304(a)(1), 130 Stat. 615, 655 
(2016) (requiring that TSA, not later than 30 days after enactment 
(enacted July 15, 2016), utilize Behavior Detection Officers for 
passenger and baggage security screening, including the verification of 
traveler documents, particularly at designated TSA PreCheck lanes to 
ensure that such lanes are operational for use and maximum efficiency).
    \6\ TSA deploys passenger screening canine teams that are trained 
to detect explosives being carried by or worn on a person. TSA uses 
combinations of behavior detection and passenger screening canine teams 
to help ensure that individuals who have been selected for expedited 
screening do not exhibit high-risk behaviors or otherwise present a 
risk to the traveling public. Expedited screening is a process that TSA 
uses to assess a passenger's risk to aviation security prior to the 
passenger arriving at an airport checkpoint. GAO, Aviation Security: 
TSA's Managed Inclusion Process Expands Passenger Expedited Screening, 
but TSA Has Not Tested Its Security Effectiveness, GAO-15-465T 
(Washington, DC: Mar. 25, 2015).
---------------------------------------------------------------------------
TSA's Oversight of Behavior Detection
    TSA's Security Operations is responsible for overseeing the use of 
behavior detection. TSA's behavior detection policies and procedures 
prohibit screeners from selecting passengers for additional screening 
based on race, ethnicity, religion, and other factors, whether through 
behavior detection or other security measures. This responsibility 
includes overseeing officers trained in behavior detection to ensure 
they conduct behavior detection without regard to race/ethnicity, 
color, gender/sex, gender identity, religion, national origin, sexual 
orientation, or disability, in accordance with constitutional, 
statutory, regulatory, and other legal and Department of Homeland 
Security (DHS) policy requirements to protect the civil rights and 
civil liberties of individuals. Although the stand-alone Behavior 
Detection Officer position was eliminated and the program ended in 
2017, the requirement to conduct oversight and verify compliance with 
TSA policies still applies when behavior detection is used, such as 
when behavior detection is used in conjunction with passenger screening 
canine teams.
Passenger Complaint Review and Referral Process
    The TSA Contact Center (TCC) is the primary point of contact for 
collecting, documenting, and responding to public questions, concerns, 
or complaints regarding passengers' screening experience; reports and 
claims of lost, stolen, or damaged items; and complaints submitted by 
TSA employees.\7\ The TCC may refer screening complaints for resolution 
to other TSA headquarters offices, depending on the specific 
allegation. For example, complete complaints alleging violations of 
civil rights and civil liberties, which include allegations implicating 
color, race, ethnicity, gender, genetic information, national origin, 
religion, sexual orientation, and parental status, must be referred to 
the Multicultural Branch.\8\ Figure 1 describes the TCC's complaint 
review process.
---------------------------------------------------------------------------
    \7\ Questions, concerns, or complaints submitted to the TCC 
regarding passengers' screening experience may relate to any and all 
aspects of the screening process and are not necessarily specific or 
related to behavior detection activities. In this statement, we use 
``employees'' to refer to current and former TSA employees who 
submitted complaints alleging civil rights and civil liberties 
violations related to TSA employment to the TCC. The TCC is responsible 
for receiving these employee complaints and referring them to TSA's 
Equal Employment Opportunity office for review.
    \8\ According to the TCC standard operating procedures, TCC 
analysts review the complaints to ensure that they contain the 
necessary information to be considered complete, including the airport, 
passenger's name, date of the alleged incident, and description of the 
alleged civil rights and civil liberties violation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Multicultural Branch, in consultation with Security Operations, 
determines whether a screener followed standard operating procedures 
while screening the complainant by reviewing available video of an 
incident or interviewing witnesses. Following the outcome of the 
complaint review and any resulting corrective actions, the TSA 
headquarters unit or the TSA customer support manager at the airport is 
to communicate the status of the resolution, if any, to the 
complainant--such as by using a template letter that explains TSA's 
policies and procedures or issuing an apology.
   screeners conducting behavior detection receive training on tsa's 
        policies and procedures that prohibit unlawful profiling
    As we reported in April 2019, before screeners are eligible to 
conduct any behavior detection activities, they must first complete a 
5-day Optimized Behavior Detection Basic Training course, and undergo 
on-the-job training at their local airport. This course includes an 
overview of DHS and TSA policies that prohibit unlawful profiling, and 
trains screeners to apply behavioral indicators to passengers without 
regard to race/ethnicity, color, gender/sex, gender identity, religion, 
national origin, sexual orientation, or disability.\9\ In addition, 
TSA's 2018 National Training Plan required behavior detection-trained 
screeners to complete 4 recurrent technical training courses related to 
behavior detection, including 2 that contain material reinforcing DHS's 
and TSA's policies prohibiting unlawful profiling.\10\
---------------------------------------------------------------------------
    \9\ According to TSA policy, screeners may only use discernible 
traits to screen passengers when 3 conditions are met: (1) They are 
directed to do so by their Federal Security Director; (2) the directive 
is based on specific intelligence information; and (3) the directive is 
time-limited.
    \10\ The National Training Plan, which is developed annually, 
guides the training requirements for all screeners for a given year.
---------------------------------------------------------------------------
    tsa has oversight policies for behavior detection and prohibits 
 unlawful profiling but does not specifically assess whether profiling 
                                 occurs
    In April 2019, we reported that TSA policy and guidance requires 
managers to ensure behavior detection is conducted without regard to 
race or ethnicity, among other factors. TSA uses 7 oversight checklists 
to assess whether behavior detection activities are conducted in 
accordance with TSA policy, such as monitoring whether screeners 
trained in behavior detection observe and engage passengers correctly. 
However, our review of these checklists found that they do not instruct 
supervisors to monitor for indications of profiling. According to TSA 
officials, TSA's guidance and checklists do not include this type of 
monitoring because TSA officials believe that the training screeners 
receive, adherence to its operating procedures, and general supervisory 
oversight are sufficient to alert supervisors to situations when 
unlawful profiling may occur. However, a 2013 DHS memorandum addressing 
unlawful profiling states that each component, including TSA, should 
both implement specific policy and procedures on racial profiling, and 
ensure all personnel are trained and held accountable for meeting the 
standards set forth in DHS policy.\11\ For TSA, such a policy or 
procedure could be an item added to a checklist for supervisors to 
document, based on their observations, whether screeners selected 
individuals for additional scrutiny in a manner consistent with 
policies and procedures related to behavior detection activities and 
unlawful profiling. Developing a specific mechanism to monitor behavior 
detection activities for compliance with policies prohibiting unlawful 
profiling would provide TSA with greater assurance that screeners are 
adhering to such policies.
---------------------------------------------------------------------------
    \11\ Department of Homeland Security, Memorandum for Component 
Heads from Secretary Napolitano: The Department of Homeland Security's 
Commitment to Nondiscriminatory Law Enforcement and Screening 
Activities (Apr. 26, 2013). The DHS memorandum further states that DHS 
``has explicitly adopted'' the Department of Justice's ``Guidance 
Regarding the Use of Race by Federal Law Enforcement Agencies,'' issued 
in June 2003. According to the DHS memorandum, ``[i]t is the policy of 
DHS to prohibit the consideration of race or ethnicity in [its] daily 
law enforcement and screening activities in all but the most 
exceptional instances,'' as defined in Department of Justice guidance. 
See United States Department of Justice, Civil Rights Division, 
Guidance Regarding the Use of Race by Federal Law Enforcement Agencies 
(Washington, DC: June 2003).
---------------------------------------------------------------------------
    In our April 2019 report, we recommended that the TSA administrator 
direct Security Operations to develop a specific oversight mechanism to 
monitor the use of behavior detection activities for compliance with 
DHS and TSA policies that prohibit unlawful profiling. DHS agreed with 
our recommendation and stated that TSA plans to take additional steps 
to continue to ensure behavior detection activities adhere to policies 
that prohibit unlawful profiling. Specifically, TSA plans to modify 
existing oversight checklists used by managers and supervisors to 
include specific terminology for monitoring unlawful profiling. DHS 
estimates that this effort will be completed by September 30, 2019.
tsa received 3,663 complaints alleging civil rights and civil liberties 
     violations involving passenger screening in recent years, and 
                 recommended training in certain cases
The TCC Received 3,663 Complaints Related to Passenger Screening and a 
        Majority Alleged Discrimination or Profiling Based on Personal 
        Attributes and Characteristics
    In April 2019, we reported that the TCC received 3,663 complaints 
related to passenger screening alleging violations of civil rights and 
civil liberties from October 2015 through February 2018. These 
complaints are not specific to behavior detection activities and 
generally reflect alleged conduct occurring at the screening checkpoint 
through the application of screening measures. We analyzed the 3,663 
complaints and found that the majority (2,251 of 3,663) of the 
complaints alleged discrimination or profiling based on personal 
attributes and characteristics.\12\ For example, the TCC received 
complaints alleging discrimination that involved assertions by 
passengers that they had been selected for pat-downs based on race and 
ethnicity, among other reasons, when the passengers believed they did 
not trigger an alarm prompting the pat-downs.\13\ The TCC also received 
complaints related to passengers' transgender identity alleging 
selection for additional screening because of their transgender status. 
Additionally, the TCC received passenger complaints alleging that 
screening procedures were aggressive or inappropriate for senior 
citizens. Table 1 provides a list of complaint types based on our 
analysis. In addition, our April 2019 report provides additional detail 
about our content analysis of complaints alleging civil rights and 
civil liberties violations.\14\
---------------------------------------------------------------------------
    \12\ These complaints alleged discrimination or profiling based on 
personal attributes and characteristics related to, among other things, 
an individual's race, ethnicity, national origin, language, gender, 
age, and hair.
    \13\ Standard screening typically includes passing through a walk-
through metal detector or advanced imaging technology (AIT) machine, 
which identifies objects or anomalies on the outside of the body. 
Passengers may be subject to a pat-down if they are screened by the AIT 
or walk-through metal detector and the equipment alarms. Pursuant to 
TSA standard operating procedures for screening at the checkpoint, 
triggering an alarm is not the only reason why a passenger may be 
selected for a pat-down or additional screening measures.
    \14\ GAO-19-268.

 TABLE 1.--COMPLAINTS RECEIVED BY THE TRANSPORTATION SECURITY ADMINISTRATION (TSA) CONTACT CENTER (TCC) ALLEGING
     CIVIL RIGHTS AND CIVIL LIBERTIES VIOLATIONS RELATED TO PASSENGER SCREENING AND CATEGORIZED BY PERSONAL
        ATTRIBUTES AND CHARACTERISTICS OR BY ALLEGED ADVERSE ACTIONS, OCTOBER 2015 THROUGH FEBRUARY 2018
----------------------------------------------------------------------------------------------------------------
                    Category                      Frequency  Percentage            General Description
----------------------------------------------------------------------------------------------------------------
Discrimination/profiling--national origin,            1,532          42  Questions, concerns, or allegations
 language, race/ethnicity.                                                about profiling or discrimination
                                                                          based on the individual's national
                                                                          origin, language, race, or ethnicity,
                                                                          or discrimination/profiling in general
                                                                          (no reason specified).
Pat-down........................................        493          13  Questions, concerns, or allegations
                                                                          about a pat-down that was possibly
                                                                          invasive or overly aggressive,
                                                                          including pat-downs that the passenger
                                                                          alleges occurred due to their race/
                                                                          ethnicity.
Hair............................................        279           8  Questions, concerns, or allegations
                                                                          about receiving a hair pat-down.
Sex/gender/gender identity, excluding                   271           7  Questions, concerns, or allegations of
 transgender.                                                             discrimination based on gender,
                                                                          including gender identity concerns:
                                                                          e.g., the passenger asserts that a
                                                                          screener of the wrong gender started
                                                                          to conduct the pat-down. Also includes
                                                                          allegations of differential treatment
                                                                          based on their sex/gender. No mention
                                                                          of race/ethnicity.
Religion........................................        200           5  Questions, concerns, or allegations of
                                                                          discrimination based on perceived
                                                                          religion, e.g., a passenger alleges
                                                                          being subjected to additional
                                                                          screening because he or she appears to
                                                                          be part of a religious group or has a
                                                                          name that may make him or her appear
                                                                          to be part of a religious group.
Transgender.....................................        169           5  Questions, concerns, or allegations
                                                                          about transgender screening, e.g., a
                                                                          transgender passenger alleges that she
                                                                          always has to undergo a pat-down
                                                                          because TSA's technology is based on a
                                                                          binary male/female system.
Other--civil rights and civil liberties related.        316           9  Combination of categories such as age,
                                                                          sexual orientation, and Constitutional
                                                                          rights, among others.*
Other--not related to passenger screening.......        403          11  Combination of categories such as
                                                                          employee complaints, or those not
                                                                          related to passenger screening.**
                                                 ---------------------------------------------------------------
      Total.....................................      3,663         100  .......................................
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of TSA complaint data./GAO-19-490T
Note: We use the term ``passengers'' to refer to individuals--including ticketed passengers, individuals
  accompanying ticketed passengers, and any other individuals not considered an employee for purposes of this
  statement--who submitted complaints alleging civil rights and civil liberties violations related to TSA
  screening procedures to the TCC. In addition, we use ``employees'' in this table to refer to current and
  former TSA employees who submitted complaints alleging civil rights and civil liberties violations related to
  TSA employment to the TCC. The TCC is responsible for receiving these employee complaints and referring them
  to TSA's Equal Employment Opportunity office for review.
* Constitutional rights may include questions, concerns, or allegations raising freedom of speech or
  unreasonable search-and-seizure issues.
** Matters not related to passenger screening may include information received by the TCC that TSA characterizes
  as conspiracy theories or other information unrelated to TSA screening processes.

TSA's Multicultural Branch Reviewed More Than 2,000 Complaints and 
        Recommended a Range of Screener Training
    From October 2015 through February 2018, the Multicultural Branch 
received 2,059 complaints, including approximately 1,900 from the TCC 
as well as complaints referred from other TSA offices, alleging 
violations of civil rights and civil liberties, as shown in figure 
2.\15\
---------------------------------------------------------------------------
    \15\ TSA's Multicultural Branch receives complaint referral from 
multiple sources, including the TCC, DHS's Office of Civil Rights and 
Civil Liberties, TSA's Disability Branch, and TSA personnel at 
airports.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    For about half of the complaints (1,066) the Multicultural Branch 
reviewed, it found indications of potential discrimination and 
unprofessional conduct that involved race or other factors and 
recommended a range of refresher training across airports or for 
screeners at individual airports identified in the complaints. As we 
reported in April 2019, Multicultural Branch officials told us that its 
policy is to recommend refresher training as a proactive measure when, 
for example, they are unable to determine if the alleged civil rights 
and civil liberties violations occurred. Multicultural Branch officials 
said these trainings were provided through National Shift Briefings, 
which were circulated across TSA, or through training provided at a 
particular airport.\16\
---------------------------------------------------------------------------
    \16\ National Shift Briefings provide a reminder to all screening 
personnel of their role in ensuring that security measures are 
appropriately applied in accordance with TSA policies and procedures.
---------------------------------------------------------------------------
    In addition, TSA's office of Human Capital Employee Relations 
reported that it took a range of disciplinary actions--from letters of 
reprimand to termination--for 100 screeners from October 2015 through 
February 2018, in part in response to passenger complaints alleging 
civil rights and civil liberties violations.\17\
---------------------------------------------------------------------------
    \17\ TSA officials reported that none of the complaints that 
resulted in the disciplinary actions were specific to behavior 
detection. TSA's Human Capital Employee Relations officials determined 
that more than 60 percent of the 100 screeners used inappropriate 
comments or were engaged in misconduct, including offensive comments or 
actions based on another's race, national origin, and/or sex, among 
other factors.
---------------------------------------------------------------------------
tsa's multicultural branch analyzes and shares passenger complaint data 
                      to inform screener training
    In April 2019, we reported that TSA's Multicultural Branch 
regularly collects and analyzes data on passenger civil rights and 
civil liberties and discrimination complaints and their resolution 
status, and shares this information with TSA executive leadership, TSA 
airport customer service managers, and screeners in the field, among 
others. According to TSA officials, the Multicultural Branch uses its 
analysis of passenger complaints and the results of complaint 
investigations to develop training aids and materials on areas where 
they determine screeners need more training, such as multicultural 
awareness or screening of transgender passengers. For example, the 
Multicultural Branch has developed briefings focusing on unlawful 
profiling and unconscious bias which reiterated that unlawful profiling 
is against TSA policy, defined unconscious bias, and provided scenario-
based examples. Additionally, members from the Multicultural Branch 
hold on-site training for screeners at selected airports each year 
based on complaint data analysis and other factors. These training 
sessions last 3 days, include topics stemming from complaint data TSA 
has analyzed, and can include webinars, role-playing, and other forms 
of instruction.
    Chairman Thompson, Ranking Member Rogers, and Members of the 
committee, this concludes my prepared statement. I would be pleased to 
respond to any questions that you may have at this time.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize Mr. Singh to summarize his statement for 5 
minutes.

    STATEMENT OF SIM J. SINGH, SENIOR MANAGER OF POLICY AND 
                  ADVOCACY, THE SIKH COALITION

    Mr. Singh. I would like to thank this committee, including 
Chairman Thompson and Ranking Member Rogers, for their 
leadership and the opportunity to appear here today.
    My name is Sim J. Singh, and I am the senior manager of 
advocacy and policy at the Sikh Coalition, the Nation's largest 
Sikh American civil rights organization. We are a nonpartisan 
nonprofit focused on combating and preventing hate in America.
    We recognize the importance of TSA's mission to protect 
this Nation's transportation systems to ensure freedom of 
movement for people and commerce. However, if that is TSA's 
mandate, they must ensure the freedom of movement for all 
people, regardless of their race, sex, gender identity, 
national origin, religion, and disability.
    In 2019, we continue to receive complaints from Sikh 
travelers across the Nation reporting troubling incidents of 
profiling and discrimination. Oftentimes, these incidents 
involve secondary screening demands without any TSA technology 
indicating there is a problem.
    These discriminatory actions, combined with a lack of clear 
traveler guidance, has led to Sikh passengers feeling 
frustrated and singled out because they experience inconsistent 
TSA security screenings between airports and even within 
specific airports of frequent travel.
    While TSA's increased reliance on technology has come with 
Government assurances that it would mitigate against the need 
for pat-downs and searches that violate basic civil rights, 
this has not solved the discriminatory and invasive screening 
practices that enable the profiling of Sikhs.
    As a Sikh American and frequent traveler who maintains my 
religious articles of faith, I almost always experience an AIT 
alarm indicating that my turban is a problem and that I must 
undergo additional screening, ordinarily by explosive trace 
detection, a device that we receive many complaints about for 
false alarms, usually because the TSO failed to change their 
gloves and/or the ETD swab.
    Additional screening and searches for observant Sikhs 
remains highly probable, reinforcing that current TSA 
technology, policies, and procedures continue to single out and 
target our community.
    The message at airports across the country to millions of 
passengers watching: Sikhs are outsiders that somehow pose 
threats worthy of investigating, regardless of how pretextual 
that investigation is.
    These discriminatory practices continue to shift the focus 
away from the TSA's top priority of protecting our Nation. The 
Office of the Inspector General has repeatedly documented 
threats, such as guns, knives, and explosives, breezing through 
TSA security checkpoints with ease. As TSA continues to 
disproportionately focus on discriminatory behaviors, like Sikh 
religious articles of faith, it takes away from the necessary 
focus--combating credible threats.
    Unlike most Americans, Sikhs are continually asked to pay a 
price for exercising our Constitutional rights by submitting to 
routine and frequent searches by TSA. It further perpetuates 
negative stereotypes and falsely validates the myth of racial 
and religious communities posing a threat to our country.
    TSOs and other passengers witnessing minorities 
disproportionately receiving these additional screenings leads 
to the creation of implicit and explicit biases that 
detrimentally influence security policies and behavior, which 
justify scrutinizing specific kinds of travelers on racial or 
religious grounds.
    That begs the question: Are we really going to always 
select a Sikh for additional screening because he or she wears 
a turban? More importantly, why is this treatment considered 
acceptable?
    We request Members of this committee and Congress to 
reintroduce and pass the End Racial Profiling Act to 
comprehensively address bias and limit the harmful impacts of 
algorithmic bias.
    Second, our Government must correct screening policies and 
procedures that enable profiling, such as TSO abuses of 
discretion that is often used as a pretext to profile.
    Third, any new technology or procedures must reduce the use 
of pat-downs and ensure that travelers aren't singled out based 
on their race, religion, or gender. These invasive TSO-
administered pat-downs should be an absolute last resort where 
other screening procedures cannot revolve an alarm.
    Last, Congress should mandate independent and regular civil 
liberties impact assessments and require data collection on 
secondary screening incidents by the TSA.
    It is our sincere hope that this committee and TSA address 
the need for profiling protections and eliminate discriminatory 
practices, not just for the religiously observant Sikhs and 
Muslims, but also for the disability, transgender, and other 
minority communities.
    It is not a coincidence that the American public continues 
to fear and discriminate against those whom our Government 
continues to discriminate against. When a turbaned Sikh is 
routinely subjected to secondary screenings without cause, it 
further validates every false stereotype that contributes to 
Sikhs remaining hundreds of times more likely to experience 
bias, bigotry, or backlash in America.
    We are deeply appreciative for the time given today for the 
Sikh American community to raise our concerns.
    [The prepared statement of Mr. Singh follows:]
                   Prepared Statement of Sim J. Singh
                              June 4, 2019
    Chairman Thompson, Ranking Member Rogers, and Members of the 
committee: My name is Sim J. Singh, and I am the senior manager of 
advocacy & policy for the Sikh Coalition. Thank you for the opportunity 
to testify regarding the efforts of the Transportation Security 
Administration (TSA) to engage the traveling public. The Sikh Coalition 
is the Nation's largest Sikh American civil rights organization, non-
profit, non-partisan foundation founded in 2001 in response to numerous 
cases of discrimination against Sikh Americans after 9/11. Our mission 
has been to work toward a Nation where Sikhs--who have been part of the 
American fabric for over 125 years--and other religious minorities in 
America, may freely practice their faith without bias and 
discrimination.
    In addition to conducting public education, pro-bono legal aid, 
National research, and community empowerment, the Sikh Coalition works 
with Federal, State, and local agencies on a wide range of issues, and 
we have engaged with TSA since its inception. My testimony will focus 
on the challenges facing Sikh travelers, and our engagement with TSA. 
Please know that, we view these challenges as part of a broader 
spectrum of privacy and civil rights concerns that affect large 
segments of the traveling public. Those concerns are acutely amplified 
by travelers of intersectional identities of race, sex, gender 
identity, National origin, religion, and disability.
    Organizationally, we have worked with TSA to help reduce some of 
the inequities that travelers face based on their protected 
characteristics. Since 2001, the Sikh Coalition has trained thousands 
of Transportation Security Officers (TSOs) and Customs and Border 
Protection officers at airports across the country in providing 
cultural competency on the Sikh religious articles of faith. We have 
also advised TSA's multicultural branch on specific policy 
considerations, training gaps, and community outreach needs. Over the 
course of the last 18 years we have created several iterations of a 
traveler's guide to ``Know your Rights'', which TSA has vetted and 
provided feedback for in order to make it as accurate and consistent 
with TSA policy as possible.\1\
---------------------------------------------------------------------------
    \1\ See Exhibit B and Exhibit C.
---------------------------------------------------------------------------
    In 2012, we made filing complaints against TSA more accessible by 
introducing a free mobile app called FlyRights. It was the first-of-
its-kind mobile app created to combat profiling at airports and is 
still in use today. The app allows travelers to formally report 
incidents in real time and have those complaints routed to TSA and DHS 
so that they will be treated as official and actionable. Our app was 
adopted not just by Sikh travelers, but travelers of all walks of life 
with over 10,000 downloads. When it was first launched DHS reported a 
mere 8 complaints for 2012, while FlyRights documented 157 for the same 
year.\2\ In total the app helped facilitate approximately 1,000 
complaints at 112 airports and provides insights of the issues the 
traveling public is facing when it comes to TSA engagement on a daily 
basis.
---------------------------------------------------------------------------
    \2\ ``FlyRights'' by the Sikh Coalition, 2012, available at https:/
/www.fly-rights.org/infographic_2013.pdf.
---------------------------------------------------------------------------
    The Sikh Coalition recognizes the importance of TSA's mission to 
protect the Nation's transportation systems to ensure freedom of 
movement for people and commerce. We believe that the agency's mission 
statement can be more than aspirational. If the agency is going to 
ensure the freedom of movement for people, it must do so for ALL 
people, regardless of their race, sex, gender identity, national 
origin, religion and disability. Sometimes it takes difficult 
conversations like these to ensure TSA is living up to the standards it 
has set out for itself, and to uphold the civil liberties of all 
individuals. I'm sure we can all agree that our Government should not 
penalize anyone because of their protected characteristics.
    To be clear, profiling not only stigmatizes victims but also makes 
our Nation less safe because it redirects limited security resources 
away from detecting and preventing actual criminal behavior and 
security threats. Sikhs, like all other travelers, have the right to be 
free from profiling based on the wear of our articles of faith. As a 
concerned citizen and proud American, I am alarmed to hear that the 
Homeland Security Inspector General revealed that undercover 
investigators were able to smuggle banned weapons, such as fake guns, 
knives, and explosives, through checkpoints 70 percent of the time--
actions which could have been prevented if TSA had a better 
implementation of its resources and policies.\3\ The TSA shouldn't keep 
their eyes focused on my turban, rather security officials need to keep 
their eyes on the real threats such as the guns, knives, and explosives 
that have a 70 percent rate of passing a security checkpoint. With 
better technology, clearer and more transparent screening standards, 
increased oversight, and mechanisms in place to ensure civil rights 
compliance, our security resources can enable the agency to focus on 
the real threats facing our Nation.
---------------------------------------------------------------------------
    \3\ ``TSA Misses 70 percent Of Fake Weapons But That's An 
Improvement'' by Forbes November 9, 2017 available at https://
www.forbes.com/sites/michaelgoldstein/2017/11/09/tsa-misses-70-of-fake-
weapons-but-thats-an-improvement/#5a2deb2a38df.
---------------------------------------------------------------------------
                               background
    Sikhism is the fifth-largest organized world religion, with more 
than 25 million adherents throughout the world. Sikhs have been in the 
United States for 125 years and approximately 500,000 followers live 
here. The core teachings of the Sikh religion are that there is one God 
and that all human beings are created equal, regardless of distinctions 
such as their religion, race, sex, or caste. Observant Sikhs are 
distinguished by visible articles of faith, including uncut hair, which 
Sikhs, both men and women, will cover with a religiously mandated 
turban which must be worn at all times.
    Although the Sikh turban signifies a commitment to upholding 
freedom, justice, and dignity for all people, the physical appearance 
of a Sikh is often ignorantly and negatively conflated with images of 
foreign terrorists, some of whom also wear turbans and many of whom 
have received copious publicity in our mainstream media in the post-9/
11 environment. More troubling is that our physical appearance has 
invoked bias against our community. As far back as the early 20th 
Century, Sikhs have been ridiculed and stereotyped because of their 
appearance, and continue to be subjected to unusually high rates of 
discrimination and profiling based on these articles of faith. Today 
Sikhs continue to face disproportionately higher rates of secondary 
screening by TSA in comparison to the average traveler.
          challenges faced by religiously observant travelers
    TSA was established in the aftermath of Sept. 11, 2001 to help 
secure weaknesses in existing airport security procedures. In that same 
time period, hundreds of Sikh Americans were put on the receiving end 
of backlash attacks, harassment, and discrimination. Not only were 
Sikhs facing brutal physical assaults, murder, and intimidation within 
their neighborhoods, but law enforcement was also turning against Sikhs 
and other racial and religious minorities by subjecting people like us 
to profiling. At the time, TSA was no exception to profiling Sikhs 
because of their external appearance, subjecting Sikhs to a 100 percent 
screening rate at airports across the country.
    The removal of the turban--which Sikhs view as an extension of 
their body--is highly personal and sensitive and is akin to a strip 
search. Removal of the turban is not just a mere inconvenience for 
Sikhs, as re-tying a turban can take a significant period of time. It 
is considered a great dishonor for anyone to violate another's turban 
by removing it, and it is highly disrespectful to touch it with 
unwashed hands or by anyone who does not themselves adhere to the 
tenets of the faith. As you can imagine TSA's security protocol on 
religious headwear was deeply problematic for religious observance and 
civil rights, as it was patently similar to frisking an individual 
without suspicion or probable cause. The reason Sikhs are frisked is 
plainly stated by TSOs--it is because we wear turbans on our heads, and 
not that they actually believe we are hiding something underneath 
it.\4\
---------------------------------------------------------------------------
    \4\ ``Sikh Americans' `Raw Deal' at Airport Security'' by The 
Washington Post, November 29, 2013 available at https://
www.washingtonpost.com/opinions/sikh-americans-raw-deal-at-airport-
security/2013/11/29/8aab1dc6-5790-11e3-8304-caf30787c0a9_story.html.
---------------------------------------------------------------------------
    Anyone with religious headwear was mandated to remove their article 
of faith at TSA checkpoint until October 2007. After receiving numerous 
complaints we worked with TSA to help modify the agency's screening 
policy to better balance the needs of National security and civil 
rights. We arrived at a policy that allowed for self-pat-downs of 
religious headwear and presenting hands for additional screening with 
Explosive Trace Detection (ETD) devices.\5\ The new procedures, 
designed to detect non-metallic objects, allow the Sikh traveler to 
request a self-pat-down of their turban instead of an officer-conducted 
pat-down. A Sikh turban or other religious head covering may only be 
asked to be removed if the traveler wearing it does not successfully 
clear the additional screening measures that are in place.
---------------------------------------------------------------------------
    \5\ ``The Public Face of TSA: Examining the Agency's Outreach and 
Traveler Engagement Efforts'' by the Transportation Security 
Administration, March 5, 2018 available at www.tsa.gov/news/testimony/
2018/02/27/public-face-tsa-examining-agencys-outreach-and-traveler-
engagement.
---------------------------------------------------------------------------
    For Sikh Americans and other minority groups, biases against 
travelers are prevalent at every stage of the traveling process. This 
bias starts with the fact that TSOs do not receive adequate training on 
TSA policies or cultural competencies, which is evident from the moment 
many stigmatized groups arrive at the airport and have to go through 
behavioral detection before reaching security. It continues as these 
passengers pass through security, proceed past the security screening 
area, and in many cases even as these individuals are boarding their 
flights. For example, TSA has employed behavioral detection--a junk 
science--disproportionately targets segments of the traveling public 
for additional screening based on their racial or religious 
characteristics even before they enter the screening area. Once a 
traveler is within the screening area, inconsistent application of 
procedures--including the implementation of ``local rules'' on 
screening, unfettered TSO discretion, and biased technology single out 
specific groups of passengers more than others. Profiling continues to 
reverberate throughout the security landscape even after leaving the 
screening area with reports of TSOs attempting to haul passengers back 
for additional screening.\6\ This is often unacceptably exacerbated 
when the general traveling public expresses discomfort with traveling 
alongside passengers perceived to be Muslim, Middle-Eastern, Arab, and 
South Asian.\7\ To be clear, it is the Government's responsibility to 
remain above the fray when this type of public hysteria breaks out, and 
TSA should not be engaging in profiling activities as a result.
---------------------------------------------------------------------------
    \6\ ``TSA Tells Sikh Man To Remove Turban, Finds Out He's A 
Canadian Politician'' by HuffPost, May 11, 2018 available at 
www.huffpost.com/entry/tsa-sikh-canadian-
politician_n_5af5dbb3e4b00d7e4c1a643f?guccounter=1&guce_referrer=aHR0cHM
6Ly93d3cuZ29v- 
Z2xlLmNvbS8&guce_referrer_sig=AQAAAKnkncIsC_AlUNqKhr0UwyHDIqekBXfhAtqty4
e5J- _I8_eKOx_j4kOfw6_NPMuJD2rqBvt6ZkJAHerdZo9mfbQ-
fQHlRFK6yX8HGmEv_D5Cf- LX5Axuc3oU89g-
PbTfVJFnuulwz63XRLqHteBhFxGG9SCLqoQhV4IT77w1trZZL.
    \7\ ``Jess Hilarious profiled four Sikhs on a plan. Our government 
does so every day.'' By RNS, March 18, 2019 available at https://
religionnews.com/2019/03/18/jess-hilarious-profiled-four-sikhs-on-a-
plane-our-government-does-so-every-day/ and ``College Student Is 
Removed From Flight After Speaking Arabic on Plane'' by The New York 
Times, April 17, 2016 available at www.nytimes.com/2016/04/17/us/
student-speaking-arabic-removed-southwest-airlines-plane.html and 
``Four Passengers Removed from Flight at BWI That Was Headed to 
Chicago'' by The Washington Post, November 17, 2015 available at 
www.washingtonpost.com/local/trafficandcommuting/four-passengers-
removed-from-flight-at-bwi-that-was-headed-to-chicago/2015/11/17/
554cc46a-8d38-11e5-acff-673ae92ddd2b_story.html?utm_term=.26ce2023550d 
and ``Ivy League Professor Kicked Off Plane For Writing `Arabic 
Symbols,' '' AKA Math Equations'' by Mic, May 7, 2019 available at 
www.mic.com/articles/142926/ivy-league-professor-kicked-off-plane-for-
writing-arabic-symbols-aka-math-equations#.JYhQijNto.
---------------------------------------------------------------------------
                     technology reinforcing biases
    Not only are minority communities subjected to bias-based profiling 
by policies and procedures enabling discretion to be used as pretext 
for profiling, but the technology utilized to dispel bias-based 
suspicions reinforce negative stereotypes. The technology currently in 
use does not help reduce incidents of profiling; rather it ensures that 
secondary screening will transpire more frequently and adds needless 
delays, unwelcomed humiliation, and frustration as passengers with 
bulky clothing or certain hairstyles that are not equally subjected to 
TSA policies. Algorithmic biases like these are dangerous because 
algorithms are often perceived to be neutral and project greater 
authority than human expertise. Travelers feel that they cannot 
complain about the bad results generated by the machine or the TSO 
operating the device.
    In practice new policies adopted to screen religious headwear have 
not been implemented in a manner that is consistent, respectful, or 
accurate in threat detection. In many airports, TSOs are not adequately 
trained on TSA policies and procedures when it comes to screening and 
searching religious articles of faith. The option of a self-pat-down by 
a passenger is not proactively offered by the TSO. As such travelers 
often feel they have no other option than to acquiesce to the TSO's 
request to pat-down or removal of their religious garment. Travelers 
also don't want to make a TSO's job any harder than necessary or 
perpetuate a negative stereotype of an angry minority. Due to the lack 
of appropriate supervision and ineffective religious sensitivity 
training, TSA places the onus on travelers to request a self-
administered pat-down of their religious headwear and ensure TSOs are 
following their own security protocol.
    After a pat-down is conducted TSOs often fail to visibly change 
their gloves or replace ETD swabs in front of a traveler prior to 
administering the ETD on a traveler. ETDs are sensitive enough to 
capture chemical compounds by contact from other sources. TSOs come 
into primary contact with a range of chemical compounds carried by 
travelers before needing to administer an ETD. Without measures taken 
to ensure ETD alarms are as accurate as possible, travelers will 
continue to be subjected to invasive secondary screening by ETD which 
reduces passenger throughput and credible threat detection. These false 
alarms adversely impact travelers with religiously mandated headwear as 
the alarm will accompany a request to remove that religious headwear. 
We frequently receive reports of false ETD alarms from Sikh community 
members. Speaking from personal experience, the ETD alarms will not re-
occur upon a change of swabs and/or gloves. Unfortunately, ETDs and how 
they are implemented are not the only screening technology that singles 
out specific types of passengers for additional screening, Advanced 
Imaging Technology (AIT) devices are even more problematic.
    TSA adopted full-body scanners, amidst promises that these machines 
would eliminate the need for pat-downs, which we now know not to be 
true. The technology can apparently filter through clothing, but not 
thick hair.\8\ What culminates is disproportionate targeting of 
minorities based on race and religion. According to TSA, the cloth on 
our heads and/or the accompanying hair are registered as an ``anomaly'' 
requiring increased scrutiny. What results is humiliating hair and 
headwear pat-downs that leave travelers feeling profiled and violated 
while others watch. In practice, Sikhs are virtually guaranteed to 
receive secondary screening because of our turbans, and reports also 
show that African American women and transgender individuals are 
subjected to higher rates of secondary screening as a result of AIT 
deficiencies as well.\9\
---------------------------------------------------------------------------
    \8\ ``How Airport Scanners Discriminate against Passengers of 
Color.'' Vox, April 17, 2019 available at www.vox.com/the-goods/2019/4/
17/18412450/tsa-airport-full-body-scanners-racist.
    \9\ ``TSA Agents Say They're Not Discriminating Against Black 
Women, But Their Body Scanners Might Be'' by ProPublica, April 22, 2019 
available at www.propublica.org/article/tsa-not-discriminating-against-
black-women-but-their-body-scanners-might-be.
---------------------------------------------------------------------------
    Despite TSA having knowledge and proof of long-standing issues 
facing travelers with religious headwear, the agency has failed to 
publish easily accessible and transparent information on its website to 
assist this segment of the traveling public. Instead the agency relies 
on a ``Know Before You Go'' document that contains ambiguous and 
unclear language that is confusing for a Sikh traveler. This document 
also was never published on the agency's website and it's unclear how 
it is even distributed to the public. Ultimately, the agency relies on 
organizations like ours to develop easy-to-understand publications that 
are language-accessible and comprehensible to the average traveler, 
however even then TSA fails to adequately resolve issues that such 
organizations face when deciphering TSA's policies by often citing 
``National Security'' as a reason to evade answering questions for 
clarity.\10\
---------------------------------------------------------------------------
    \10\ ``Know Your Rights At the Airport'' by the Sikh Coalition, 
Nov. 19, 2018 available at https://www.sikhcoalition.org/wp-content/
uploads/2018/11/tsa-know-your-rights-2018-1.pdf.
---------------------------------------------------------------------------
    TSA needs to do more to ensure the technologies and procedures in 
use do not perpetuate biases or otherwise lead to disproportionate 
screening of minority and marginalized communities. TSA must also 
convene stakeholders from the community, including organizations like 
the Sikh Coalition, to provide input and feedback on policy procedures, 
development, and challenges. We should not accept the fact that 
specific groups of travelers are guaranteed to receive secondary 
screening whenever they pass through TSA checkpoints due to their race 
or religion. Beyond these common-sense approaches, more needs to be 
done to reduce incidents of bias and recognizing the consequences. Not 
only are minority communities adversely impacted by biases in 
technology and its application, but it also inadvertently validates and 
perpetuates negative stereotypes of the ensnared communities.
    The general traveling public also internalizes these biases by 
witnessing minority communities routinely subjected to secondary 
screening when passing through security checkpoints. As a result of the 
negative stereotypes reinforced by TSA's screening procedures and 
policies, passengers have a heightened fear of those who are most 
likely to face secondary screening and equate those individuals (and 
others who look like them) with ``something'' dangerous. The 
deputization of the general traveling public as an integral part of the 
security landscape via programs like ``If you see something, say 
something'', creates further harm against minority communities. 
Minorities are therefore increasingly singled out by the general public 
with reports of suspect behavior based purely on bias.
    The result is innocent travelers forcibly removed by airlines as a 
result of the traveling public citing fears for their safety--fears 
based on perceptions of an individual's appearance, language, or 
religious appearance. What is apparent from these disturbing events is 
the need for better passenger protections to mitigate against profiling 
and the wrongful removal of a passenger from flights for innocuous 
behavior such as speaking a foreign language.
    Proposals to implement any new technology must be carefully 
scrutinized to ensure that technologies that are touted as 
``objective'' do not have the potential of discriminating against 
people of color, faith, gender identity, disability, or nationality.
    It is not that the technology tools themselves are discriminatory--
instead they reinforce human biases and perpetuate disparate treatment. 
TSA's request for technology vendors to develop solutions that 
accommodate the diversity of the traveling public travelers is a good 
first step but not enough. Plans to introduce facial recognition 
technology by TSA should require more regulatory oversight as such 
technology has been repeatedly proven to have higher error rates in 
identifying darker-skinned and female faces.\11\ Such systems would 
exacerbate discrimination, encourage intrusive surveillance of 
marginalized groups, and cases of mistaken identity. It does not appear 
TSA is providing adequate consideration to the limitations of such 
technologies and the risk of bias they perpetuate for specific 
communities. The agency's plans to expand facial recognition technology 
under the TSA Biometrics Roadmap for Aviation Security and Passenger 
Experience to all passengers is yet another example of wasteful 
spending for technologies that are inaccurate and problematic for 
passengers.\12\ As new technologies evolve the Government must do more 
to ensure harm is not further perpetuated on already historically-
marginalized groups.
---------------------------------------------------------------------------
    \11\ ``AI Researchers Tell Amazon to Stop Selling `Flawed' Facial 
Recognition to the Police'' by The Verge, April 3, 2019 available at 
www.theverge.com/2019/4/3/18291995/amazon-facial-recognition-
technology-rekognition-police-ai-researchers-ban-flawed. ``Facial 
Recognition Is Accurate, If You're a White Guy.'' The New York Times, 
February 9, 2018 available at www.nytimes.com/2018/02/09/technology/
facial-recognition-race-artificial-intelligence.html.
    \12\ ``How the TSA's Facial Recognition Plan Will Go Far Beyond the 
Airport.'' American Civil Liberties Union, October 23, 2018 available 
at https://www.aclu.org/blog/privacy-technology/surveillance-
technologies/how-tsas-facial-recognition-plan-will-go-far.
---------------------------------------------------------------------------
        ambiguous discretion standards contributing to profiling
    Even where technology says an individual is not a threat, overly-
broad discretion is provided to TSOs to screen a traveler. Without a 
clear and articulable threshold standard required of other law 
enforcement agencies, travelers often feel profiled without any 
articulable basis for selection. When questioned, TSOs often claim that 
the routine selection of Sikhs a for further inspection is random, or 
plainly state that they are always required to screen headwear.
    In my personal experience, due to the wide discretion granted to 
TSOs, minorities like me have to change our behavior to avoid being 
singled out any more than we usually would be. I have to engage in a 
pattern of behavior not expected of my other fellow travelers. Though I 
have TSA PreCheck, I take many additional precautions such as wearing 
light and professional clothing to keep searches minimally invasive, 
triple checking all my pockets are emptied, ensuring that my bags are 
compliant with the latest TSA screening guidelines, and arriving at the 
airport well in advance of the average traveler--because ``something'' 
will usually require secondary screening. The less reasons I can 
provide for security to further delay me for additional screening, the 
better.
    It does not matter how bad of a day I am having--at no point am I 
allowed to get upset or show my aggravation. I can't commiserate with 
others who fume and complain throughout the security line. I have to be 
calm and respectful and answer questions as succinctly and politely as 
possible oftentimes giving deference to TSOs who I know are acting 
outside the scope of TSA policy and my civil rights, for fear of 
creating a scene or worse. Speaking clearly and quietly has the least 
risk of getting additional screening. For all intents and purposes, I 
must behave like a second-class citizen or model minority--I am not 
sure which is worse. The sad reality is that anyone with brown skin or 
non-Judeo-Christian religious headwear is not going to get through 
security any quicker by protesting, nor do we have the time and energy 
to protest about the many injustices faced every time we travel. If 
anything, we have learned that complaining about the bias of a TSO is 
only likely to confirm further suspicion and scary stories of being 
taken to private back rooms for searches.
    The Sikh community understands that most TSOs are just trying to do 
their job. But, wide discretion, inadequate training, and a lack of 
civil rights oversight will breed problems. When passengers like myself 
repeatedly experience suspect behavior by TSOs through random selection 
or additional screening because of clothing or something ``other'', it 
is clear that profiling is taking place. Anyone who reads media 
articles and publicly-available first-person accounts of additional 
screening will quickly identify a consistent pattern where people of 
color are routinely ``randomly'' selected for screening--to the point 
where it has become a joke.\13\
---------------------------------------------------------------------------
    \13\ ``Queer Eye's Tan France Claims TSA Racially Profiled Him 
After He Was Stopped 3 Times in a Week'' by People, December 13 2018, 
people.com/tv/queer-eyes-tan-france-slams-tsa-racial-profiling/.
---------------------------------------------------------------------------
    While traveling for work in 2018 out of DCA I was on the receiving 
end of this abuse of discretion, despite being a trusted traveler 
enrolled with TSA PreCheck and being cleared in the corresponding 
PreCheck line. I cleared the Walk-Through Metal Detector without alarm 
and was informed that I was chosen for random screening. I questioned 
how I was chosen after observing at least 20 passengers ahead of me not 
undergo additional screening. What resulted was a conversation with a 
TSA supervisor informing me that I would require additional screening 
solely as a result of my wearing a turban. That is unacceptable.
    Profiling has repercussions beyond mere inconvenience or delay for 
travelers. It further perpetuates negative stereotypes and falsely 
validates the myth of racial and religious minority communities posing 
a threat to our country. TSOs witnessing minorities disproportionately 
receiving additional screening leads to the creation of implicit and 
explicit biases that influence their behavior and TSA policies which 
serve to justify scrutinizing specific kinds of travelers on racial or 
religious grounds.
    According to TSA documents, there is a substantial focus on using 
techniques to specifically target Arabs, Muslims, and people of Middle 
Eastern or South Asian descent when it implemented the Screening 
Passengers by Observation Techniques.\14\ Training materials focused 
exclusively on examples of Arab or Muslim terrorists and perpetuated 
demeaning stereotypes about Muslims and women.\15\ From early 2008 to 
late 2009 TSOs routinely looked for Hispanic male travelers to see if 
they had proper visas and passport stamps. If not, those passengers 
would be subjected to bag searches, pat-downs, questioning, and 
referrals to immigration with bogus behaviors invented by screeners to 
obscure evidence of profiling and to meet alleged quotas.\16\ What is 
clear is that unfettered discretion in screening is being used as a 
pretext for harassing minorities and disfavored groups.
---------------------------------------------------------------------------
    \14\ ``TSA Screening Program Risks Racial Profiling amid Shaky 
Science'' by The Guardian, February 8, 2017 available at 
www.theguardian.com/us-news/2017/feb/08/tsa-screening-racial-religious-
profiling-aclu-study.
    \15\ ``New Documents Show This TSA Program Blamed for Profiling Is 
Unscientific and Unreliable--But Still It Continues'' by the American 
Civil Liberties Union, February 8, 2017 available at www.aclu.org/blog/
national-security/discriminatory-profiling/new-documents-show-tsa-
program-blamed-profiling.
    \16\ `` `The Mexican Hunters': Racial Profiling Team at Newark 
Airport Targeted Hispanic Passengers'' by the Daily Mail, June 13 2011 
available at www.dailymail.co.uk/news/article-2003174/The-Mexican-
Hunters-Racial-profiling-team-Newark-Airport-targeted-Hispanic-
passengers.html.
---------------------------------------------------------------------------
    The implicit and explicit biases of TSOs coupled with a lack of 
appropriate oversight, high turnover, and inadequate training are all 
factors that increase the likelihood that a religious or racial 
minority will be disproportionately selected for additional screening 
by a TSO. Without explicit and implicit bias training, TSA will 
continue to erode public trust and harm the civil rights of many 
travelers. Despite TSA having policies in place to prevent profiling, 
these policies appear to be enforced only after a complaint has been 
filed by a traveler and only within the specific airport where the 
violation occurred.
    Despite all the work that TSA has done to establish its 
Multicultural Division and community outreach, we are extremely 
disappointed to receive complaints in recent months of airports 
instituting ``local rules'' that require TSOs to frisk turbans without 
cause. We are hard-pressed to understand how a Federal agency governed 
by Federal law can implement ``local'' or regional rules, which 
inevitably lead to major inconsistencies in the application of Federal 
policies. We know that TSOs across the country are refusing travelers 
to self-administer a pat-down of their turban. To date, no TSA 
representatives have informed us of this potential policy change that 
affects religious headwear travelers nor has any information been 
published to advise the traveling public about this policy change. What 
the agency has done is fail to provide adequate guidance for when 
requests for self-pat-downs of religious headwear may or may not be 
granted, as our questions regarding that issue were met with the 
response that TSA could not disclose any information due to ``National 
Security'' concerns. It is the Government's responsibility to provide 
clarity for all travelers when it comes to the criteria for safely 
moving through TSA checkpoints. When there is a lack of transparency 
and failure in communication between TSA and organizations like the 
Sikh Coalition--which has always sought to work with TSA in providing 
cultural competency and in deciphering what TSA policy means for Sikhs 
in America--it calls into question the agency's commitment to ensuring 
the civil rights of all passengers are protected.
    Often individuals do not want to report TSA misconduct due to 
factors of embarrassment, lack of awareness about one's rights, 
hopelessness about change after 18 years of profiling, or lack of time 
and awareness on how to file a complaint. The Government Accountability 
Office's ``GAO'' recent report on profiling infers most travelers don't 
want to further engage with TSA or otherwise relive that traumatic 
experience. With the GAO's recent report reviewing approximately 3,700 
complaints, what is shocking is that half of the complaints were civil 
rights and civil liberties violations. It is not surprising that half 
of those complaints contained inaccessible passenger information or a 
lack of passenger response.
                         policy recommendations
    The consequences of profiling have far-reaching consequences beyond 
inconvenience and delays to specific groups of people. Whether implicit 
or explicit, biases have a detrimental impact on the freedom of 
movement for people and commerce. This is a damaging distraction from 
actual credible threats and creates distrust between vulnerable 
communities and the Federal Government.
    When profiling is made permissible by inadequate and inconsistent 
policies and biased technologies, it amounts to not just delay, 
inconvenience, and shame for being separated from family, friends, and 
colleagues for travelers, but it further perpetuates negative 
stereotypes of entire communities. It is a pronouncement that 
minorities are outsiders and pose threats worthy of investigation. This 
also hits home the reality that actual credible threats to our Nation's 
security are not TSA's priority. Without adequate screening procedures 
and practices, we trivialize the Constitution's promise of democracy 
and equality for all.
    The thousands of civil-rights-related complaints TSA has received 
are the tip of the iceberg. Many travelers don't know where to 
complain, or that they can complain, especially if TSOs were just 
following procedure and produces a bad outcome that is perceived as 
legitimate from technology that is biased. Some travelers have given up 
filing complaints when the same things happen again and again. What is 
clear is the need for improvements in TSA's training, policies, 
procedures, and implementation of technology.
    The Sikh Coalition offers the following recommendations in 
connection with the committee's hearing:
  <bullet> Require TSOs to adhere to consistent and transparent 
        standards of discretionary criteria that reduce the likelihood 
        of profiling. Criteria that requires a clear and articulable 
        suspicion of an individual and imminent security threat permits 
        TSOs to continue thwarting credible security threats and 
        reduces the likelihood of discretionary abuse. Beyond 
        establishing clear discretionary standards, TSA should also be 
        required to log statistical data on secondary screening 
        practices to eliminate inconsistencies, gauge the efficacy of 
        secondary screenings, and identify disproportionate enforcement 
        and TSO non-compliance.
  <bullet> Any new technology or procedures must reduce the use of pat-
        downs and ensure travelers aren't singled out based on their 
        race, religion, or gender. Respectful engagement with religious 
        headwear must be maintained at all times and the use of pat-
        downs should be an absolute last resort. Travelers with 
        religious grooming requirements, including headwear, should be 
        permitted the right to self-pat-down and avail themselves of 
        readily available non-intrusive screening methods. TSOs should 
        be provided clear guidance and training that travelers with 
        religious headwear must be given the option to self-pat-down. 
        Furthermore, TSA should issue clear guidance and training for 
        all TSOs and staff that ``local rules'' do not apply to the 
        agency and are not to be used as pretext to discriminate or 
        profile passengers for additional screening.
  <bullet> Screening policies of ETDs require transparent and 
        standardized application that mitigates the false positive 
        alert rate. When a traveler requires ETD screening, TSOs must 
        be required to change gloves and swabs in the presence of the 
        traveler to eliminate any uncertainty as to the TSO's adherence 
        to policy standards. Reducing the amount of false positives, 
        otherwise known as nuisance alarms, helps ensure that TSA staff 
        are able to allocate existing resources in a more efficient 
        manner and leads to improved traveler satisfaction and 
        throughput.
  <bullet> TSA must implement consistent, mandatory anti-discrimination 
        training programs for all TSA employees in promoting systemic, 
        agency-wide change as opposed to its individual approach to 
        training and disciplining TSOs when complaints arise.\17\ Such 
        training components must include in-person, interactive 
        cultural competency awareness and periodic recertification on 
        implicit and explicit bias. TSA needs to ensure that bias 
        training is embedded within all courses taught to TSOs to 
        reinforce the agency's commitment and dedication to ensuring 
        the civil rights and liberties of the traveling public is fully 
        respected.
---------------------------------------------------------------------------
    \17\ See Exhibit A.
---------------------------------------------------------------------------
  <bullet> Congress must mandate regular and independent Civil 
        Liberties Impact Assessments at all airports Nation-wide. Such 
        programs should entail unannounced audits of all airports to 
        document civil liberties compliance. Assessments should be 
        based on reviews of TSO interactions via video footage, the use 
        of undercover agents testing for civil rights violations, and 
        reviewing passenger complaints to reveal the full extent to 
        which TSA is respecting travelers' civil rights and liberties.
  <bullet> Mandate that TSA implement random TSO screener audits 
        ensuring officers are not engaged in racial profiling and that 
        supervisors are instructed in detecting situations where 
        unlawful profiling occurs. TSA should also adopt GAO's 
        recommendation to monitor ``behavior detection'' activities for 
        compliance with policies that prohibit unlawful profiling.
  <bullet> Though AIT and other advanced screening technologies are 
        routinely tested for accuracy in the screening of passenger 
        characteristics, the testing mechanisms and monitoring of 
        screening that occurs in practice must be improved to account 
        for the large diversity of passengers. TSA must routinely 
        develop best practices to reduce biased alarms, and train 
        officers in the operation of these technologies and detection 
        to avoid discriminatory practices with the goal of eliminating 
        profiling.
  <bullet> Incentivize airport security technology vendors to work 
        collaboratively with community stakeholders in mitigating 
        against profiling. Government contracts for any new technology 
        acquisitions should take into account a vendor's commitment to 
        alleviating bias by considering factors such as: (a) Whether 
        the vendor conducts regular convenings with community 
        stakeholders and profiling experts, (b) issues routine software 
        improvements designed to improve device reliability, and (c) 
        certifies anti-bias initiatives and publishes efficacy rates 
        for variations in traits screened that may be a part of a 
        protected identity (i.e. race, sex, gender identity, national 
        origin, religion, and disability).
  <bullet> Amend the Airline Passengers' Bill of Rights to establish 
        clear guidelines limiting the ability of airlines to forcibly 
        remove passengers solely based on generalized concerns of 
        personal safety without any specific, objectively concerning 
        information that is not rooted in personal bias. All airline 
        crew must undergo training focusing on behavioral forces like 
        implicit bias and stereotype threats. Barring exigent 
        circumstances, when passengers report an issue, airline crew 
        must be required to investigate the credibility of such 
        concerns to reach an informed decision on the veracity of any 
        threats. Airlines should be held liable for the wrongful 
        removal of a passenger if the removed passenger is not 
        determined to pose an imminent security threat by law 
        enforcement.
  <bullet> Re-introduce and pass the End Racial Profiling Act to 
        comprehensively address the insidious practice of biased 
        treatment by law enforcement, including TSA. Such legislation 
        is critical to restoring the community's confidence in our 
        Nation's law enforcement and ensuring that scarce security 
        resources are focused on combating actual criminal and suspect 
        behavior. This legislation should add safeguards against the 
        harmful impacts of algorithmic bias against protected identity 
        (i.e. race, sex, gender identity, National origin, religion and 
        disability).
  <bullet> TSA must publish clear, transparent, and easy-to-understand 
        traveler guidance on its website to better inform the traveling 
        public on what to expect at the security line, and ensure that 
        TSOs adhere to its protocols. This guidance would help reduce 
        traveler frustrations and negative stereotypes of those who are 
        routinely subjected to additional unnecessary screening, and 
        expedite screening procedures for all travelers.
                               conclusion
    Disparate treatment not only undermines cherished Constitutional 
rights, but also reinforces the perception among TSA and the flying 
public that members of minority racial and religious communities should 
be treated with suspicion and caution. This outcome is at direct odds 
with TSA's responsibility to ensure that its screening procedures and 
technologies are implemented in a fair and equitable manner. Biased 
technologies and unstructured discretion lead to longer lines, invasive 
and unnecessary pat-downs, traumatic stress and anxiety, missed 
flights, and unlawful discrimination against minority communities.
    We must acknowledge that stereotypical beliefs about certain 
travelers due to the way they look or their religious articles of faith 
are not a reasonable basis to subject them to disparate screening. 
Religious head coverings do not pose any greater threat than other 
articles of clothing and should not automatically be subjected to 
additional screening. Similarly, stigmatic beliefs based on perceived 
ethnicity and nationality do not serve as a basis to subject 
individuals to disparate screening practices. Thus, we respectfully 
request that our policy recommendations be considered and implemented.
    The Sikh Coalition is grateful for the opportunity to submit this 
testimony for the hearing record and looks forward to working with the 
esteemed committee here today along with partners in Government, 
private industry, civil society, and grassroots communities Nation-wide 
to foster dignified and respectful treatment of all travelers passing 
through TSA.
                               Exhibit A
                                     June 12, 2018.
Satjeet Kaur,
Executive Director, The Sikh Collection, 50 Broad Street, Suite 504, 
        New York, NY 10004.
    Dear Satjeet Kaur: Thank you for contacting the Transportation 
Security Administration (TSA) regarding your concerns about TSA 
security screening of Sikh travelers at our Nation's airports. We also 
appreciate your expressing your concerns about the April 2017 screening 
of Canadian Cabinet Minister Navdeep Bains. This letter serves as 
follow-up to our May 11, 2018, teleconference attended by members of 
the Sikh Coalition and my staff.
    TSA must ensure that all persons and their accessible property 
passing through the security checkpoint undergo screening to protect 
against the introduction of weapons, explosives, and incendiary devices 
into the sterile area of an airport and on-board an aircraft. To do 
this work, TSA is committed to treating members of the traveling public 
in a fair and lawful manner. As we have discussed, travelers may 
undergo additional screening of their clothing, hair, and/or headwear; 
however, in performing our screening activities, TSA neither uses nor 
condones unlawful profiling. Pursuant to TSA's Civil Rights Policy, 
Transportation Security Officers are prohibited from basing screening 
decisions on a traveler's protected status. All screening decisions are 
based on the interests of aviation security.
    We regularly engage and conduct outreach with the Sikh American 
community, through organizations such as Sikh American Legal Defense 
and Education Fund (SALDEF), United Sikhs, and the Sikh Calition. 
Within the past year, TSA has participated in more than 20 SALDEF 
``Know Your Rights'' forums around the country to engage with the Sikh 
community.
    With job aids and other training, we have in the past and continue 
today to update our front-line workforce regularly on appropriate 
religious/cultural knowledge and etiquette for engaging with the 
millions of passengers served by TSA, including the Sikh community. We 
also developed a Know Before You Go publication, which provides useful 
information for Sikh travelers and is enclosed with this letter.
    We look forward to ongoing engagement with Harsimran Kaur, and we 
have added Sim J. Singh and Julian Darwall to our list of contacts for 
The Sikh Coalition.
    We hope this information is helpful and we appreciate that you took 
the time to contact TSA. We strongly believe that our work together 
will continue to provide an improved traveler experience at TSA's 
security checkpoints.
            Sincerely yours,
                                          Christine Griggs,
                                    Acting Assistant Administrator.
Enclosure: Know Before You Go--Sikh Travelers
                 Transportation Security Administration
Multicultural Branch, Office of Civil Rights & Liberties, Ombudsman, 
        and Traveler Engagement
                           Know Before You Go
                           for sikh travelers
    The Transportation Security Administration is committed to ensuring 
access and serving all persons with dignity and respect.
    If you are enrolled in a trusted traveler program (TSA PreCheck, 
Global Entry, NEXUS, SENTRI), enter your known traveler number or PASS 
ID when making airline reservations. When you check in for a flight, 
look for the TSA PreCheck boarding pass indicator.
    We are aware and respect that Sikh travelers may wear traditional 
clothing and/or carry religious items. Observant travelers may be 
wearing a Dastaar (religious head covering/turban), Kara (metal 
bracelet), and a Kangha (wooden comb). The Kirpan is considered sharp 
object and must be in checked baggage, and cannot be worn or carried 
through the checkpoint. Please view TSA.gov for the list of prohibited 
items.
WHAT TO KNOW
            Signing-Up for TSA PreCheck
  <bullet> Apply on-line at TSA.gov.
  <bullet> You will go through a background check where your 
        identification and citizenship will be verified, among other 
        things. Make sure all of the information on your identification 
        is exactly the same. Inconsistent information can delay the 
        process.
  <bullet> Then you'll get a Known Traveler Number (KTN). You have to 
        enter in your KTN every single time you make a reservation, 
        otherwise you will not get the benefit of TSA PreCheck.
  <bullet> As one of many layers of TSA security, you may, on occasion, 
        be randomly selected to receive additional screening.
            Making Reservations:
  <bullet> TSA requires airlines to collect a traveler's full name, 
        date of birth, gender, and redress number (if applicable) to 
        significantly decrease the likelihood of watch-list 
        misidentification. TSA verifies a traveler's identification 
        through Secure Flight.
  <bullet> You are encouraged to book your reservation such that the 
        reservation information matches the full name, date of birth, 
        and gender on the Government-issued identification (ID) that 
        you will use for travel, as well as your Known Traveler Number 
        (KTN) if you have signed-up for TSA PreCheck. For additional 
        information about identification documents, visit the 
        Identification page on TSA.gov here.
  <bullet> On arrival to the security checkpoint, you must present your 
        Government-issued ID that has the same name as the one on your 
        boarding pass to the TSA Officer who will verify that the names 
        on the ID and boarding pass match, and that the photo on the ID 
        matches you.
            TSA Cares:
  <bullet> TSA Cares is a toll-free helpline, 1-855-787-2227 or Federal 
        Relay #711, available for travelers to ask questions about 
        screening or to request help at the checkpoint. You may call 
        from 8 a.m. to 11 p.m. ET Monday through Friday, and 9 a.m. to 
        8 p.m. weekends and holidays.
  <bullet> If you would like to arrange assistance at the checkpoint, 
        TSA recommends that you call at least 72 hours ahead of travel 
        so that TSA Cares has the opportunity to coordinate checkpoint 
        support. Checkpoint support may include coordination with a 
        Passenger Support Specialist (PSS). Each airport has different 
        resources; therefore, the level of assistance you receive at 
        the checkpoint will vary. Some airports have an individual who 
        will call you to gather additional information and arrange a 
        meeting time and place. Other locations notify the checkpoint 
        manager of your itinerary, but no pre-contact is made.
  <bullet> If you arrive at the checkpoint and have any concerns 
        before, during, or after the screening process, you should 
        immediately request to speak with a Supervisory Transportation 
        Security Officer (STSO) or a PSS for assistance.
            Planning Your Trip:
  <bullet> Arrive early to allow time for security screening.
  <bullet> Communicate your specific needs (e.g., turban, 
        accommodations, delicate/fragile items, sensitive items or body 
        areas) to the TSA Officer before screening begins to have a 
        smooth airport screening experience.
  <bullet> The 3-1-1 liquids rule for carry-ons allows each traveler to 
        have liquids, gels, aerosols, creams and pastes in quantities 
        of 3.4 ounces (100 ml) or less per container; in 1 quart-sized, 
        clear, plastic, zip-top bag; and in one bag.
  <bullet> This rule does not apply to medically-necessary liquids for 
        travelers with disabilities and medical conditions. However, 
        you will need to declare medically-necessary liquids for 
        inspection at the checkpoint, and officers may need to conduct 
        additional screening of these items.
            Walk-Through Metal Detectors (WTMD):
  <bullet> You may be chosen to be screened by a Walk Through Metal 
        Detector (WTMD), most commonly in the TSA PreCheck lane.
  <bullet> You cannot request WTMD screening instead of receiving 
        screening via the Advanced Imaging Technology (AIT) or a pat-
        down.
  <bullet> Learn more about Walk Through Metal Detectors at TSA.gov.
            Advanced Imaging Technology (AIT):
  <bullet> You are eligible to be screened via Advanced Imaging 
        Technology (AIT) if you are able to stand, walk through the 
        machine, and stand holding your hands above your head for 5 to 
        7 seconds without support. If there is an alarm, you may need 
        to stand for additional time to resolve the alarm.
  <bullet> If you do not want to be screened by AIT, or are ineligible, 
        you may request a pat-down. A reminder--you may not request 
        screening using the Walk Through Metal Detector.
  <bullet> The AIT has software that protects individual privacy, 
        eliminating traveler-specific images by auto-detecting 
        potential threats, which are shown on a generic outline of a 
        person on a screen located after you exit the machine. You can 
        see this as well. The generic outline is identical for all 
        travelers. If there is an alarm indicated on the generic 
        outline, TSA Officers are trained to clear the alarm, not the 
        individual. Additional screening is conducted to determine 
        whether a prohibited item is present.
  <bullet> You may always request a private screening at any time if a 
        pat-down is needed to resolve an alarm.
  <bullet> TSA is committed to ensuring effective and efficient 
        security screening, while treating all travelers with dignity 
        and respect.
  <bullet> Learn more about Advanced Imaging Technology at TSA.gov.
            Pat-Downs:
  <bullet> You may opt-out of the screening technology and receive a 
        pat-down.
  <bullet> You will undergo a pat-down if any screening technology 
        alarms, or if you are randomly chosen for pat-down screening.
  <bullet> When conducted, the pat-down will be performed by a TSA 
        Officer of the same gender as you present.
  <bullet> You can request a private screening at any time and may be 
        accompanied by a companion of your choosing.
  <bullet> You can request a chair if you need to sit down.
  <bullet> You may request that the TSA Officer change his or her 
        gloves, prior to conducting the pat-down.
  <bullet> A pat-down may include inspection of the head, neck, arms, 
        torso, legs, and feet. This includes head coverings such as 
        your turban, hair, and sensitive body areas such as breasts, 
        groin, and the buttocks. You may be required to adjust clothing 
        during the pat-down.
    <bullet> The TSA Officer will advise you of the procedure to help 
            you anticipate any actions before you feel them.
    <bullet> Pat-downs require sufficient pressure to ensure detection.
        <bullet> Travelers wearing turbans may be subject to additional 
            security screening, which may include a traveler self-
            conducted pat-down or officer-conducted pat-down. A swab 
            test for traces of explosives may also take place. Any 
            alarm will require additional screening by a TSA Officer.
        <bullet> You may request: Private screening; and that the TSA 
            Officer change gloves prior to conducting the pat-down, 
            and/or change ETD swabs prior to testing.
  <bullet> The private screening area should have a mirror available, 
        if it is necessary that your turban be removed.
    <bullet> TSA Officers use the back of the hands for pat-downs over 
            sensitive areas of the body. In limited cases, additional 
            screening involving a sensitive area pat-down with the 
            front of the hand may be needed to determine that a threat 
            does not exist.
  <bullet> Learn more about pat-downs at TSA.gov.
            Explosive Trace Detection (ETD) Screening:
  <bullet> TSA Officers may swab your personal property or hands, and 
        then use ETD technology to test for explosive particles. This 
        is not a drug test.
  <bullet> Travelers may request a new swab prior to their hands being 
        sampled.
WHAT TO REMEMBER:
  <bullet> Packing.--Separate medically necessary liquids and equipment 
        from other belongings so they can be quickly identified and 
        accessed for screening.
  <bullet> Known Traveler Number (KTN).--Enter your known traveler 
        number when you book your flight to get TSA PreCheck 
        (PreCheck) benefits.
  <bullet> Companion.--You can be accompanied by a companion of your 
        choosing to provide assistance during the screening process. 
        However, the companion must be re-screened after providing 
        assistance that involves physical contact.
  <bullet> Body Piercing.--Certain metal body piercings may cause the 
        machines to alarm, which will result in additional screening. 
        If additional screening is required, passengers may be asked to 
        remove their body piercing.
  <bullet> Gift Wrapping.--You should refrain from wrapping gifts until 
        arriving at your final destination. If a TSA Officer needs to 
        inspect a wrapped gift, it may have to be unwrapped.

------------------------------------------------------------------------
        TSA PreCheck (PreCheck)                Standard Screening
------------------------------------------------------------------------
If you have TSA PreCheck (PreCheck) on  If you do not have TSA
 your boarding pass:                      PreCheck (PreCheck) on your
-Proceed to the TSA PreCheck             boarding pass:
 (PreCheck) line;                        -Proceed to the standard
-Present your boarding pass and           screening line;
 Government-issued ID to the TSA travel  -Present your boarding pass and
 document checker;                        Government-issued ID to the
-The TSA travel document checker will     TSA travel document checker;
 verify your identification and scan     -The TSA travel document
 your boarding pass barcode and confirm   checker will verify your
 that you are eligible for this lane.     identity and scan your
                                          boarding pass barcode.
During the screening process:            During the screening process:
-Generally, TSA PreCheck lines are      -Generally, travelers
 shorter and have shorter wait times.     experience longer lines
 Find out when TSA PreCheck lanes are    depending on the day, date,
 available at your airport at TSA         and time of travel.
 PreCheck Checkpoint Schedule.          -If eligible, you may be
-If eligible, you may be screened using   screened using Advanced
 Advanced Imaging Technology or Walk      Imaging Technology or Walk
 Through Metal Detector. If not, you      Through Metal Detector. If
 may be screened using a pat-down.        not, you may be screened using
                                          a pat-down.
You are required to remove:              You are required to remove:
-Medically-necessary LGA over 3.4        -Shoes;
 ounces (from accessible property).      -Jackets/Coats; and
                                         -3-1-1-compliant bag of
                                          liquids, gels, and aerosols.
You are not required to remove:          You are required to separate:
-Shoes                                   -Medically-necessary liquids;
-Jackets                                 -Electronics the size of a cell
-3-1-1-compliant bag                      phone and larger;
-Electronics the size of a cell phone    -CPAP/BPAP.
 and larger;
-CPAP/BPAP.
It is recommended that you remove items  It is recommended that you
 from your pockets to expedite the        remove items from your pockets
 screening process and minimize the       to expedite the screening
 need for additional screening.           process and minimize the need
                                          for additional screening.
------------------------------------------------------------------------

              EXHIBIT C.--KNOW YOUR RIGHTS AT THE AIRPORT
    If you believe your civil rights have been violated, we encourage 
you to report TSA screening discrimination directly to the TSA and the 
Sikh Coalition via on our mobile app, FlyRights. Download the app at: 
http://fly rights.org/.
    You can also file complaints with the TSA on-line at: https://
www.tsa.gov/contact-center/form/complaints.
                            before traveling
  <bullet> You may sign up for TSA PreCheck at TSA.gov to expedite the 
        security checkpoint process. A background check will be 
        performed, asking you questions about citizenship, and 
        requesting additional information. If successful, you will be 
        provided with a Known Traveler Number (KTN) for use every time 
        you make a reservation.
  <bullet> Make sure the details on the airline reservation match the 
        information on your traveler's identification (ID) that will be 
        used during travel.
  <bullet> The TSA is aware that Sikh travelers may wear traditional 
        clothing and/or carry religious items, such as a dastaar, kara, 
        and kangha.
  <bullet> The kirpan must be checked into baggage and cannot be worn 
        or carried through checkpoints.
  <bullet> Remember to place salais, dastaar pins, or other grooming 
        tools in your carry on or checked luggage as they may set off 
        metal detectors or other screening technology.
                             at the airport
  <bullet> Arrive 2 hours early for domestic flights & 3 hours early 
        for international flights for security screening and 
        communicate any specific needs to the TSA Officer prior to 
        screening to ensure a smooth screening experience, including 
        your turban, accommodations, delicate/fragile items, sensitive 
        items, or body areas.
  <bullet> You have a right to be accompanied by a travel companion of 
        your choice during the screening process. The companion must be 
        rescreened after providing assistance involving physical 
        contact.
  <bullet> The 3-1-1 liquids rule for carry-ons allows each traveler to 
        have liquids, gels, aerosols, creams, and pastes in quantities 
        of 3.4 ounces (100ml) or less per container; in 1 quart-sized, 
        clear, plastic, zip-top bag; and in one bag. (This rule does 
        not apply to medically-necessary liquids for travelers with 
        disabilities and medical conditions. However, you will need to 
        declare medically-necessary liquids for inspection at the 
        checkpoint, and officers may need to conduct additional 
        screening of these items.)
                               screening
KNOW YOUR RIGHTS AT THE AIRPORT
    1. It is best to thoroughly wash your hands with soap prior to 
entering TSA checkpoints to avoid any oils or contaminants on your 
hands. (Please note some soaps may cause false positives due to oils or 
scents.)
    2. You may be chosen for screening through either a Walk-Through 
Metal Detector (WTMD) or an Advanced Imaging Technology (AIT) machine. 
Advanced Imaging Technology, a full-body scanner, screens passengers 
for metallic and/or non-metallic threats, such as guns or explosives, 
that may be concealed under a person's clothing. Any threats the 
technology scans will appear on a generic outline of a person on a 
screen, which is intended to preserve privacy.
    3. You have a right to refuse the AIT machine and request a pat-
down. You may not request screening through WTMD instead of AIT.
    4. You may be required to adjust your clothing during the pat-down. 
The officer will advise you of procedures to help you anticipate 
actions that will be taken.
    5. Travelers wearing turbans may be subject to additional security 
screening, including traveler self-conducted pat-downs or officer-
conducted pat-downs, and swab tests for traces of explosives. You may 
request that the officer change their gloves and swabs prior to 
testing.
    6. If either of the screening technologies alarms during the 
process, you will undergo a pat-down, which will be conducted by an 
officer of the same gender, as that which you present or declare. 
Pursuant to TSA's eligibility criteria, you may request a self-pat-down 
of your turban, and the officer will do a swab test for traces of 
explosives on your hands, once the self-pat-down is completed. You may 
also be chosen for a pat-down randomly. Should you decide that a TSA 
officer conduct the pat-down, you may request that they change gloves 
and swabs prior to doing so.
    7. If you undergo a pat-down, you have a right to a private 
screening with a companion of your choice. Private screening areas must 
have a mirror available if removing your turban is necessary. You may 
request a chair if you need to sit.
    8. If TSA requests that your turban be removed for an additional 
screening, it should only occur after all other screenings have been 
completed and resulted in positive indications. If you are asked to 
remove your turban, you have a right to a private screening with a 
companion of your choice. Private screening areas must have a mirror 
available if removing your turban is necessary. You may request a chair 
if you need to sit.
    9. Sensitive areas such as breasts, groin, and buttocks are 
included in the pat-downs and pat-downs require sufficient pressure to 
ensure detection. TSA Officers use the back of their hands for pat-
downs over sensitive areas of the body. In limited cases, additional 
screening involving a sensitive area pat-down with the front of the 
hand may be needed to determine that a threat does not exist.
    10. If you arrive at a checkpoint & have any concerns before, 
during, or after the screening process, immediately ask to speak with a 
Supervisory Transportation Security Officer (STSO) or a Passenger 
Support Specialist (PSS).
    REQUEST DIRECT ASSISTANCE FROM TSA CARES.--Toll-free helpline: 1-
855-787-2227, available for all questions about screening or help at 
checkpoints, from 8 a.m. to 11 p.m. ET., Monday through Friday, & 9 
a.m. to 8 p.m. on weekends & holidays. If you would like to arrange 
assistance at checkpoints, TSA recommends calling at least 72 hours 
ahead of travel so TSA has the opportunity to coordinate support.
    The Sikh Coalition does not endorse these TSA policies, and this 
document should not be construed as legal advice. It is merely 
providing information to Sikh travelers on TSA policies during the 
screening process.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Ms. Nelson to summarize her statement for 5 
minutes.

STATEMENT OF JANAI S. NELSON, ASSOCIATE DIRECTOR-COUNSEL, NAACP 
            LEGAL DEFENSE AND EDUCATIONAL FUND, INC.

    Ms. Nelson. Thank you. Good morning, Chairman Thompson, 
Ranking Member Rogers, and Members of the committee. My name is 
Janai Nelson. I am the associate director-counsel of the NAACP 
Legal Defense and Educational Fund. Thank you for the 
opportunity to testify this morning.
    LDF is the Nation's oldest civil and human rights law 
organization. LDF was founded in 1940 by Thurgood Marshall, and 
in the 80 years since its inception it has used legal advocacy 
strategies to promote the full, equal, and active citizenship 
of Black Americans. That includes litigating the seminal case 
of Brown v. Board of Education and Newman v. Piggie Park 
Enterprises, which is important for our purposes here today 
because it upheld Title II of the Civil Rights Act of 1964's 
prohibition on racial discrimination in public accommodations.
    For as long as we have been in this country, Black people 
have faced discrimination that impedes our mobility in public 
spaces and discrimination in various spheres because of our 
hair. Indeed, the civil rights movement that ended legal 
apartheid in the United States was anchored in acts of 
resistance related to transportation, including the bravery of 
women like Rosa Parks and children like Claudette Colvin.
    The Civil Rights Act of 1964 was built on the foundation 
that Congress can take action to prohibit racial discrimination 
that impedes travel and thereby impedes interstate commerce.
    Black women's hair has also never ceased to be policed, 
from forcible head coverings in the Antebellum South to the 
present-day denial of employment and other rights based on our 
hair texture and treatment.
    In light of this history, we at LDF are deeply troubled 
that TSA's full-body scanners disproportionately single out 
Black women for additional and burdensome security procedures, 
including invasive and humiliating hair pat-downs. This 
systematic infringement on the mobility of Black women by a 
Government agency must be corrected, and we are heartened that 
this committee is taking up the charge.
    Roughly 8 percent of the U.S. adult population of flyers is 
Black, 17 percent is Latinx, and 6 percent is Asian. However, 
reports suggest that countless Black travelers have experienced 
heightened suspicion and profiling as a result of TSA 
technology that singles out Black people in airports, 
particularly Black women, simply because the technology is 
unable to distinguish contraband from natural Black hair.
    The false positives produced by TSA's full-body scanners 
exemplify the impact of purportedly race-neutral technology 
that nonetheless perpetuates racial profiling. Whether they are 
high-profile celebrities, business travelers, or general 
commuters, for Black women TSA scanners are one more assault in 
a constant barrage of risk assessments to which they are 
subjected on a daily basis and which reflect deep-rooted biases 
and historical associations between race and dangerousness.
    Moreover, racial discrimination is a proven threat to our 
National security, yet TSA has not justified that its highly-
criticized practice of violative hair pat-downs improves 
security. To the contrary, security experts have called into 
question whether these additional screenings are an effective 
use of TSA personnel's time and resources.
    Most disturbing perhaps is that top TSA officials do not 
seem to recognize that a system that disproportionately singles 
out Black women is discriminatory. We know that technology is 
susceptible to biases of the humans who create it. This means 
that technology that uses White phenotype as a default can 
easily produce biased outcomes against people of color.
    This issue is not new. Not only did this committee hold a 
hearing on these issues a little over a year ago, TSA has been 
aware of discriminatory and biased security practices for 
years. In 2015, it entered a settlement agreement over the very 
issue of racially profiling Black hair.
    To be very clear, we recognize and respect TSA's important 
security functions at our Nation's airports. However, I want to 
stress that we can maintain security in our Nation's airports 
while maintaining the human dignity of our Nation's travelers, 
we can pursue new technology and not compromise civil and human 
rights. In fact, these goals cannot only co-exist, by law, they 
must.
    In closing, we acknowledge TSA's important charge to ensure 
safe travel while meeting its obligation to treat all 
passengers with dignity. We also appreciate the attention this 
committee has paid to this important issue and thank you for 
your consideration and for the opportunity to testify today.
    [The prepared statement of Ms. Nelson follows:]
                 Prepared Statement of Janai S. Nelson
                              June 4, 2019
                            i. introduction
    Good Morning Chairman Thompson, Ranking Member Rogers, and Members 
of the committee. My name is Janai Nelson and I am the associate 
director-counsel of the NAACP Legal Defense and Educational Fund, Inc. 
(LDF). Thank you for the opportunity to testify this morning.
    LDF is the Nation's oldest civil and human rights law organization. 
LDF was founded in 1940 by Thurgood Marshall, who later became the 
first Black U.S. Supreme Court Justice. Since its inception, LDF has 
used litigation, legislative, public education, and other advocacy 
strategies to promote full, equal, and active citizenship for Black 
Americans. This work has included litigating seminal cases such as 
Brown v. Board of Education and Newman v. Piggie Park Enterprises, 
which upheld Title II of the Civil Rights Act of 1964 and its 
prohibition on racial discrimination in public accommodations. LDF has 
also been on the front lines of opposing racial profiling, whether 
practiced by law enforcement agencies, department stores, airlines, or 
taxicab drivers. LDF has also challenged policies that have a 
discriminatory impact on Black people because of specific 
characteristics, including hair type. We have vigorously opposed hair 
policies that serve as pretexts or justifications for racial 
discrimination in schools and in the workplace.\1\ In just the past 2 
years alone, we challenged a hair policy in a Boston-area charter 
school that denied Mya and Deanna Cook the right to wear braid 
extensions at their school, we obtained public records concerning an 
incident in which Andrew Johnson, a Black high school student in New 
Jersey, was forced to cut his hair in order to compete in a high school 
wrestling match,\2\ and we filed an administrative complaint with the 
Florida Department of Education on behalf of a 6-year-old boy, Clinton 
Stanley Jr., who was denied entry on his first day of school because he 
wore his hair in locs that extended past his ears.\3\ LDF has also been 
involved in lawsuits combatting hair discrimination in the workplace, 
including EEOC v. Catastrophe Management Solutions, in which LDF 
petitioned the Supreme Court of the United States to review the case of 
Chastity Jones, a Black woman whose job offer was rescinded solely 
because she wore her hair in locs.\4\
---------------------------------------------------------------------------
    \1\ See, e.g., Brief of NAACP Legal Def. & Educ. Fund, Inc. et al., 
as Amici Curiae, EEOC v. Catastrophe Management Solutions, 2016 WL 
7173828 (11th Cir. Dec. 2, 2016).
    \2\ See Press Release, LDF Makes Public Records Request in Response 
to Hair Discrimination Case Involving Buena Regional High School 
Wrestler (Jan. 7, 2019), https://www.naacpldf.org/press-release/ldf-
makes-public-records-request-response-hair-discrimination-case-
involving-buena-regional-high-school-wrestler/; Press Release, LDF 
Sends Letters Over Concerns with Discriminatory Hair Policies Stemming 
from Incident Involving New Jersey High School Wrestler (Feb. 12, 
2019), https://www.naacpldf.org/press-release/ldf-sends-letters-
concerns-discriminatory-hair-policies-stemming-incident-involving-new-
jersey-high-school-wrestler/.
    \3\ Letter to Adam Miller from Angel S. Harris, et al., re: Clinton 
Stanley Jr. Complaint (Nov. 29, 2018), https://www.naacpldf.org/wp-
content/uploads/11.29.2018-Stanley-Complaint-002.pdf.
    \4\ https://www.naacpldf.org/files/about-us/CMS%20-
%20Cert%20Petition%20FINAL.PDF.
---------------------------------------------------------------------------
    We appreciate the opportunity to testify this morning on the 
important topic of Transportation Security Administration (``TSA'') 
policies that profile, single out, and disproportionately burden people 
of color, as well as persons with disabilities, transgender persons, 
persons of various religions, and particularly Black women. Black 
people have historically been discriminated against in ways that impede 
their mobility in public spaces and discriminated against in various 
spheres because of their hair. In light of the long and on-going 
history of discrimination rooted in Black hair and continuing barriers 
to Black mobility, we are deeply troubled that the full-body scanners 
that TSA employs at airports disproportionately single out Black women 
for additional and burdensome security procedures, including invasive 
pat-downs, because of their hair.\5\ LDF's work has long recognized 
that full citizenship for Black Americans requires the elimination of 
discrimination in public spaces--schools, transportation, public 
accommodations--and the transformation of these spaces to protect the 
dignity of communities of color and their unfettered mobility. As LDF 
is a National organization, litigating and advocating in States and 
cities across the country, being able to navigate the Nation's airports 
without unjustified burdens is also a matter of personal concern for 
our racially and ethnically diverse staff.
---------------------------------------------------------------------------
    \5\ See Brenda Medina, TSA Agents Say They're Not Discriminating 
Against Black Women, but Their Body Scanners Might Be, ProPublica (Apr. 
17, 2019), https://www.propublica.org/article/tsa-not-discriminating-
against-black-women-but-their-body-scanners-might-be.
---------------------------------------------------------------------------
    TSA interacts with millions of people of color each year as they 
navigate air travel in the United States.\6\ An April 2016 report 
prepared by Ipsos Public Affairs on the ``Status of Air Travel in the 
USA'' indicates that 45 percent of the U.S. adult population traveled 
by air in 2015. Of those adult flyers, in 2015, 8 percent were Black or 
African American, 17 percent were Latinx and 6 percent were Asian.\7\ 
As countless Black people have experienced, the already-heightened 
suspicion and profiling of Black people by security personnel in this 
country is compounded by TSA technology that singles out Black people 
in airports, particularly Black women, for invasive and humiliating 
searches simply because the technology is unable to distinguish 
contraband from natural Black hair. What we are seeing is part of an 
on-going trend at the intersection of race and technology, and the 
pattern is becoming depressingly familiar. TSA's full-body scanners are 
another new, purportedly race-neutral risk-assessment technology that 
does not ostensibly classify, discriminate, or use any discretion on 
the front end--yet, on the back end, it perpetuates racial profiling 
and Black people are disproportionately harmed. And, in the case of TSA 
hair pat-downs that result from the false positives produced by TSA 
scanners, it is Black women, Black trans women, Black women with 
disabilities, Black Muslim women, and those at the intersection of 
these and other identities who are disproportionately burdened. The 
burdens these women bear are too often disregarded as a cost of public 
safety and denied remedy.
---------------------------------------------------------------------------
    \6\ http://airlines.org/wp-content/uploads/2016/04/2016Survey.pdf.
    \7\ http://airlines.org/wp-content/uploads/2016/04/2016Survey.pdf.
---------------------------------------------------------------------------
    We recognize and respect that the TSA performs important security 
functions at our Nation's airports. However, I want to stress in my 
testimony today that we can maintain security in our Nation's airports 
while maintaining human dignity. We can pursue new technology while not 
compromising civil and human rights. We can be safe in employing best 
practices for security procedures while also being sound in ensuring 
that the policies and practices we uphold do not discriminate. In fact, 
these goals cannot only coexist, by law, they must. Racial 
discrimination is a threat to our National security and it violates our 
constitution and civil rights laws. The recently-released ProPublica 
report, as well as multiple anecdotal news accounts, are evidence that 
TSA practices needlessly burden specific groups of people, namely Black 
women, whether they are high-profile celebrities, business travelers, 
or general commuters. This systematic infringement on the mobility of 
Black people by a Government agency must be corrected and we are 
heartened that this committee is taking up the charge.
    To be a Black person participating in public life too often means 
being subjected to a constant barrage of ``risk assessments,'' whether 
formal or informal, conscious or beneath the surface. And the results 
of these assessments inevitably reflect this country's deeply rooted 
biases and racism and the automatic associations made between race and 
dangerousness. As studies have demonstrated, when people see a Black 
man and a white man of the same size, they perceive the Black man to be 
both larger and more threatening.\8\ People likewise perceive Black 
children to be older, less innocent, and a greater threat than their 
white counterparts.\9\ A criminal justice system premised on treating 
Black people as higher-risk and more in need of social control has 
resulted in Black people being 2.5 times more likely to be arrested 
than white people, and in almost half of all Black men having been 
arrested at least once by the age of 23.\10\ And while Black people 
comprise only 12.7 percent of the general population, they make up over 
41 percent of the Federal and State prison population in the United 
States. The legacy of using law enforcement and State security 
apparatuses as tools for racially discriminatory control and 
subordination continues, including in the implementation of purportedly 
neutral- and objective-sounding programs as risk assessment tools that 
incorporate racial biases, including algorithms used to determine pre-
trial detention,\11\ facial recognition security devices, and, indeed, 
airport full-body scanners.
---------------------------------------------------------------------------
    \8\ https://www.apa.org/pubs/journals/releases/psp-pspi0000092.pdf.
    \9\ See Phillip Atiba Goff et al., The Essence of Innocence: 
Consequences of Dehumanizing Black Children, 106 J. PERSONALITY & SOC. 
PSYCHOL. 526, 540 (2014).
    \10\ ANGELA J. DAVIS (ED.), POLICING THE BLACK MAN XV (2017).
    \11\ See, e.g., Eric Westervelt, California's Bail Overhaul May Do 
More Harm Than Good, Reformers Say, NPR (Oct. 2, 2018), https://
www.npr.org/2018/10/02/651959950/californias-bail-overhaul-may-do-more-
harm-than-good-reformers-say.
---------------------------------------------------------------------------
    Of course, the instances of racial bias that Black people endure on 
a daily basis are not relegated to official State action. Indeed, not a 
week goes by without a new viral video depicting Black people unable to 
engage in public life without harassment. People have called the police 
on Black people shopping for prom clothes \12\ and office supplies.\13\ 
Just last week a white person drew a pistol and threatened a black 
couple who were seeking to have a picnic at a campground.\14\ A black 
guest at a hotel in Portland was presumed to be a trespasser and asked 
to leave the premises. Hotel staff then called 9-1-1 when he made a 
phone call in a hotel lobby.\15\ Black students have been suspected of 
and interrogated for trespassing simply for walking around, eating 
lunch, and taking a nap on their college campus.\16\ And, the list goes 
on and on. These ``living while Black'' indignities range from 
humiliating to life-threatening. They transform what should be routine, 
quotidien acts into fraught and potentially dangerous encounters.
---------------------------------------------------------------------------
    \12\ https://money.cnn.com/2018/05/08/news/companies/nordstrom-
rack-shoplifting/index.html.
    \13\ https://www.cnn.com/videos/us/2018/08/14/north-carolina-mom-
accused-of-trying-to-shoplift-vpx.hln.
    \14\ Kelly Taylor Hayes, White campground worker fired after 
pulling gun on black visitors in Mississippi, Fox 5 DC (May 29, 2019), 
http://www.fox5dc.com/news/white-campground-worker-fired-after-pulling-
gun-on-black-visitors-in-mississippi.
    \15\ Keith Allen, Hotel employees who asked black guest to leave 
fired, CNN (Dec. 29, 2018), https://www.cnn.com/2018/12/28/us/portland-
hotel-police-black-guest-trnd/index.html.
    \16\ Holly Yan, Yale student accused of `napping while Black' wants 
fellow student disciplined, CNN (May 14, 2018), https://www.cnn.com/
2018/05/14/us/yale-black-grad-student-interview/index.html; Katie 
Mettler, A Black college student went looking for free food. He ended 
up pinned down by campus officers. Wash. Post. (Apr. 14, 2019), https:/
/www.washingtonpost.com/education/2019/04/14/video-shows-black-
columbia-student-pinned-by-campus-police-after-failing-show-his-id/
?utm_term=.6807cb9b6af3; Nicole Chavez, Smith College student who was 
racially profiled while eating says the incident left her so shaken she 
can't sleep, CNN (Aug. 3, 2018), https://www.cnn.com/2018/08/03/us/
smith-college-student-police-trnd/index.html.
---------------------------------------------------------------------------
    Similarly, discriminatory security procedures in airports create a 
jarring contradiction, juxtaposing the freedom associated with travel 
and movement with invasive practices that primarily target historically 
marginalized groups. For most of this Nation's history, Black people 
could not travel between the States freely and without encountering 
State-sanctioned discrimination. Indeed, the Civil Rights Act of 1964 
is built on the foundation that Congress can take action to prohibit 
the kind of discrimination that would impede Black people from 
traveling throughout the country and engaging in interstate 
commerce.\17\
---------------------------------------------------------------------------
    \17\ See Heart of Atlanta Motel v. United States, 379 U.S. 241 
(1964).
---------------------------------------------------------------------------
    People who have been subjected to aggressive and humiliating 
searches and hair pat-downs by TSA may think twice before traveling by 
plane unless absolutely necessary. When they were flying out of Los 
Angeles airport in 2017, Reba Perry-Ufele and her 12-year-old daughter, 
Egypt, both African American,\18\ were pulled aside by Transportation 
Security Officers (TSOs) after going through the scanning machine. Ms. 
Perry-Ufele was told that TSA personnel would need to conduct a search 
of her braids. Ms. Perry-Ufele said she did not consent to the search, 
but was told by TSA agents that it was mandatory ``protocol''. During 
the search, according to Ms. Perry-Ufele, the agents ``literally ripped 
my braids apart until they were a mess and I had to take them out when 
I got home.'' ``I was so embarrassed,'' she added, ``because not only 
did she humiliate me but she did it in front of the other people.''\19\ 
Ms. Perry-Ufele's experience is similar to that of many people who the 
TSA full-body scanners falsely identified as having an object hidden in 
their hair.
---------------------------------------------------------------------------
    \18\ See Tatiana Walk-Morris, Why is the TSA Still Searching Black 
Women?, Cosmopolitan (Apr. 24, 2018), https://www.cosmopolitan.com/
lifestyle/a18666534/tsa-black-women-hair-searches/.
    \19\ Id.
---------------------------------------------------------------------------
    On 3 of Jazzmen Knoderer's first 4 air travel experiences, she was 
pulled aside for full-body and hair pat-downs.\20\ On at least one of 
these occasions, Ms. Knoderer had not even gone through a scanner or 
metal detector before a TSA officer pulled her aside and searched her. 
Ms. Knoderer aptly noted, ``It doesn't feel random when it happens 
three times in a row. It doesn't feel random when you see that all the 
people around you, who don't look like you, aren't asked to step aside 
. . . I don't want to change the way my hair grows out of my head.''
---------------------------------------------------------------------------
    \20\ Medina, supra note 5.
---------------------------------------------------------------------------
    As we now know from reporting from Pro Publica and multiple first-
hand accounts, experiences like Ms. Perry-Ufele's and Ms. Knoderer's 
are not uncommon. That is why LDF has requested records relating to 
TSA's policies and practices regarding full-body scanners and hair pat-
downs; to TSA's August 2018 request for proposals to enhance security, 
including by ``address[ing] capability gaps in civil rights 
compliance'';\21\ to data and policies regarding ``false positives'' 
produced by full-body scanners resulting in hair pat-downs; and to the 
number of illegal and/or unauthorized objects TSA has recovered as a 
result of hair pat-downs.
---------------------------------------------------------------------------
    \21\ See Transportation Security Administration, ITF Innovative 
Demonstrations for Enterprise Advancement (IDEA) 2018 BAA, Solicitation 
Number 70T04018K9NSTD105, https://www.fbo.gov/
index.php?s=opportunity&mode=form&tab=core&id=c64a62edf70b0cbd9297e8aac7
- e9fc47&_cview=0 (more information regarding request provided in 
Attachment A, https://www.fbo.gov/utils/
view?id=63a555f1caa4334c21de68cd074502d7).
---------------------------------------------------------------------------
    Air travel is also a particular burden for people who wear 
religious head coverings, particularly Muslims. As one Muslim woman, 
Nyfees Syed, told the New York Times, ``I have to go [to the airport] 
an extra hour before, because it's not random checking [by TSA]''--and, 
the majority of the time, she is pulled aside by TSA officers for 
secondary screenings and for examiners to grip and feel her head 
through her hijab.\22\ Airport security can also be extraordinarily 
difficult and dangerous for transgender passengers, an issue that is 
only starting to be addressed.\23\ In sum, TSA's policies and 
practices, specifically the use of scanners, continue a history of 
discrimination by disproportionately identifying Black women, as well 
as certain other marginalized groups, as suspicious, subjecting them to 
demeaning searches and pat-downs, and interfering with their right to 
travel freely.
---------------------------------------------------------------------------
    \22\ Michael T. Luongo, Traveling While Muslim Complicates Air 
Travel, N.Y. Times (Nov. 7, 2016), https://www.nytimes.com/2016/11/08/
business/traveling-while-muslim-complicates-air-travel.html; see also 
Press Release, Muslim Advocates and LDF Urge Airlines to Institute 
Anti-Bias Training, NAACP Legal Def. & Educ. Fund (Oct. 12, 2017), 
https://www.naacpldf.org/press-release/muslim-advocates-and-ldf-urge-
airlines-to-institute-anti-bias-training/.
    \23\ See Alex Marzano-Lesenevich, Flying While Trans, N.Y. Times 
(Apr. 17, 2019), https://www.nytimes.com/2019/04/17/opinion/tsa-
transgender.html.
---------------------------------------------------------------------------
    There is a long legacy of policing, regulating, and judging natural 
Black hair in this country. This legacy includes forcing Black women to 
cover their hair in the antebellum South \24\ and, in more recent 
times, the legal approval of hair discrimination, particularly with 
respect to Black women. In a 1981 case stemming from an airline's 
policy, for example, a Federal court in New York upheld the right of 
employers to categorically prohibit employees from wearing ``braided 
hairstyles,'' a policy that disproportionately affected Black, female 
employees.\25\ Only recently have we as a society--if not as a legal 
system--begun to understand and address the interplay between racism 
and misogyny, and how hair discrimination is a particular point of 
intersection between these two oppressive forces.
---------------------------------------------------------------------------
    \24\ See U.S. Dep't of the Interior, Nat'l Park Service, African 
American Heritage & Ethnography--Africans in French Americas, https://
www.nps.gov/ethnography/aah/aaheritage/FrenchAmA.htm (``[w]omen of 
color had to wear a scarf or handkerchief over their hair as a visible 
sign of belonging to the slave class, whether they were enslaved or 
not. Those women affected by the law did, in fact, cover their hair, 
but they did it with elaborate fabrics and jewels--an action which 
technically meant the letter of the law but also allowed them to 
maintain their standards of fashion and beauty.'').
    \25\ Rogers v. American Airlines, 527 F. Supp. 229 (S.D.N.Y. 1981).
---------------------------------------------------------------------------
    In and out of the workplace, Black people in the United States face 
barriers or judgments when they display their natural hair. Locs in 
particular have long been the target of deep-seated negative 
stereotypes about Black people and their hair--mainly, that Black hair 
is dirty, unprofessional, or unkempt. In fact, the term ``dreadlocks'' 
originated from slave traders who described Africans' hair that had 
naturally formed into locs as ``dreadful.''\26\ For Black women in 
particular, these stereotypes often compel them to undertake costly, 
time-consuming, and harsh measures to straighten their hair to conform 
to the predominant white culture and standards of professionalism and 
beauty. The pressure to take such measures in order to be treated 
equally in the workplace is deeply lamentable, and it is a pressure 
exacerbated by TSA's practices and policies. Dorian Wanzer, for 
example, a Black woman whose job requires frequent travel and has 
testified/reported that ``almost every time she steps out of an airport 
body scanner,'' she is pulled aside so TSA officers can conduct a hair 
pat-down.\27\ This consistent treatment has prompted Ms. Wanzer to 
query, ``When you find yourself in that kind of situation, it makes you 
wonder, is this for security, or am I being profiled for my race?''\28\ 
Black women are too often denied the ability to participate in the 
workplace equally because of their natural hair, both because of bias 
in their place of employment, and because of external burdens and 
discrimination like TSA hair pat-downs making it that much more 
difficult for Black women like Ms. Wanzer to do their jobs.
---------------------------------------------------------------------------
    \26\ Brown White, Releasing the Pursuit of Bouncin' and Behavin' 
Hair: Natural Hair as an Afrocentric Feminist Aesthetic for Beauty, 1 
Int'l J. Media & Cultural Pol. 295, 296 n.3 (2005).
    \27\ See Medina, supra note 5.
    \28\ Id.
---------------------------------------------------------------------------
    The stereotype that Black natural hairstyles are dirty or unkempt 
and therefore not appropriate for more formal settings remains 
unfortunately wide-spread. For example, until 2014, the U.S. military 
banned a number of common Black hairstyles, including cornrows and 
braids.\29\ School administrators and dress codes also often restrict 
Black natural hairstyles and punish students for wearing them.\30\ In 
one dramatic episode, a school principal reportedly took scissors to a 
Black student's locs.\31\ More recently, as noted earlier, a high 
school wrestling referee with a history of making racist comments 
forced a Black student athlete to cut his locs in order to compete, 
even though doing so was not required by district policy.\32\
---------------------------------------------------------------------------
    \29\ David S. Joachim, Military to Ease Hairstyle Rules After 
Outcry from Black Recruits, N.Y. TIMES (Aug. 14, 2014), https://
www.nytimes.com/2014/08/15/us/military-hairstyle-rules-dreadlocks-
cornrows.html.
    \30\ See, e.g., Press Release, Civil Rights Groups Retained to 
Represent African American Teens Punished for Wearing Braids at 
Massachusetts Charter School, NAACP Legal Def. & Educ. Fund (May 22, 
2017), https://www.naacpldf.org/press-release/civil-rights-groups-
retained-to-represent-african-american-teens-punished-for-wearing-
braids-at-massachusetts-charter-school/.
    \31\ David Moye, Mom Accuses Principal of Cutting Her Son's Hair 
Without Permission, HUFF. POST (Mar. 28, 2018), https://
www.huffingtonpost.com/entry/mississippi-boy-hair-locs-cut-
principal_us_5abbfa33e4b03e2a5c78e34d; see also Kayla Lattimore, When 
Black Hair Violates the Dress Code, NPR (July 17, 2017), https://
www.npr.org/sections/ed/2017/07/17/534448313/when-black-hair-violates-
the-dress-code (describing two Black students punished for wearing 
braids); Crystal Tate, 16-Year-Old Black Student with Natural Hair 
Asked by School to ``Get Her Hair Done,'' ESSENCE (May 16, 2017), 
https://www.essence.com/hair/natural/black-student-natural-hair-asked-
to-get-hair-done.
    \32\ See Press Release, LDF Makes Public Records Request in 
Response to Hair Discrimination Case Involving Buena Regional High 
School Wrestler (Jan. 7, 2019), https://www.naacpldf.org/press-release/
ldf-makes-public-records-request-response-hair-discrimination-case-
involving-buena-regional-high-school-wrestler/; Press Release, LDF 
Sends Letters Over Concerns with Discriminatory Hair Policies Stemming 
from Incident Involving New Jersey High School Wrestler (Feb. 12, 
2019), https://www.naacpldf.org/press-release/ldf-sends-letters-
concerns-discriminatory-hair-policies-stemming-incident-involving-new-
jersey-high-school-wrestler/.
---------------------------------------------------------------------------
    While these incidents are particularly troubling and stark examples 
of hair discrimination, the underlying myths and judgments about Black 
natural hair are pervasive in both professional and social contexts and 
in people's attitudes. A 2017 study, for instance, found that white 
women, on average, show explicit bias against ``black women's textured 
hair,'' rating it ``less professional than smooth hair.''\33\ This same 
study, perhaps not surprisingly, found that Black women feel particular 
pressure to straighten their hair for work.\34\ In the words of 
Professor Paulette Caldwell, ``I marvel[] with sadness that something 
as simple as a black woman's hair continues to threaten the social, 
political, and economic fabric of American life.''\35\
---------------------------------------------------------------------------
    \33\ See ALEXIS M. JOHNSON, ET AL., THE ``GOOD HAIR'' STUDY: 
EXPLICIT AND IMPLICIT ATTITUDES TOWARD BLACK WOMEN'S HAIR 6, PERCEPTION 
INSTITUTE (Feb. 2017), https://perception.org/wp-content/uploads/2017/
01/TheGoodHairStudyFindingsRe- port.pdf.
    \34\ Id. at 12.
    \35\ Paulette M. Caldwell, A Hair Piece: Perspectives on the 
Intersection of Race and Gender, 1991 DUKE L.J. 365, 367 (Apr. 1991).
---------------------------------------------------------------------------
    Realizing the pernicious and demonstrably harmful effects of hair 
discrimination, some States and cities are starting to take action. In 
February 2019, the New York City Human Rights Commission released 
Guidance on Race Discrimination on the Basis of Hair, noting that 
``Bans or restrictions on natural hair or hairstyles associated with 
Black people are often rooted in white standards of appearance and 
perpetuate racist stereotypes that Black hairstyles are 
unprofessional'' and that ``[s]uch policies exacerbate anti-Black bias 
in employment, at school, while playing sports, and in other areas of 
daily living.''\36\ And the California Senate recently passed a bill, 
the CROWN Act (SB 188), that would prohibit schools and employers from 
discriminating against natural hairstyles associated with race.\37\ 
According to the sponsor of the bill, Sen. Holly J. Mitchell, ``There 
are still far too many cases of Black employees and applicants denied 
employment or promotion--even terminated--because of the way they 
choose to wear their hair. I have heard far too many reports of Black 
children humiliated and sent home from school because their natural 
hair was deemed unruly or a distraction to others.''\38\ We commend 
these jurisdictions for taking action against pervasive discrimination 
against Black hair and ask TSA to similarly incorporate these 
principles into its policies and practices.
---------------------------------------------------------------------------
    \36\ New York City Commission on Human Rights, NYC Commission on 
Human Rights Legal Enforcement Guidance on Race Discrimination on the 
Basis of Hair (2019), https://www1.nyc.gov/assets/cchr/downloads/pdf/
Hair-Guidance.pdf.
    \37\ See Kristin Lam, California's CROWN Act seeks to end racial 
discrimination based on hairstyles, USA Today (Apr. 23, 2019), https://
www.usatoday.com/story/news/nation/2019/04/23/california-bill-end-
racial-discrimination-hairstyle/3557231002/.
    \38\ ``Senate OKs Sen. Mitchell's bill to protect against 
discrimination based on hair texture, styles,'' YouTube.com (Apr. 22, 
2019), https://www.youtube.com/watch?time_- continue=182&v=Ty69wWU-M7E.
---------------------------------------------------------------------------
    Most disturbing, perhaps, is that top TSA officials do not 
recognize that a system that singles out and disproportionately targets 
Black women is discriminatory. In its investigation, ProPublica 
reported that ``[a] senior TSA official said in an interview that hair 
pat-downs are not discriminatory and are done when a body scanner 
indicates that a passenger has an object in his or her hair. `I get a 
hair pat-down every time I travel. I'm a white woman,' said the 
official, who agreed to be interviewed on the condition that she not be 
named.''\39\ The implications here--that supposedly objective 
technology cannot be discriminatory, and that a system cannot be 
racially discriminatory if it also affects white people--are misguided. 
We are past the point of asking whether software, algorithms, machines, 
and other forms of technology can perpetuate racism. Of the numerous 
examples of technology-based discrimination, two from Google Images 
include incidents in which the website featured almost all Black people 
in response to a query about ``unprofessional hairstyles,''\40\ and one 
in which the website ``labeled black people as gorillas, likely because 
those were the only dark-skinned beings in the training set.''\41\ The 
data that is fed into this kind of technology is susceptible to the 
biases of the humans who choose that data and shape the development of 
the technology: ``Software is written by humans, who have bias, and 
training data is also generated by humans who have bias.''\42\ Our 
focus now should be on studying the disparate outcomes produced by 
these technologies and ensuring that we are not simply automating human 
biases while relying on ``objective technology'' to escape culpability 
for the racially unequal results. A longer and expanded inquiry is 
warranted to ensure that this country's history of discrimination and 
racial bigotry does not continue to be perpetuated by technology.
---------------------------------------------------------------------------
    \39\ Medina, supra note 5.
    \40\ Andrew Leung, If you Google `Unprofessional Hairstyles for 
Work,' these are the problematic results, Mic.com (Apr. 6, 2016), 
https://www.mic.com/articles/140092/if-you-google-unprofessional-
hairstyles-for-work-these-are-the-problematic-results#.KKA0LXRdd.
    \41\ Maya Kosoff, Alexandria Ocasio-Cortez says algorithms can be 
racist. Here's why she's right., LiveScience (Jan. 29, 2019), https://
www.livescience.com/64621-how-algorithms-can-be-racist.html.
    \42\ Id.
---------------------------------------------------------------------------
    Indeed, the compromising of passengers' civil rights at TSA 
security points in airports is not new, and TSA has been aware of the 
problem in various forms for years. In fact, over 4 years ago, TSA 
entered into an agreement with the ACLU of Northern California over the 
racial profiling of Black women's hair.\43\ Since this agreement, the 
problems that motivated the initial complaint have reemerged, but are 
now treated as an issue of technological inefficiency rather than as a 
violation of passengers' civil rights. These issues of racial bias in 
TSA technology must be addressed particularly as TSA moves toward 
increased reliance on other forms of technology, including facial 
recognition tools,\44\ which have already been proved to operate in 
manner that discriminates based on race.\45\
---------------------------------------------------------------------------
    \43\ Letter from Bryan W. Hudson, TSA, https://www.aclunc.org/
sites/default/files/2015.01.12%20Singleton%20TSA%20resolution_0.pdf.
    \44\ https://www.theverge.com/2018/10/15/17979688/tsa-precheck-
facial-recognition-airport-cbp-biometric-exit.
    \45\ https://www.theverge.com/2019/1/25/18197137/amazon-
rekognition-facial-recognition-bias-race-gender.
---------------------------------------------------------------------------
    Recent reports and articles on TSA's policies and procedures 
related to profiling have been a laudable and much-needed step in 
understanding the problem, though the problem's scope is far from 
understood. One of the ways to bring greater transparency to the issue 
of racial profiling in TSA technology and TSA's policies and practices 
more generally is to promote the complaint process. It is likely that 
many people about to board a plane may not take the time to file a 
formal complaint with TSA. And, more troubling, according to 
ProPublica, ``most people [they] heard from said they had not known 
they could make a complaint.''\46\ We urge TSA to continue studying the 
scope of this problem, both by reviewing complaints and proactively 
soliciting feedback from passengers. TSA, particularly its Office for 
Civil Rights & Liberties, Ombudsman & Traveler Engagement (CRL/OTE), as 
well as its Innovation Task Force, should be actively engaged in 
monitoring and colleting data on how the implementation of technology 
like full-body scanners disproportionately affects certain passengers. 
Given TSA's constant contact with the public--contact that at times can 
be of a highly personal and invasive nature--public engagement and 
responding to public input is critical.
---------------------------------------------------------------------------
    \46\ Medina, supra note 5.
---------------------------------------------------------------------------
    Further, to the extent that TSA asserts that its current policies 
and practices regarding full-body scanners and hair pat-downs are 
necessary as a matter of security, we urge TSA to be transparent in 
explaining why that is so and to confirm that there are no less 
discriminatory measures. To our knowledge, TSA has not provided any 
data on the number of weapons or other contraband, if any, it has 
discovered through the process of hair pat-downs. Against the 
voluminous evidence that TSA procedures are disproportionately 
burdening people of color, TSA has failed to adequately show that these 
procedures are actually necessary, or even helpful, in enhancing 
security, or that there are no less burdensome alternative procedures. 
TSA has also not shown that it is effective for TSA officers to spend 
time tending to the many false positives produced by full-body 
scanners, which cannot tell the difference between a weapon in a 
person's hair and a Black woman's locs as opposed to other security 
measures.
    We appreciate TSA's role in maintaining safe travel, as well as its 
attention to the on-going problems discussed in this testimony and 
those shared by others today. TSA's obligation to treat all passengers 
with dignity and to protect their Constitutional and civil rights, as 
well as their safety is a critical one. LDF looks forward to continuing 
to engage on these issues and would welcome the opportunity to work 
with TSA on finding innovative solutions that serve the needs of TSA 
while protecting the dignity and civil rights of all travelers.
    Thank you for your consideration of this important issue and for 
the opportunity to speak to you today.

    Chairman Thompson. I thank the witnesses for their 
testimony. I remind each Member that he or she will have 5 
minutes to question the panel.
    I now recognize myself for questions.
    Let me say from the outset that I think it is clear that 
every Member of this committee wants to get it right. The 
traveling public has a duty to be safe, and we have an 
obligation to make sure that that process by which they get 
screened is the best system.
    Our challenge--and I am speaking for the Chair--is I have 
had experiences as an African American that perhaps some of my 
other colleagues haven't when I have had to question why am I 
being put in secondary screening. It was always not real clear 
as to why. I hear comments quite often.
    So one of the reasons we are trying to have this hearing is 
to get it right. How can we reduce those numbers down as low as 
possible? We have invested in technology. We are continuing to 
invest in technology. We have done away with some of the uses, 
Behavioral Detection Officers and other things that didn't have 
real science behind them. But we still have to work at getting 
it right, because a lot of these instances are still occurring.
    One of the things I would like to ask Mr. Russell is, is 
there a clear traveler's redress available to someone who feels 
that he or she has been singled out for discrimination?
    Mr. Russell. So what we found in our most recent report was 
that there are three main ways to do that. Basically, you are 
going to contact the TSA Contact Center, which handles all the 
complaints; but you could do that via phone, email, or 
electronic communication. Then there are comment cards at 
airports that you can fill out as well.
    So those are the three main avenues. You have 180 days 
after the experience to lodge that complaint with TSA.
    Chairman Thompson. So, to your knowledge, were you able to 
ascertain whether or not individuals who are going through that 
process are told that?
    Mr. Russell. So there are officials at the airports that 
can help, customer service representatives that can help steer 
passengers in the right place if they know to find them, is how 
we talked about it in the report.
    Chairman Thompson. Mr. Singh, your experience on the group 
you are here representing, has that process been clear to those 
individuals?
    Mr. Singh. It has not really been clear for individuals. In 
fact, I would say that the word ``comment cards'' is a 
deceptive practice. It doesn't really indicate that this is a 
complaint form for a traveler to use.
    Second, travelers who are already delayed and frustrated 
with the secondary screening procedures have flights to catch. 
They are not going to try to hang around at the airport to try 
to ascertain who the appropriate individual is to complain.
    So we developed the Fly Rights app to hopefully make it a 
little bit more accessible. We launched this app in 2012 so 
that complaints could be officially made through our app and 
forwarded to TSA.
    TSA has done a little bit more in terms of the on-line 
space allowing for complaints, but I think people are tired of 
complaining for 18 years and seeing little to no change. The 
inconsistent application of security procedures and discretion 
at airports makes the job too big of a problem to always 
complain about. The entire system really requires an overhaul, 
as a top-down messaging is not effectively implemented by 
airports and security officials that kind of govern themselves.
    The more sophisticated technology, such as AIT, is also 
often perceived as superior to human expertise, and people are 
left to make a generalized complaint about the machine, not 
necessarily about the TSO or specific airport. They may not 
even understand that the technology they are using is a problem 
for them.
    Chairman Thompson. Thank you very much.
    Ms. Nelson, what has been your experience with people 
making complaints?
    Ms. Nelson. Well, my experience has been that, as my co-
panelists have described, the process is not clear. It leaves a 
lot to be desired. Currently, if a complaint is lodged and 
supplemental information is requested and it is not provided 
within a 10-day window, the administrative complaint is closed.
    So the 3,700 complaints that were identified in the GAO 
report really does not represent the lion's share of incidences 
that happen at airports that go unreported and ultimately are 
later dismissed because they are not fully complete.
    One of the 5 recommendations that the Legal Defense Fund is 
making is that the complaint process be overhauled, that there 
is greater public education and ad campaigns about the ability 
to lodge such complaints. When passengers complain to TSOs and 
complain to airport security personnel, they should be 
immediately offered an opportunity to file a complaint then or 
to later do so on-line.
    Chairman Thompson. Thank you very much.
    I yield to the Ranking Member.
    Mr. Rogers. Thank you, Mr. Chairman.
    I would tell Mr. Singh and Ms. Nelson that the AIT 
machines, I have been a long-time critic of that technology and 
have worked for years to make sure we don't purchase any more 
of them. I think they need to be out of our airports as soon as 
we can replace them with better technology.
    Mr. Russell, TSA has struggled for a long time with 
screening in a way that treats everybody fairly, but they seem 
to have been hung up on this behavior detection approach even 
though we have told them to stop using it.
    Why do you think that they continue to lean on this 
approach to screening, along with using AIT, when there are 
better technologies available?
    Mr. Russell. What they have reported to us is that they 
just consider behavior detection as one layer of security among 
many. You have Secure Flight, the technology at the checkpoint, 
and that that is a useful security measure to help counter 
threats to aviation.
    What we have said in our past report is that there was 
little valid evidence to support a good number of the 
indicators that are in use and had recommended that they limit 
funding until such time that they get that valid support.
    As was mentioned, the Aviation Security Act of 2016 helped 
TSA in the stand-alone behavior detection program, and now 
those staff trained in that function have been converted to 
regular transportation security officers.
    Mr. Rogers. But don't you find that they still use that 
approach in their screening practices, even though they have 
been told to move on to a different job?
    Mr. Russell. Right. What we found is they are still being 
used in a limited way in support of passenger screening, canine 
teams, as well as vetting of airport workers as they come to 
work every day.
    Mr. Rogers. One of the arguments for using Federalized 
screening personnel as opposed to allowing airports to 
privatize the screening personnel and let them just be 
supervised by TSA is that it is supposedly supposed to offer 
more consistency in the way screening is done. Have you found 
that to be true? It seems there are a lot of inconsistencies to 
me.
    Mr. Russell. Right. That wasn't something we looked at at 
this review, that comparison between the SPP airports and a 
Federalized TSA airport.
    Mr. Rogers. Mr. Singh, I heard you mention a few minutes 
ago that you had seen some improvements in TSA, not enough, but 
some improvements.
    Ms. Nelson, is that your view?
    Ms. Nelson. That there have been some improvements at TSA? 
Well, we just mentioned that there is a diminished use of 
behavioral techniques and that is certainly an improvement. But 
we still have a very long way to go. There are very sound 
practices that can also keep us safe.
    We do not believe, as the Chairman emphasized in his 
opening remarks, that it is an either/or equation. It is not a 
zero-sum question. We can protect civil rights, we can protect 
human rights, and we can protect our National security.
    Mr. Rogers. Thank you.
    I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from Texas, Ms. Jackson 
Lee, for 5 minutes.
    Ms. Jackson Lee. Mr. Chairman, first of all, let me thank 
you for the hearing and thank you for the Ranking Member 
joining. We have been together on this committee for a very 
long time and addressed these issues that are extremely 
important.
    I want to take note, Ms. Nelson, because I think it is 
important that people know what is in your testimony as relates 
to TSA. You very openly say, we appreciate TSA's role in 
maintaining safe travel as well as its attention to the on-
going problems discussed in the testimony.
    So I want it to be known that we understand, I think each 
and every witness, Members here understand the front-line 
responsibility of the Transportation Security Administration as 
well as the TSO officers, and we offer them our gratitude.
    But we live in a Nation of laws, and we believe we still 
live in a Nation that adheres to the rule of law and as well 
our basic principles of human dignity and due process. So I 
think this hearing is crucial, because it is important to get 
things correct on how we balance the aftermath of 9/11, when 
the naivete of the United States was breached and we understood 
that we had the responsibility of security.
    So I am going to ask, I think in your report, Mr. Russell, 
you indicated that a number of these complaints were heavily in 
about 10 cities, am I correct, on the 3,700 complaints?
    Mr. Russell. Right. The top 3 were LAX, JFK, and then 
Atlanta.
    Ms. Jackson Lee. Do you attribute that to the size of the 
airports and not necessarily that it is not going on all across 
the Nation?
    Mr. Russell. That is certainly one factor. I mean, those 
are some of the busiest airports in the country. We just 
provided that data, but we didn't make a judgment beyond that.
    Ms. Jackson Lee. So the most important point that you want 
to make out of your recommendation is what?
    Mr. Russell. So TSA has a number of oversight mechanisms 
already in place for the remaining parts of behavior detection 
that it employs, but we think they need to go one step further 
and make sure there is a specific mechanism within their 
oversight checklist and their policies to specifically look for 
instances of or indications of profiling as they are doing 
their due diligence.
    Ms. Jackson Lee. So there should be a specific mechanism?
    Mr. Russell. Correct.
    Ms. Jackson Lee. To? Say it again.
    Mr. Russell. So this is--and this is what TSA agreed to, is 
to go back, look at the whole process they use for oversight, 
actually documenting what the supervisor is observing as the 
behavior detection is being conducted, and to have a specific 
place to look for indications of profiling, and then to remark 
whether they are seeing something or not, so that you could go 
back later.
    Ms. Jackson Lee. So they have to internally do this. They 
have to set up a structure and do this themselves.
    Mr. Russell. Correct.
    Ms. Jackson Lee. Mr. Singh, let me thank you very much.
    First of all, we will answer your question. We are in the 
process in a committee that works very closely with this 
committee, the Judiciary Committee, to reintroduce the End 
Racial Profiling, and I look forward to leading that effort. So 
thank you very much.
    I just want to quickly say that I am reminded of an Indian 
Sikh right after 9/11, Mr. Sodhi, who was killed in Mesa, 
Arizona, and the person who killed him was Frank Roque, I 
believe. ``I am going to go out and shoot some towel-heads, and 
we should kill their children too, because they will grow up to 
be like their parents.'' The intensity of that hatred is 
resurging.
    I do want to acknowledge and put in the record Hargun 
Sodhi, who is currently a rising junior at the University of 
Houston, and he came to my office in Houston from the SikhLEAD 
Program. He is, in fact, related to Mr. Sodhi, which tells us 
that when we kill, we may kill one, but the spirit and the 
strength of our communities will remain strong.
    I ask you the question how the community feels, and you 
sort-of represent others who may be similarly dressed in other 
religious garb, in terms of what they feel, what it means when 
they go to an airport and expect to be or are treated that way. 
I am going to ask that question, because I am going to quickly 
go to Ms. Nelson so that you can answer the question.
    My constituent Ms. Mohammad was treated unfairly in 
Atlanta, which I am still pursuing. I ask the question to you, 
what is the most key thing that we will need to do? You said an 
appeal process or you said a process that captures where they 
can apply directly at the airport, which I think is extremely 
important.
    So, Mr. Chairman, if you don't mind if they could answer 
those 2 questions.
    Mr. Singh, your answer, and then Ms. Nelson.
    Thank you so very much.
    Mr. Singh. First of all, thank you so much for that 
recognition for the legacy of Mr. Sodhi.
    Travelers feel humiliated, they feel ashamed, they feel 
stigmatized, and they feel left out. In short, they also feel 
like second-class citizens and sometimes like model minorities 
that are not helping their own community.
    Ms. Jackson Lee. Ms. Nelson.
    Ms. Nelson. You asked about additional recommendations to 
improve the process. While the GAO report that was released 
this morning is laudable and it is an insightful assessment, 
there should be a full audit of TSA practices and policies to 
determine 2 things. No. 1, whether they, in fact, serve 
National security interests. No. 2, are they the least 
discriminatory means of serving those goals?
    No one group or several groups of citizens who are already 
marginalized should bear the responsibility of security 
procedures that are not effective.
    Ms. Jackson Lee. Thank you very much.
    Mr. Chairman, thank you.
    Chairman Thompson. Thank you very much.
    If this gentleman from New York will allow me to recognize, 
for a point of personal privilege, the other gentleman from New 
York, the Chair would appreciate it.
    Mr. Katko. This time, sure.
    Chairman Thompson. I understand you have a special guest in 
the audience, Mr. Rose, that you might want to introduce to the 
committee.
    Mr. Rose. Mr. Chairman, thank you very much for that honor. 
I would like to recognize my mother and my aunt and my 
wonderful cousin who is out there.
    [Applause.]
    Mr. Rose. Please stand up real quickly, mom and Rachel. 
Stand up. Stand up. Say hello.
    All right. OK. I am not repeating that.
    Chairman Thompson. Does the gentleman yield back?
    Mr. Rose. Yes. Let's strike that from the record, what you 
just said. All right?
    Yes, I yield back. Thank you.
    Chairman Thompson. The gentleman from New York is 
recognized for 5 minutes.
    Mr. Katko. Perhaps Mr. Rose owes me a beer now.
    Mr. Chairman, I thank you for having this hearing. It is 
very important. I agree with the sentiments expressed by both 
yourself and the Ranking Member that even one incident of 
racial profiling is too much.
    So I commend all of you for being here today.
    I must say, though, that I am a little concerned with TSA, 
and it seems to be a problem that is more endemic to the whole 
administrative Executive branch function of our Government as a 
whole, and that is sometimes it seems like they dictate the 
terms by which they appear here, and that shouldn't be. If they 
are given 12 days notice or we make inquiries about whether we 
want to have a witness, either in the Majority or us in the 
Minority, 12 days should be sufficient for them to get their 
internal approvals done. They signal to us repeatedly that they 
need more time to prepare their witnesses.
    If this recalcitrance continues, I think we should consider 
using the subpoena process, because TSA should be here to face 
the fire. TSA is the one we are concerned with, and TSA is the 
only one not here at the table. So, in my mind, TSA, we should 
take a little more aggressive approach in the future, if 
necessary, Mr. Chairman, I respectfully suggest.
    Chairman Thompson. Duly noted.
    Mr. Katko. Thank you. Plus, I was a prosecutor and I like 
subpoenas. It tends to get people's attention.
    Now, Mr. Russell, we have talked about this behavior 
detection, but, as the Chairman noted in his opening statement, 
we passed a bill out of here, one of my bills, that outlawed 
using Behavior Detection Officers in the line to determine 
whether they go to PreCheck or not. I want to understand, how 
exactly are they using these officers now?
    Mr. Russell. So over the course of our review they were 
using them in support of passenger screening canine teams, as 
well as screening of aviation workers.
    Mr. Katko. So are they stationed at the line when people 
are coming in or what?
    Mr. Russell. So they would be with the actual canine units, 
wherever they are operating. Then, depending on how the airport 
is set up to do their screening of workers, they would be 
positioned there.
    Mr. Katko. Is that your understanding as well, Mr. Singh?
    Mr. Singh. That is probably SSI we are not privileged to, 
so I couldn't comment on that.
    Mr. Katko. OK. Well, I want to get, Mr. Singh, I want to 
get some examples from you, some more specific examples of when 
you think that they have been profiling in a not appropriate 
manner. Give me specific examples just so I can understand it.
    Mr. Singh. In a not appropriate manner?
    Mr. Katko. Yes.
    Mr. Singh. So I will highlight one of them. A Sikh traveler 
within the past 2 months flew out of EWR three times, twice 
from terminal C and once from terminal A. When he flew out of 
terminal C, in both instances he was told he cannot do a self-
pat-down of his turban. The TSO and the manager said that the 
rules have changed and that they have to do a pat-down. The 
third flight of EWR from terminal A, he was able to do a self-
pat-down like usual.
    He mostly goes through the AIT machine, and his turban 
shows up on alarms 9 times out of 10. This is one of those 
demonstrations of inconsistent application within just one 
airport in the last 2 months.
    Mr. Katko. OK, great. Thank you.
    Ms. Nelson, you mentioned some possible remedies for this, 
and could you expound on those a bit? I know you talked about 
perhaps some sort of a public awareness campaign. But what else 
would you suggest we do to ameliorate this problem?
    I am really concerned, as the Chairman knows, with the use 
of these officers. I think it is way too nonscientific. Unless 
you are engaging a passenger for several minutes and getting a 
feel for whether there is a concern, I don't think in 10 
seconds you can make a snap decision.
    I will give you an example. I would sit for days talking to 
people I think committed a murder, and for days I would be 
absolutely convinced that they were telling me the truth, and 
then after a while they broke down and told me they did do it. 
So you are not going to find out in 10 seconds whether someone 
is a security risk or not.
    So with that as a proviso, I want to hear what you have to 
say, some suggestions.
    Ms. Nelson. Sure. So in addition to improving the complaint 
process and also ensuring that we are, in fact, meeting our 
National security interest needs in a way that is least 
burdensome on American travelers, we also recommend three other 
measures.
    One is that in addition to antidiscrimination training for 
all TSA personnel, that the TSA quickly implement, as Ranking 
Member Rogers suggested, that it immediately implement the 
GAO's recommendation, which it has accepted, to monitor 
compliance with the specific procedures intended to prohibit 
unlawful profiling. So not just general monitoring, but looking 
at the specific procedures that are intended to deal with this 
very issue that we are most concerned about.
    In addition, we would add that, in the interest of 
transparency, it should share the results of that monitoring 
with the public.
    Also, very commendably, it was reported that the TSA 
requested that vendors last summer provide ideas to improve 
screening of headwear and hair, in compliance with Title VI of 
the Civil Rights Act. That is an excellent step in the right 
direction. We urge the TSA to maintain that demand of vendors 
and to refuse to contract with vendors using taxpayer funds 
that cannot ensure that their technology is nondiscriminatory.
    So those are just a few additional ways in addition to 
phasing out completely the use of behavioral detection 
techniques.
    Mr. Katko. Well, you just gave me a couple ideas for new 
bills. So thank you very much.
    I yield back my time, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    Let me assure the gentleman from New York, we will follow 
up and get TSA here. I am wondering why they are not following 
the Congressional mandate of your bill. I mean, I don't know 
how they can----
    Mr. Katko. I don't understand it either, and that is why I 
would respectfully suggest that we have some follow-up on this.
    Chairman Thompson. Sure. We will.
    Mr. Katko. If we need to use subpoenas, we need to use 
subpoenas.
    Chairman Thompson. Absolutely.
    Mr. Katko. Time should never be an excuse for them not to 
be here.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from New Jersey, Mr. 
Payne.
    Mr. Payne. Thank you, Mr. Chairman, for having this 
hearing, and the Ranking Member as well.
    You know, I think it has kind-of already been mentioned, my 
line of questioning, but to reiterate the seriousness of the 
issue, 3,500 complaints in the scope of things may not seem 
like a significant number, but 3,500 people that took the time 
to lodge a complaint is probably just the tip of the iceberg in 
terms of people that are not complaining. They are upset, they 
are distraught, they didn't like it, but they don't have the 
time to make the complaint or don't know the procedure of what 
to do next. That is a serious problem.
    So I am asking all the witnesses, do you suspect that 
travelers underreport civil rights and civil liberty complaints 
against TSA? Do you think passengers refrain from reporting 
incidents due to fear of being placed on a watch list that will 
restrict future travel?
    Sir.
    Mr. Russell. So in our recent report, we really looked at 
for those 3,700 complaints with civil right/civil liberties 
issues, what was the process? One of the things that you note 
is they don't all really make it to the investigative stage. So 
almost a third of those dropped out, because there wasn't 
complete information that the passenger was able to provide for 
TSA to pursue it further.
    So anything along those lines, to make it more evident what 
you need to file, how you are responsive to a request for more 
information, to have a complete complaint that could be 
investigated, would be helpful.
    Mr. Payne. OK.
    Mr. Singh.
    Mr. Singh. We believe that there are numerous factors that 
contribute to underreporting. Sometimes the traveling public, 
especially if they don't travel frequently, may not know their 
rights are being violated or that the TSO is not adhering to 
policies and protocols, because those policies and protocols 
are not always transparent or easy to understand.
    I would refer the committee Members here to our exhibit B 
and C to show the difference between TSA's guidance for Sikh 
air travel passengers and the one that we developed with close 
consultation.
    Mr. Payne. Thank you.
    Ms. Nelson. I will add that we should underscore that of 
the 3,663 complaints related to passenger screening, TSA's 
Multicultural Branch found indications of potential 
discrimination and unprofessional conduct that involved race 
and other factors in over a thousand complaints. That is a 
significant number.
    That is buttressed by the anecdotal accounts and news 
reports by African American women, who talk about invasive and 
humiliating pat-downs at airports. It is buttressed by the 
accounts of TSOs themselves who talked about racial profiling 
being pervasive at airports, like Logan National Airport, 
Newark Liberty International Airport, Honolulu International 
Airport.
    It is something that we know is far more prevalent than the 
number of complaints suggests, because of the frailties in the 
complaint process and the very nature of the issue itself, 
where people are under pressure to get where they need to go 
and do not often circle back. I can confess to not complaining 
or lodging a formal complaint to TSA when I have personally 
been subjected to similar pat-downs.
    Mr. Payne. I do recall times prior to me becoming a Member 
of the House of Representatives having issues in airports and 
not necessarily filing a complaint, but finding myself being 
very discouraged and frustrated and embarrassed by the pat-
downs that TSA formally did in their procedures.
    What other reasons might result in underreporting of 
complaints?
    Ms. Nelson. Well, I think with respect to certain 
populations, and I particularly would like to lift up Muslim 
Americans on the last day of Ramadan today who often are 
singled out and concerned that by stepping up and speaking out 
that they may be subjecting themselves to additional scrutiny 
and potential danger because of the stereotypes that surround 
that community and many others.
    In addition, transgender individuals are often so deeply 
humiliated by the very binary lens that the TSA scanners and 
TSOs use to determine who is appropriate to pass through 
security that filing a complaint and airing those issues only 
leads to further exposure and potential humiliation.
    So I think those are deterrents, and we need to find a 
process that allows for a greater opportunity to air those 
issues.
    Mr. Payne. Thank you.
    I apologize. I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from North Carolina for 
5 minutes, Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman.
    Ms. Nelson, I appreciate your perspective on some of the 
things that you have seen. It has been educating for me and I 
appreciate you sharing some of the things, specifically with 
hair and some of the things that the African American females, 
false signals and some of that. I am going to look more into 
that and check into that.
    I haven't thought about this in probably I guess maybe 15, 
16 years, Mr. Singh. I remember my third-grade son coming home 
one day with a note that he and some friends had made fun of 
another boy in his class that wore a turban. I just thought 
about that today. The next day, in trying to teach him a 
lesson, my son left for school wearing a turban that day to try 
to get him to understand what it feels like to be picked on or 
discriminated against.
    I do believe that was--I haven't always gotten it right, 
but I think that day we were able to send a valuable lesson 
that no Americans--and I know my colleagues on this side of the 
aisle want to make sure that any kind of discrimination is shut 
down.
    At the same time, I want to make sure--there are many 
wonderful employees at the TSA who take their job very 
seriously and do their best. I think with about 2 million 
passengers each day, I think it comes down to less than 1/1000 
of 1 percentage point of some of these actionable claims. Still 
too many, we want to continue to work on that, but we want to 
make sure that we stop that.
    I do have a couple questions.
    Mr. Russell, as the director here, how does the 
Multicultural Branch review whether a screener followed the 
protocol in instances of alleged violations?
    Mr. Russell. So once they have enough information to review 
the complaint, typically they go back to the airport involved 
and try to pull the camera footage, interview the 
transportation security officers involved, and try to recreate 
the events and see if they could substantiate any part of the 
allegation in the complaint.
    Mr. Walker. Can you tell me, are there consistent 
disciplinary actions that are used if a screener does not 
follow protocol?
    Mr. Russell. Right. Most often there is refresher training 
of various sorts, either to the employees at the airport or it 
could be a Nation-wide brief, depending on what the issue may 
be. Over the course of our review, we also noted there were a 
hundred instances where disciplinary action was taken in 
response to some of the passenger screening-related complaints.
    Mr. Walker. I know trends are very important in this line 
of work. What ways does the TSA check potential trends, 
concerns that is, increases or decreases related to allegations 
of unlawful profiling? Do you have some kind of system in place 
that you are able to monitor that?
    Mr. Russell. So TSA does review at a macro level the 
complaint data to try to look for trends, things that are 
emerging, and has various mechanisms to report that, both to 
the leadership within TSA or to make the airport officials, the 
Federal security directors, others, aware of things that they 
might be seeing in the data.
    Mr. Walker. Can you unpack that a little bit more? You said 
they have ways to follow the trends. Can you speak to that, as 
far as specifically what are being utilized as tracking the 
changes to reduce profiling in the future?
    Mr. Russell. Right. So one of the examples that we were 
able to look at had to do with headgear and turbans and the way 
to handle that situation at the checkpoint when an anomaly is 
present based on the AIT review. Religious wear. If there are 
particular religious artifacts that groups may be traveling 
with, how to handle that situation. So we saw sort-of trying to 
be somewhat proactive and to alerting airports to those 
situations.
    Mr. Walker. OK. Thank you, Director Russell.
    Thank you, panel.
    I yield back to the Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes Mr. Correa for 5 minutes.
    Mr. Correa. Thank you, Mr. Chair, and the Ranking Member 
for holding this most important hearing.
    Listening to your testimony here, I do wish TSA would have 
been here. I hope that either this full committee or our 
subcommittee on TSA does have a hearing and invites the TSA 
officials. It is important to hear from them because they do 
have an important job, very important job.
    If you look at, you know, how many flights per day in this 
country, maybe 2,000 or more, it is a million passengers. How 
many airports around this country? Their job is to make sure 
that those planes leave and land safely.
    Now, I am going to ask Mr. Russell: Immigration, law 
enforcement, TSA, three separate functions. When it comes to 
immigration, before you walk into the TSA inspection, your 
credentials are checked, correct?
    Mr. Russell. That is right.
    Mr. Correa. Many places before you get on that airplane, 
you are checked again. Yes? No?
    Mr. Russell. Right, to go through screening.
    Mr. Correa. So TSA really is there to screen for devices 
that may cause harm to the passengers, correct?
    Mr. Russell. Right.
    Mr. Correa. We are always working to make sure that we 
attain 100 percent in terms of assuring that those negative 
things don't get on our planes or get into airports, correct?
    Mr. Russell. Right, that is the goal.
    Mr. Correa. So I got to figure TSA, those workers have a 
very stressful job, and they know zero tolerance is what is 
expected of them. So what is the policy right now at TSA when 
it comes to screening for immigration? Is that part of the job?
    Mr. Russell. That is not something that we looked at in 
this review. So I can look in that and see if there is 
something specific in their standard operating procedures. I 
can tell that you they are----
    Mr. Correa. I ask you this because, several years ago, we 
heard reports that Latino passengers were being targeted by the 
Behavior Detection Officers in Honolulu, Boston, and Newark. 
Some of these officers actually call themselves 
``Mexicutioners,'' which meant they were really looking for 
secondary screenings that would yield drug-related offenses, 
outstanding warrants, and deportations.
    Is this part of the TSA mission or goal? Do you know if 
they are still doing this, or is this something incidental?
    Mr. Russell. So that is not something that came up 
specifically in our review, but in terms of where behavior 
detection is being used, yes, we saw that. They definitely 
needed to improve the oversight in terms of checking for 
compliance with profiling. So, if those--if behavior detection 
was involved in the incidents that you are referring to, 
certainly we think our recommendation will help at least have 
an oversight mechanism to specifically look for those.
    Mr. Correa. Most of us that fly are familiar with the 
process, but a person who occasionally flies, travels, so to 
speak, you are going to be nervous as you walk up to a lot of 
those hi-tech machines. So you on the natural will probably 
exhibit some kind of nervousness. The detection behavior folks, 
would they look at this as triggering a secondary inspection?
    Mr. Russell. That is what behavior detection is intended to 
do, is look for signs of fear, stress, using a certain number 
of indicators; and if you see enough of them, then you refer 
the person to secondary.
    Mr. Correa. How many of these would be false positives, 
false negatives?
    Mr. Russell. Well, that is where our work has shown big 
concerns around the usefulness of those indicators. When we 
looked at the--how many of them had valid support for use in 
the aviation environment, it was only a few out of the 36 that 
they currently employ.
    Mr. Correa. So it is not really significant in terms of 
their job----
    Mr. Russell. Right.
    Mr. Correa [continuing]. Performance, effectiveness.
    I am running out of time but my--my further thought is, in 
terms of the reports of abuse, reports from citizens, this is a 
very diverse country, a very multiethnic country, a lot of 
religions. So, to me, every time you go through one of these 
situations, if you feel that you have been discriminated 
against, racially profiled, I think most passengers will just 
say: You know what? Let me the heck out of here. I just want to 
get out of here.
    They would not file a complaint.
    So I am hoping somehow we get to a process where, if a 
passenger feels that there is something wrong here, ``I have 
been wronged,'' that they can immediately report a situation, 
as opposed to give me that slip of paper. I have got to go on-
line and have to write you a letter to express my concerns.
    Any thoughts on that?
    Mr. Russell. That is certainly something we saw. You know, 
about a third of the civil rights, civil liberty complaints 
that came in did not get further reviewed because they were 
missing some key piece of information. Someone had to provide, 
you know----
    Mr. Correa. Those are the ones that are actually reported.
    Mr. Russell. These are the rules that are in place to 
investigate a complaint further at TSA.
    Mr. Correa. Mr. Chairman, I just want to say we need to 
follow up on this and make sure that there is a robust 
complaint system so that we get a good picture of what is going 
on.
    I want to thank again our TSA officers for the good job 
they have done. I just want to make sure that they are focusing 
on the right job.
    Thank you, Mr. Chair.
    I yield.
    Chairman Thompson. Absolutely. I think just about everyone 
who has commented understands that TSA is missing in action 
with this hearing and that they knew well in advance of our 
intent to it have and our interest to have them. So we will go 
forward and have them come and answer some questions.
    I am really concerned, Mr. Russell, that, you know, we 
spoke very clearly that there was not enough science behind the 
behavioral detective program, BDO program, and somehow, on one 
hand, they say, OK, we have done away with it, but from what 
you have said today, they are still using it.
    Mr. Russell. In a more limited way, yes. That is correct.
    Chairman Thompson. Well, and that is what Mr. Katko was 
talking about, too, because it was his bill.
    Mr. Correa. Mr. Chair, we need to follow up on this. I want 
to make sure if there is a validity to this kind of behavior, 
testing, use, let's hear about it. If not, let's move on to 
something that makes sense.
    Chairman Thompson. Absolutely.
    Chair recognizes the gentlelady from Arizona, Mrs. Lesko.
    Mrs. Lesko. Thank you, Mr. Chair.
    Thank all of you for coming today and sharing your insight 
onto this most important issue.
    I have a couple questions. The first one is for Mr. 
Russell.
    From what I have read, there is--and what has been 
testified--there are 1,066 complaints that TSA recommended 
additional training due to potential discrimination, and then 
we got testimony from our other witnesses about different 
aspects of possible discrimination.
    Do you have a breakdown of how many people, how many of 
these complaints were because of turbans or other headwear or 
hair so that I get a better idea of the--how many of these--
this stuff happens?
    Mr. Russell. Sure. So, of the--going back to that larger 
universe of the 3,700 complaints that dealt with civil rights 
or civil liberty issues, passenger screening, really, 
complaints, about 1,500 of those were related just to general 
discrimination or profiling concerns; 493 had to do with some 
aspect of pat-downs, so when you are in the secondary screening 
process; 279 dealt with hair, issues around hair; and just to 
name a few others, 200 dealt with religion; and then another 
169 dealt with transgender issues, just to give you a----
    Mrs. Lesko. Yes, that is helpful.
    Ms. Nelson, you had--I just want to understand this more. 
You had said that African American women's hair, sometimes they 
cannot detect the difference between contraband and the hair. 
Is that accurate? That is after they go through the screening, 
through the X-rays, or the--when does that happen?
    Ms. Nelson. So the full body scanner does not always 
accurately detect or screen Black women's hair. It can be in an 
Afro. It can be in braids or twists or the locks that I wear on 
my head. Those scanners cannot properly detect that it is hair 
and not contraband. So it signals to the TSOs that there should 
be an additional screening. That then disproportionately 
affects Black women, who have to go through a more invasive 
hair pat-down whereas, if someone had straight hair or 
flattened hair, it is less likely to go off.
    Mrs. Lesko. Thank you. Thank you.
    My other--I guess I am just kind of confused about this 
behavioral screening, this specialized behavioral detection 
training that Mr. Katko, apparently, I don't know if he got rid 
of it or not, but from what I read, it said that it is 
integrated now into other TSO officers and especially those 
that have K-9s.
    Now, the airport that I come from, the K-9s are usually at 
the front of the line. So, how does a K-9 officer that is using 
this specialized behavioral detection, I mean, how do they then 
say, ``Oh, you need a special pat-down''? Because normally 
doesn't the pat-down, they take you after you get through, you 
know, the luggage area, and then the TSO officer there, you 
know, puts you aside and has you do a pat-down.
    So help me understand this. I don't get it.
    Mr. Russell. Yes, so, with the passenger screening, K-9 
teams, that could be right around the checkpoint. Think about 
the, you know, in the queue area, depending on the 
circumstance. Then the Behavior Detection Officers would 
support the K-9. So, as you are engaging passengers, you can 
ask them questions and look for some of the indicators. If you 
see a certain number, then you would refer that person for 
later to the secondary screening.
    Mrs. Lesko. So they walk them over to the screening area 
and----
    Mr. Russell. Right.
    Mrs. Lesko [continuing]. Hand them over to another TSA--TSO 
officer? Is that what you are saying?
    Mr. Russell. That is my understanding.
    Mrs. Lesko. OK. All right. Yes, that is what I read is that 
it--they integrated these specialized behavioral detection 
people into the TSAs, TSOs, and they are usually the ones that 
deal with K-9s. That is what I read anyway. So I don't know if 
that was specifically banned in Representative Katko's bill or 
not. We are going to have to find out.
    So thank you very much, all of you. I appreciate the 
insight.
    Chairman Thompson. I think that the reason we got to the 
bill is we could not find the science behind being able to look 
at somebody and tell that they are terrorists or something like 
that in a matter of seconds and, because nobody could come back 
and clarify the issue, we said it is not working, but, again, 
we will have TSA to come here and tell us why, for whatever 
reason, the intent of Congress to do away with this program has 
somehow resurfaced somewhere else.
    The Chair recognizes gentlelady from Nevada, Ms. Titus, for 
5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    I represent Las Vegas, and so it distresses me to see 
McCarran on this list of top airports where you have 
complaints. We welcome visitors from all over the world, and we 
want their experience from the minute they land or the minute 
they leave to always be a good one. So I hate to see us here.
    But I do think that this chart really only tells us which 
airports are the busiest. It doesn't really give us much more 
information than that, and there may be a smaller airport where 
you have a much higher percentage of incidents of this. One is 
too many, but you mentioned Honolulu, for example, that you had 
heard stories and that is--I don't see that on here. So I think 
a better chart would give us percentages or break it down by--I 
don't know what, but this doesn't really give me too much 
information.
    One thing I would ask all of you to maybe address: We have 
heard you need more technology. You need better training. You 
also need more accountability. How about more diversity among 
the TSO staff themselves? If you are coming through an airport 
and you are a Sikh and there is a Sikh TSO officer, maybe that 
would be some more understanding. Did you look at the TSO, the 
TSA staff to see if they are diverse or there is any attempt to 
hire diversity, not just train people but bring all kinds of 
people into the professional, where they can then reflect some 
of these concerns themselves?
    Mr. Russell. So that wasn't within the scope of what we 
looked at for this review.
    Then just one note on the airports, so there were a total 
of 240 that had at least one complaint related to civil rights 
and civil liberties. But we just listed the top 10.
    Ms. Titus. But go back to the fact that, even if it is not 
part of the scope, do you think that would be a good thing to 
look into that with more diversity of hiring or just at least 
have some idea of who works on the other side?
    Mr. Russell. Yes, I would feel uncomfortable to answer for 
TSA on that, but, you know, certainly a diverse and inclusive 
work force is always a good thing.
    Ms. Titus. OK. Mr. Singh.
    Mr. Singh. We know of some Sikh TSOs in the field. However, 
without the appropriate input at the leadership level and at 
the policymaking level, no matter how diverse, are still going 
to be implementing problematic procedures and protocols that 
are not clear and would still unfortunately leave people 
feeling violated against their own people, it may be, at best 
or just a more diverse face.
    Ms. Titus. I understand about the technology, but I was 
hoping maybe there would be some personal connection, but I see 
your point.
    Ms. Nelson. I think a diverse and inclusive work force is 
always a good thing, and it is something that we should look 
for in TSA and elsewhere. However, we have found that even 
African American TSOs will implement a policy that is 
discriminatory, and it also doesn't account for the technology 
that itself perpetuates racial profiling and racial bias.
    So that can't be solved by just diversifying the work 
force, although I do think that is an important step. But it 
does not fully solve the issue. Anecdotally, you know, there 
has been some commentary that perhaps people who understand 
your hair, understand your religious garb better will not 
engage in as invasive or as humiliating a search, but it 
doesn't eliminate that disproportionate impact of technology 
and of these practices and policies.
    Ms. Titus. Thank you.
    I note, in the report, you also talked to some members of 
TSA and some managers. Did you reach out to their union, AFSCME 
and have any conversations with them? Do you think that would 
be a good idea? Do you think that could be a vehicle for trying 
to maybe bring about some of these changes that you all have 
suggested that we so desperately need?
    Mr. Russell. We looked really at the coordination part that 
TSA's civil rights, civil liberties branch has with community 
groups and did note that they have a relationship with I 
believe the Sikh Coalition and others to have a dialog on these 
issues. That is as far as it went is just to report some of 
that information.
    Ms. Titus. Mr. Chairman, maybe if you bring TSA in, we 
could also bring in their union to see how they might be 
helpful in implementing some of these changes.
    Chairman Thompson. Absolutely. We look forward to having 
both.
    Ms. Titus. Thank you.
    I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Texas, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I appreciate this hearing. I think this is an important 
topic. I just wanted to--and I am a new Member of Congress. So 
I am trying to figure out.
    Can you give me like a--Mr. Russell, can you give me a 
trend of what has transpired here? So it has been--TSA has been 
around for 18 years, since 9/11. You know, it is in their 
policies they are not supposed to do profiling. Has that always 
been in there? Has that changed at some point? Then can you 
give me some kind of context of the numbers of complaints about 
racial profiling? Has that gone up? Gone down? I mean, because 
I think it can be a snapshot in time, which is helpful to know 
where we are. But where have we been?
    Mr. Russell. Yes, a couple of points on that. So some 
prohibition against profiling, I think, has been around for a 
long time.
    Specifically in 2013, though, the DHS Secretary sent a memo 
to TSA to really take a second look at that to make sure that 
they had specific policies in place around profiling and then, 
where feasible, to try to collect some information to make sure 
that wasn't happening. So it got reinforced there.
    In terms of the complaint data itself, you know, for our 
review, we looked at the 3,700 that are just civil rights, 
civil liberties-related complaints. But just to give you some 
context, I think in 2017, TSA received a total of about 100,000 
complaints in one form or fashion. So, 3,700 would be a subset, 
and that is over, you know, a little bit more extended period 
of time, if that is helpful.
    Mr. Taylor. But what was that 10 years ago? I mean, what 
trend line are we on, or do you know? I am not trying to put 
you on the spot.
    Mr. Russell. Yes, no, I don't have extended data just for 
civil rights, civil liberties complaints. But I think typically 
there are half a million to 600,000 comments that come in, in a 
year based on the TSA data we have seen, and then typically it 
is around 100,000 that are complaints.
    Mr. Taylor. OK. Then something that is important to me is 
mothers who are breastfeeding and trying to take milk through 
TSA, and that is something that has come up in my townhalls. 
Mothers have said: Hey, I show up. I show the piece of paper to 
TSA. This is how I am supposed to be screened, and they do it 
their own way anyway. They take the piece of paper and throw it 
away.
    It is pretty upsetting to me because, I mean, you want to 
look out for mothers. So that is a piece of legislation I am 
working on with committee staff. So it is important to me.
    But just going back to that kind of idea of showing up and 
saying, ``Hey, this is your policy,'' Mr. Singh, have you had a 
chance to review TSA's policy and how--I see that there is 
something in our briefing about policy, but it is not very 
helpful to me anyway. But have you reviewed their policy? There 
is a specific--is there written documentation somewhere that 
people can point to and say this is how you are supposed to--
you know, go back to the self-inspection for a turban, which 
seems to be the key question here. Is there something written? 
Is there a written policy on that? Or is this just catch-as-
catch-can, depending on what terminal you show up at Newark?
    Mr. Singh. So they have developed a know-before-you-go 
document. However, it is not accessible on the TSA's website. 
So I don't quite know how they are distributing and 
disseminating, other than working with community organizations 
like the Sikh Coalition and others, which is kind-of 
frustrating because we don't have access to every Sikh in 
America. So the guidance is not clear. Their website, TSA's 
website, doesn't really have any clear policies and procedures 
of what a religious headwear traveler can expect and, 
therefore, when they go to present themselves for screening, 
they are left wondering, what does this process and procedure 
look like? Really the onus is on organizations like us and our 
travelers to know what to generally expect.
    There is a lot of deviation and variations as what people 
can expect. It is not exactly clear. When we try to get clarity 
from TSA, we are always told that they cannot provide any 
clarity on guidance in terms of pat-downs, the procedures and 
process, if you're allowed to do a self-pat-down, or if the TSO 
will do it because of SSI.
    Mr. Taylor. Well, it certainly seems reasonable to have 
clearly-written expectations and that, you know, helps the work 
force, the people that are actually on the ground, doing it, to 
actually do whatever it is we want them to do, rather than 
leaving them out to not know what they are supposed to do, and 
then the traveler doesn't know what to do either.
    Ms. Nelson, do you have any comment on that, on reviewing? 
Is there anything you have read as you reviewed TSA's policies 
that you are concerned about? It seems to me that what should 
be written is correct, but there is just not enough 
specificity.
    Ms. Nelson. Yes, I mean, I talked about the deficiencies in 
the complaint process, but I also think that transparency in 
what these guidelines and protocols are is key. They could be 
posted in airports so that every airline passenger knows his or 
her rights when traveling and knows what can and cannot happen 
in a security interaction. There are many ways in which we can 
create much more transparency and accountability in this 
process, but right now, it is cloaked in secrecy. The Legal 
Defense Fund has a FOIA request to get some of this 
information, but it is far from transparent.
    Mr. Taylor. OK. Thank you.
    Mr. Chairman, I just want to concur with my colleague from 
New York, Mr. Katko. I mean, it is really imperative TSA come 
to a hearing like this. Whatever we need to do to make them 
show up, I am for that.
    Chairman Thompson. I agree that it is the written guidance. 
It is the training that goes with it.
    I was just talking with the Ranking Member. You know, we 
have Congressional IDs. Every now and then, if you present it 
at certain airports, they will ask you if you have a driver's 
license. So that is--and that picture of the ID is in the 
manual, but it is the training that goes with the written 
guidance that is so important that could probably alleviate a 
number of the problems we are talking about here.
    We will--the gentleman from Texas, Mr. Green, for 5 
minutes.
    Mr. Green of Texas. Thank you, Mr. Chairman.
    Thank the Ranking Member and the witnesses for appearing 
today.
    Mr. Chairman, if I may say so, I concur with what you said 
about the Congressional ID. I happen to have had that 
experience. In the interest of full disclosure, I would like to 
announce that I was a branch President of the NAACP in Houston, 
Texas, for approximately 10 years.
    Now, further disclosure would require that I indicate that 
the Legal Defense Fund and the NAACP, as we know it, they are 
separate entities. But they have a special kinship and a 
special relationship.
    Ms. Nelson, I am honored that you are here today----
    Ms. Nelson. Thank you.
    Mr. Green of Texas [continuing]. To speak on behalf of not 
only an organization but on behalf of millions of people 
because you make a difference in their lives, and I appreciate 
you. Thank you.
    I am concerned about the deployment of the technology. Was 
there some exigency that required deployment without the 
necessity to have proper field testing before it was allowed to 
become a part of the traveling public's experience? Maybe this 
was the test.
    Mr. Russell, was this the test, or did we test it before 
deploying?
    Mr. Russell. So, back in 2014, we actually took a look at 
some of the initial AIT deployments, in particular, the body 
scanners and one of the things that----
    Mr. Green of Texas. Excuse me. I have to interrupt. I am 
not sure I understand what ``took a look at'' means. Did you--
--
    Mr. Russell. We did a report.
    Mr. Green of Texas. Did you actually do a field testing? 
Did you actually have live bodies have an experience with the 
technology before deploying it?
    Mr. Russell. We looked at what TSA was doing specifically 
to test the technologies.
    Mr. Green of Texas. Did they test this on live bodies at 
airports?
    Mr. Russell. One of the things that we found was that there 
were issues.
    Mr. Green of Texas. I am not sure that I understand that 
answer. Did they test it at airports on live bodies?
    Mr. Russell. I don't--I don't know for sure if they did 
that.
    Mr. Green of Texas. How did we deploy the technology that 
is defective? There must be protocols that we have to adhere to 
that would prevent this sort of circumstance from manifesting 
itself. How did we get here?
    Mr. Russell. One of the things from that 2014 review was it 
was noted that the technology itself had a higher incident of 
false alarms when it came to transgender wigs, hair type 
issues, and body mass index.
    Mr. Green of Texas. But this is after deployment. Is this 
correct?
    Mr. Russell. Right.
    Mr. Green of Texas. After it was being used in airports.
    Mr. Russell. That is right.
    Mr. Green of Texas. How did we get to this point? Does 
anybody have some indication as to what was required? What was 
the protocol that was adhered to, to allow it to be deployed?
    Anyone?
    Have we bothered to--in your various capacities, have you 
made an inquiry as to what happened? Because I am just amazed 
that we deployed this technology. There had to be an exigency 
or some circumstance that would require deployment without 
testing it properly. I don't want anyone to be singled out 
unnecessarily in this country. We value our privacy, and we 
value our ability to associate freely and move about without 
impediments. So how can we find out what happened? Can someone 
give me some indication, please?
    Ms. Nelson. I think that is an excellent question, and 
there does need to be some historical discovery as to how this 
technology was acquired and implemented in view of the 
discriminatory impact that it is now shown to have. But I also 
think this is an important moment to flag that, before any 
additional technology is used by TSA--and we have grave 
concerns about the potential use of facial recognition 
technology which is already being used in some airports across 
the country--that we do--we do not repeat the same mistake, 
that we make sure that we account for the potential 
discriminatory impact of that technology before we spend 
millions of dollars implementing and deploying it and at the 
expense of various American travelers, particularly people of 
color.
    Mr. Green of Texas. Thank you.
    Do you all agree there should be some deployment protocols 
that we can access to ascertain what the standard is that is 
being utilized before deployment? Do we all agree?
    Mr. Singh. Yes.
    Mr. Green of Texas. Anyone differ?
    Ms. Nelson. Absolutely.
    Mr. Green of Texas. I will try to as best as I can help us 
achieve this level of perfection, and I thank you for your 
testimony.
    I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from Florida, Mrs. 
Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman, to our 
Ranking Member, and to our witnesses for joining us today.
    This is a very important hearing, and I am glad to see us 
having it.
    If we could just go back to, Mr. Russell, the question is 
for you.
    But, Ms. Nelson, you talked about the need for 
transparency. For example, airports, TSA could post information 
in the various airports, notifying the traveling public 
regarding complaints.
    Mr. Russell, if you could, please tell me: What steps does 
the TSA take to ensure that passengers are even aware of the 
complaint process? I think Mr. Correa from California talked a 
little bit about this, that many times passengers are just 
trying to get through the airport. They may have been--their 
rights may have been violated at the time, but by the time they 
get through and are home, they have just said, ``Let it go.''
    What steps do you take to make sure the traveling public 
knows that if they feel that laws have been violated as it 
pertains to their civil liberties, that this is the way that 
they can make a complaint?
    Mr. Russell. The main mechanisms that we saw was that there 
is a portal, a TSA website, where you can file information. 
There are comment cards that can be utilized at the airports, 
and then airports have what are called customer service 
representatives that can assist passengers with that process. 
But as a traveler, you would have to, you know have the time to 
engage with the customer service representative to do something 
at the airport. So, for the most part, there is that 180-day 
window after the incident occurs where you can phone it in; or 
you can file it via the website.
    Mrs. Demings. They would have to go to the website to----
    Mr. Russell. Correct.
    Mrs. Demings [continuing]. Get that information about the--
--
    Mr. Russell. That is correct.
    Mrs. Demings. OK. All right. How does the TSA use complaint 
data and trend analysis to change its policies regarding 
complaints?
    Mr. Russell. So the multicultural branch does analysis of 
the complaints that come in with respect to civil rights and 
civil liberties issues. They can use that to work with the more 
operational part of TSA. The security operations, that is 
really responsible for the checkpoint to inform updates to the 
standard operating procedures or to send information to 
particular airports where there has been a spike in certain 
number of incidents or types of complaints.
    Mrs. Demings. So, if a recommendation is made regarding, 
you know, violation occurs and a recommendation is made 
regarding additional training.
    Mr. Russell. Right.
    Mrs. Demings. I am sure it has been. Could you talk a 
little bit about what kind of training has been recommended to 
TSA that has actually been implemented?
    Mr. Russell. Right. It could go to the individual screener 
involved in a complaint incident, and they might need refresher 
training, depending on what the issue was. It could be 
something that is a National shift brief, is what they call it, 
where it is information that is provided to all screeners 
across the 440 airports on a particular issue. Head gear is 
one. That has happened in the past. Then sometimes it can be 
just a heads-up awareness: Hey, we are seeing a particular 
issue in the complaint data. Here is some information around it 
like religious clothing was one that we saw.
    Mrs. Demings. So, if that occurs at a--or that 
recommendation is made at a particular airport, is that 
information shared with all airports?
    Mr. Russell. It depends on the situation. So it can be 
shared with all airports. Sometimes it is dedicated to the 
particular airport that where the incident occurred.
    Mrs. Demings. So back to the question about there are about 
10 airports that account for, like, a third of the complaints. 
My colleague from Nevada asked the question about, is this just 
based on passenger volume, or would you say these particular 
airports, there is a lack of training--there is a training 
deficiency or some other bias that may exist? What--is it just 
passenger volume or more than that?
    Mr. Russell. Yes, this is just pure data. When you looked 
at the 3,700 complaints, where did they happen to occur? That 
list was the top 10 but----
    Mrs. Demings. How do you get a real--an accurate account of 
where problems exist----
    Mr. Russell. Uh-huh.
    Mrs. Demings [continuing]. Specifically if you are not 
looking at percentage of passenger volume and just looking at 
passenger volume?
    Mr. Russell. Right. So but that is what we had in our 
report is just that data. Our understanding is TSA does look 
for those types of trends, but that is all I can say. I mean, 
TSA would have to answer more on that.
    Mrs. Demings. Do they generate a report of their 
conclusions or the results of those evaluations?
    Mr. Russell. So what we have is a number of the training 
materials they have developed based on the complaints, and then 
we were able to see some of the complaint trends that they 
monitored. So, for example, there could be a range of 
complaints related to handling of baggage or PreCheck, as well 
as civil rights and civil liberty-type complaints.
    Mrs. Demings. OK. Thank you, Mr. Chairman.
    I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from New York, Ms. 
Clarke, for 5 minutes.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    I thank our Ranking Member for today's hearing. I thank our 
expert witnesses for bringing your testimony today, and please 
excuse the in and out. We have conflicting hearings but wanted 
to make sure that I had a conversation with this panel.
    The TSA screens over 2 million passengers every day, and 
these passengers are as diverse as America itself. TSA must 
have policies in place that prevent profiling, ensure each and 
every passenger is judged solely on their security profile and 
never based on their race or religion. TSA screenings must rely 
on science, not prejudice, not bias, and not baked algorithms 
programmed by individuals who harbor either implicit or 
explicit bias. So, having said that, my first question is for 
Ms. Nelson.
    If screening machines alarm disproportionately on Black 
women, it would follow that Black women are also subjected to a 
disproportionate number of invasive pat-downs. How does TSA 
pat-downs affect process--process affect African American 
passengers, given the context in history of policing of African 
Americans?
    Ms. Nelson. Thank you for that question.
    The disproportionate number of pat-downs and secondary 
screening processes reinforces the stereotype that African 
Americans and African American women in particular are 
connected with being suspicious individuals or potentially 
dangerous. It is a public viewing of that selective process. 
Many accounts by African American women describe being deeply 
humiliated, being delayed in their travel. There is an 
additional burden and cost to them personally and 
professionally often in traveling and being subjected to these 
processes and procedures.
    Again, I underscore that we have yet to receive any 
indication that this is, in fact, improving our National 
security.
    Ms. Clarke. Building upon that, that answer, according to 
the Department of Justice statistics, African American girls 
and women, 12 and older, experience higher rates of rape, 
sexual assault than White, Asian, Latina girls and women from 
1999 to 2010. How might a survivor of sexual assault react to 
being pat-down?
    Ms. Nelson. It can be an extraordinarily traumatic 
experience for anyone who has been a victim of sexual assault 
or who has the fear of potentially being a victim of sexual 
assault.
    We know from our studies that African American girls are 
often adultified in ways that bring unwarranted scrutiny and 
criticism and invasive practices to them as they travel and as 
they just go about their daily lives.
    Ms. Clarke. Screening machines alarm frequently due to 
thick hair and hairstyles popular among African American women 
and girls, making African American women more prone to invasive 
pat-downs. TSA has been trying to be responsive to concerns by 
African American women about the pat-down process, but the 
problem won't fully--won't be fully solved until TSA fields 
better technology.
    In the mean time, what recommendations do you have for the 
TSA for improving the pat-down process for Black hair?
    Ms. Nelson. Well, first, the TSA should replace the current 
technology with technology that can accurately screen Black 
hair. It is unacceptable to have technology funded by taxpayer 
dollars that cannot recognize and discern the hair of the 
people in its population. So, first and foremost, it needs to 
remove and revise its technology.
    In terms of the on-going pat-down, there are ways in which 
they can be done less invasively. For example, there can be 
self-pat-downs. There can be ways in which African American 
travelers are able to have more agency in the process. So there 
are some near-term improvements, but our longer-term 
recommendation is that we scrap the technology that perpetuates 
racial profiling.
    Ms. Clarke. Very well.
    A--I am sorry. Mr. Singh, many religious minorities 
including Muslim Americans and Sikh Americans feel they are 
targeted for random screening by the TSA. The program is 
supposed to generate--to operate without regard to ethnicity, 
color, gender, identity, religion, natural--national origin, 
sexual orientation, or disability. But how do we ensure that 
TSA is living up to this promise? Do you have concerns about 
TSA's use of behavioral detection?
    Mr. Singh. We are extremely concerned about the use of 
behavioral detection. It is technically a junk science. You 
know, there is no scientific evidence to support that it is 
effective. Neither has TSA shown any metrics that validate that 
it is a useful deterrence mechanism, and also we believe that 
there needs to be sensible limitations on TSO discretion. It is 
farfetched and unfettered in terms of any other law enforcement 
official. They typically have to articulate some kind of 
standard or basis that warrants the suspicion for a secondary 
search. TSOs are not subject to such discretion, and that is 
problematic. As a result, there are many instances of TSOs 
using their wide discretion for pretextual bases to secondarily 
screen Sikhs, Muslims, African Americans, and transgender 
individuals.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    I thank our panelists once again.
    I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver, for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Mr. Russell, is there some kind of process that TSA uses 
when they see a name, a name that is a suspicious name? Is 
there anything in your policies that would direct attention to 
people based on their name?
    Mr. Russell. If there--it would be through the secure 
flight process, which happens for every traveler, where you 
would match the name against different watch lists to determine 
if someone would need secondary screening based on that 
process.
    Mr. Cleaver. I was elected to the House in 2004, and I 
could barely make it to Washington each week and, but for an 
American Airline Washington bureau chief, I am not sure I would 
have even wanted to stay. I was stopped every week and harassed 
because of my last name because I have relatives who are rather 
famous with that last name, and I am not one of the famous 
Cleavers, but there are relatives with that name.
    I mean, it was an awful experience that I went through 
every single week. I mean, they take me there in the back room. 
You have to undress. Let us go through your hair. Let us tickle 
you, I mean, what--just about anything, and I was developing a 
resentment that I have gotten over.
    I ran into this American Airline person at an event here in 
Washington about 3 weeks ago, and she just kind-of jokingly in 
front of some other folks just said: Are you still having 
problems?
    So, I am still not comfortable, but I had--what I have done 
is I have TSA. I go through CLEAR, everything, trying to reduce 
the fact that somebody sees the name Cleaver and, all of a 
sudden, I am a member of the Black Panthers, and I am harassed. 
I am not--I haven't gone through that recently, but I don't 
want anybody else to go through it.
    What guarantee, I mean--I mean, my name didn't match. I 
mean, my name is Emanuel. My cousin's name is Eldridge. They 
don't even--they are not even spelled alike. I mean, can you 
help me?
    Mr. Russell. Yes.
    Mr. Cleaver. There are 4 children.
    Mr. Russell. Right. No, from a GAO perspective, I mean, we 
have taken a look at some of the secure flight programs over 
the years that are supposed to be a process to go through 
redress for these types of situations that the Department of 
Homeland Security manages.
    Mr. Cleaver. Well, maybe it is because Homeland Security 
was only a couple of years old at the time. Maybe it is better.
    Let me ask another question. My concern is, you know, you 
say that we have information about the complaints. Are the 
complaints--this is, Ms. Nelson or Mr. Singh, are the 
complaints only at the airports that are involved with TSA? I 
live in Kansas City, Missouri. Our airport is privately 
contracted. It is not a part of the Federal contract with TSA. 
So are there records being kept there as well?
    Mr. Singh. I am not aware of non-Federalized complaints. 
Typically, they tend to be for TSA specifically, and I don't 
know if TSA subcontracts and those----
    Mr. Cleaver. Two cities, Kansas City and San Francisco.
    Mr. Singh. We can go back and take a look.
    Mr. Cleaver. I would really, really appreciate it because, 
with the passing of each week, I become more and more inclined 
to try to begin a movement to force the Kansas City system into 
the Federal program, and I am trying to collect data, and that 
is one of the things that is--that has my attention.
    Thank you very much. You can get that to my office, or 
somebody can. Can somebody get that information to me, please?
    Ms. Nelson. We will do what we can to supplement the 
record, yes, thank you.
    Mr. Cleaver. Thank you.
    I yield back the balance of my time.
    Chairman Thompson. Thank you very much.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. I ask unanimous consent to enter 
into the record a report from the National Center for 
Transgender Equity without objections.
    [The information follows:]
           Report of National Center for Transgender Equality
                              June 4, 2019
    The National Center for Transgender Equality (NCTE) is a Nation-
wide, non-profit, non-partisan organization founded in 2003 to promote 
public understanding, opportunity, and well-being for the nearly 2 
million Americans who are transgender. In addition to conducting public 
education and ground-breaking National survey research, NCTE works with 
Federal, State, and local agencies on a wide range of issues, and we 
have been in dialog with the TSA during my entire 9-year tenure at the 
organization. While NCTE's statement will focus on the challenges 
facing transgender travelers, we see these concerns as part of a 
spectrum of civil rights and privacy concerns that affect the traveling 
public more broadly, including particular problems faced by travelers 
with disabilities and members of racial and religious minorities.
    TSA's important mission of protecting lives can and should be 
advanced without compromising the dignity, privacy, and personal 
liberty of the traveling public or our Nation's commitment to civil 
rights. As Hofstra Law School professor Irina Manta has argued in the 
NYU Journal of Legislation and Public Policy, passenger screening must 
be based on a robust analysis of the privacy, dignity, and liberty 
costs and the actual security benefits of particular screening 
measures.\1\ Traveler outreach and engagement should continually inform 
this analysis and drive improvements. As described extensively in our 
testimony last year to the Transportation Security Subcommittee NCTE 
has engaged extensively with TSA for nearly a decade to describe and 
seek to address the problems faced by transgender travelers.\2\ 
Unfortunately, we have seen little improvement.
---------------------------------------------------------------------------
    \1\ Irina D. Manta, Choosing Privacy, 20 N.Y.U. J. LEG. & PUB. POL. 
649 (2017).
    \2\ The Public Face of TSA: Examining the Agency's Outreach and 
Traveler Engagement Efforts, Before the House Transportation Security 
Subcomm., 115th Cong. (2018).
---------------------------------------------------------------------------
    The core of the problem NCTE hears about almost daily from 
travelers is this: TSA has made it its business to know what's in 
Americans' pants, every time they fly. It is entirely possible to keep 
Americans safe without innocent travelers being asked questions about 
the contents of their underpants by Government officials, or having 
their private parts touched by uniformed strangers every time they get 
on a plane. That is not in line with our values or the freedom TSA is 
charged to protect. The travelers we hear from don't just want to get 
to their gate more quickly, or make sure TSOs have a heads-up to expect 
someone whose body may cause an alarm, or have a kinder, gentler 
conversation with TSOs about their body parts or undergarments--they 
want to get on a plane without discussing their private parts or having 
them touched by Government officials, period.
  transgender travelers regularly face humiliation at tsa checkpoints
    The current system of passenger training seriously compromises 
civil rights and privacy, and transgender travelers are affected 
particularly harshly. As TSA works to pursue innovation in passenger 
screening--including in screening technology, procedures, and 
straining--we strongly urge the agency to prioritize the privacy, civil 
rights, and civil liberties of all passengers, including by ensuring 
that the use of AIT is gender-neutral and eliminating alarms caused 
solely by sensitive parts of the body--namely, the chest or genitals--
or by undergarments.
    An award-winning 2018 essay in MIT's Journal of Design and Science 
used the author's own TSA experiences as an illustration of the need to 
employing Design Justice principles in advanced technology:

``The TSA agent motions me to step into the millimeter wave scanner. I 
raise my arms and place my hands in a triangle shape, palms facing 
forward, above my head. The scanner spins around my body, and then the 
agent signals for me to step forward out of the machine and wait with 
my feet on the pad just past the scanner exit. I glance to the left, 
where a screen displays an abstracted outline of a human body. As I 
expected, bright fluorescent yellow blocks on the diagram highlight my 
chest and groin areas. You see, when I entered the scanner, the TSA 
operator on the other side was prompted by the UI to select `Male' or 
`Female.' . . . If the agent selects `male,' my breasts are large 
enough, statistically speaking, in comparison to the normative `male' 
body-shape construct in the database, to trigger an anomalous warning 
and a highlight around my chest area. If they select `female,' my groin 
area deviates enough from the statistical `female' norm to trigger the 
risk alert, and bright yellow pixels highlight my groin, as visible on 
the flat panel display. In other words, I can't win. I'm sure to be 
marked as `risky,' and that will trigger an escalation to the next 
level in the TSA security protocol.
``This is, in fact, what happens: I've been flagged, the screen shows a 
fluorescent yellow highlight around my groin. Next, the agent asks me 
to step aside, and (as usual) asks for my consent to a physical body 
search. Typically at this point, once I am close enough to the agent, 
they become confused about my gender. This presents a problem, because 
the next step in the security protocol is for either a male or female 
TSA agent to conduct a body search by running their hands across my 
arms and armpits, chest, hips and legs, and inner thighs. The agent is 
supposed to be male or female, depending on whether I am male or 
female. . . . Sometimes, the agent will assume I prefer to be searched 
by a female agent; sometimes, male. Occasionally, they ask whether I 
prefer a search by a male or female agent. Unfortunately, `neither' is 
an honest but not an acceptable response. Today, I'm particularly 
unlucky: A nearby male agent, observing the interaction, loudly states 
`I'll do it!' and strides over to me. I say `Aren't you going to ask me 
what I prefer?' He pauses, seems angry, and begins to move toward me 
again, but the female agent stops him. She asks me what I would prefer. 
Now I'm standing in public, surrounded by two TSA agents, with a line 
of curious travelers watching the whole interaction.
    ``Ultimately, the aggressive male agent backs off and the female 
agent searches me, making a face as if she's as uncomfortable as I am, 
and I'm cleared to continue on to my gate.''\3\
---------------------------------------------------------------------------
    \3\ Sasha Costanza-Chock, ``Design Justice, A.I., and Escape from 
the Matrix of Domination,'' Journal of Design and Science 3.5 (2018), 
https://jods.mitpress.mit.edu/pub/costanza-chock.

    TSA's current Advanced Imaging Technology (AIT) and screening 
procedures seriously compromise the privacy and dignity of transgender 
travelers. In particular, transgender men routinely encounter alarms 
caused by their chest compression vests or by their chests themselves, 
while transgender women frequently encounter alarms caused solely by 
their private parts. These alarms and resulting additional screening--
no matter how professionally conducted--are unnecessary, humiliating, 
and unacceptable, especially for travelers who experience them again 
and again. That's true whether you're a transgender woman like Shadi 
Petosky, who tearfully live-tweeted her TSA ordeal in Orlando in 
2015,\4\ or CNN commentator Angela Rye (who is not transgender), whose 
video of her genital pat-down in Detroit made for queasy viral viewing 
in late 2016,\5\ or just a month ago American icon Diana Ross claiming 
she felt ``violated'' by an ``over the top'' screening in New Orleans 
that according to TSA, ``correctly followed all protocols.''\6\ Whether 
transgender or not, the screening process can be especially harrowing 
for children, and for survivors of sexual trauma. Some parents of 
transgender children are quite afraid of air travel because of the 
humiliation their child could face in the case of an alarm in a 
sensitive area, a pat-down, or being publicly mis-gendered.
---------------------------------------------------------------------------
    \4\ Katie Rogers, TSA Defends Treatment of Transgender Air 
Traveler, N.Y. TIMES (Sept. 22, 2015), https://www.nytimes.com/2015/09/
23/us/shadi-petosky-tsa-transgender.html.
    \5\ Angela T. Rye, Dear TSA: The country is not safer because you 
grab vaginas, CNN.com (Dec. 22, 2016), https://www.cnn.com/2016/12/16/
opinions/tsa-invasive-pat-down-rye/index.html.
    \6\ Melinda Daffin, Diana Ross says TSA made her want to cry at the 
New Orleans airport, New Orleans Times-Picayune (May 5, 2019), https://
www.nola.com/jazzfest/2019/05/diana-ross-says-tsa-made-her-want-to-cry-
at-the-new-orleans-airport.html.
---------------------------------------------------------------------------
    In 2015 NCTE conducted a ground-breaking survey of nearly 28,000 
transgender adults across all 50 States, and 53 percent of our 
respondents had gone through airport security in the previous year.\7\ 
Of those, 43 percent of transgender travelers reported at least one 
negative experience with passenger screening related to being 
transgender in the previous year. These negative experiences included 
being referred to as the wrong gender or verbally harassed by 
Transportation Security Officers; receiving additional screening 
including pat-downs because of gender-related clothing; being subjected 
to a pat-down by an officer of the wrong gender; being loudly 
questioned about their gender or their body parts at the checkpoint; 
and being asked to remove or lift clothing to show an undergarment or 
sensitive area of the body. Some respondents reported being detained 
for over an hour or missing their flight due to gender-related 
screening issues. Some reported having to go through scanners multiple 
times; receiving multiple pat-downs; having TSOs refuse to pat them 
down because they were transgender; being questioned about their gender 
in front of their children; and leaving the checkpoint in tears. Some 
said they were simply too afraid to fly, or wracked with nerves every 
time. Some demanded to speak to supervisors or filed complaints and 
felt TSA was very responsive to complaints about insensitive or 
harassing treatment, while others were told nothing could be done 
because their bad experience was inherent in the current screening 
procedures.
---------------------------------------------------------------------------
    \7\ James, S. E., Herman, J. L., Rankin, S., Keisling, M., Mottet, 
L., & Anafi, M. (2016). The Report of the 2015 U.S. Transgender Survey, 
221-22. Washington, DC: National Center for Transgender Equality.
---------------------------------------------------------------------------
    While the U.S. Transgender Survey did not ask specifically about 
issues related to AIT, these are the most common issues NCTE hears 
about from travelers today. The AIT currently in use require TSOs to 
input a traveler's gender, making it a part of their job to scrutinize 
and guess, or ask, the gender of every traveler. Many travelers--some 
who are transgender, and some who are not--find themselves having to 
correct TSOs and be scanned again. This not only delays travelers, it 
can be embarrassing.
    Even more concerning is the very common problem of alarms based on 
sensitive body parts, or on sensitive undergarments such as chest 
binders or personal prostheses that transgender travelers may wear. 
Alarms lead to pat-downs, which many travelers find inherently 
humiliating. We have heard from many travelers that they routinely 
experience alarms in the chest or groin or both, leading to intimate 
pat-downs and excruciating conversations when they travel. NCTE's own 
staff, interns, board members, and their friends, colleagues, and 
family members experience these problems routinely. For example, one of 
our survey respondents told us the following:

``Going through TSA, I am repeatedly asked to go back through the scan 
because there is an anomaly with my chest or groin. It is not resolved 
with a second scan, and I am subjected to a TSA agent's hands on my 
chest and up in my groin.''\8\
---------------------------------------------------------------------------
    \8\ Submitted to NCTE by a respondent to the 2015 US Transgender 
Survey.

    One of NCTE's former board members, who is also a senior citizen, 
---------------------------------------------------------------------------
wrote to us the following last year:

``I flew from Baltimore-Washington International Airport (BWI) to San 
Francisco today for a [business] meeting. After I went through the 
scanner, TSA screeners pulled me out of line, and said there was an 
`anomaly in the groin area,' and that they would have to pat me down. I 
was concerned about making my flight, so I said OK. I was then patted 
down (or groped) by two women, followed by one man--buttocks, groin and 
legs. When they had finished, they made no further reference to the 
`anomaly,' but said they would have to swab my hands; they did that, 
and after checking the swab, they sent me through.''\9\
---------------------------------------------------------------------------
    \9\ Personal correspondence, Jan. 26, 2018.

    A close colleague of the NCTE staff, attorney Carl Charles, 
published an op-ed in October 2015 describing his traveling experiences 
as a transgender man.\10\ Mr. Charles, then a law student traveling to 
the District of Columbia for a summer internship, wrote that his 
excitement over the trip was quickly squelched when he heard a TSO 
shout, ``We have anomalies in the chest and groin area. Private 
screening, female agent requested.'' Now, the agency has been 
responsive to complaints that about individual officers mis-gendering 
travelers, and we appreciate that. It has also since retired the term 
``anomaly'' in favor of the term, ``alarm''--leading to reports of TSOs 
stating, ``There is something alarming in your groin.'' But the problem 
here is more basic than terminology or even who is conducting a pat-
down. The next thing Mr. Charles was asked was told [sic] was, ``Sir, 
we need to know what's in your pants.'' The conversation that followed 
was, inevitably, extremely uncomfortable.
---------------------------------------------------------------------------
    \10\ Carl Charles, Dear TSA, My Body Is Not an Anomaly, ADVOCATE 
(Oct. 1, 2015), https://www.advocate.com/commentary/2015/10/01/dear-
tsa-my-body-not-anomaly.
---------------------------------------------------------------------------
    While several of the above incidents were discussed in NCTE's 
testimony before the Transportation Security Subcommittee in February 
2018, little has changed.\11\ Recent press coverage featuring 
additional personal stories of transgender and gender non-conforming 
travelers' problems hardships with passenger screening are appended to 
this statement.\12\
---------------------------------------------------------------------------
    \11\ The Public Face of TSA: Examining the Agency's Outreach and 
Traveler Engagement Efforts, Before the House Transportation Security 
Subcomm., 115th Cong. (2018).
    \12\ Alex Marzano-Lesnevich, Flying While Trans, N.Y. TIMES (April 
17, 2019), https://www.nytimes.com/2019/04/17/opinion/tsa-
transgender.html; Allison Hope, Transgender travel: The complications 
and tips for dealing with them, CNN (April 12, 2019), https://
www.cnn.com/travel/article/transgender-travel-complications-tips/
index.html; Arjee Restar, Airlines Are Becoming Inclusive, But Airports 
Remain A Mess, ADVOCATE (Mar. 26, 2019), https://www.advocate.com/
commentary/2019/3/26/airlines-are-becoming-inclusive-airports-remain-
mess; Carina Julig, How Airport Security Makes Travel Traumatic for 
Butches and Trans Folks, SLATE (June 25, 2018), https://slate.com/
human-interest/2018/06/gendered-airport-security-makes-travel-
traumatic-for-butches-and-trans-folks.html.
---------------------------------------------------------------------------
    We appreciate the intent of some of the initiatives TSA has 
undertaken in recent years to improve the passenger experience, 
including the TSA Cares hotline, the use of Passenger Support 
Specialists, and the TSA Pre-Check programs. We know that these 
programs have been helpful for some passengers, but they have not 
addressed the basic concerns transgender travelers have. The travelers 
we hear from don't just want to get to their gate more quickly, or make 
sure TSOs have a heads-up to expect someone whose body may cause an 
alarm, or have a kinder, gentler conversation with TSOs about their 
body parts or undergarments--they want to get on a plane without 
discussing their private parts or having them touched by Government 
officials, period.
             gao's findings underscore the need for reform
    According to the complaint data in GAO's new report, more than 1 in 
6 passenger complaints in recent years has been related to gender-based 
discrimination.\13\ These are not only transgender travelers but also 
many others who don't conform to the stereotypes that current 
procedures and AIT algorithms are based on. Moreover, we know that 
these complaint numbers are just the tip of the iceberg. Many travelers 
do not know where or how to file a complaint, or even why it's worth 
sharing their story. Many travelers have filed a complaint once but 
don't bother when they have the same bad experience again and again. By 
any measure, far too many Americans are being singled out and having 
their privacy invaded simply because of who they are or what their 
bodies look like.
---------------------------------------------------------------------------
    \13\ Government Accountability Office, Aviation Security: TSA Has 
Policies that Prohibit Unlawful Profiling But Should Improve Its 
Oversight of Behavior Detection Activities (April 2019).
---------------------------------------------------------------------------
    GAO also found that, while TSA trains screeners on its profiling 
policy, it does not have systems in place to assess whether 
discriminatory profiling is actually occurring at checkpoints. We 
support GAO's recommendations for internal controls to actually monitor 
whether discriminatory profiling is occurring. However, the combination 
of screening procedures that are intrusive and explicitly gender-based 
with broad officer discretion creates too many openings for conscious 
and unconscious bias. Procedures and technology too must be reformed, 
including by establishing clear, consistent, and transparent standards 
for the use of officer discretion.
    Similarly, given its reach into the everyday lives of millions of 
travelers, TSA should go beyond the broad Fourth Amendment standards 
articulated by Federal courts and require that physical pat-downs or 
requests to lift or remove clothing be no more intrusive than necessary 
to clear an alarm. For example, absent any other articulable basis of 
individual suspicion, an AIT alarm in one area of the body should not 
generally require a pat-down of a completely different, sensitive area 
of the body.
    screening with dignity means reforming technology, procedures, 
                        training, and oversight
    There is abundant evidence that the current screening model imposes 
a huge burden on passengers based on false alarms while missing a great 
deal of what it is meant to detect. Before investing millions more 
taxpayer dollars in new AIT with a lifespan of many years, TSA should 
explore a larger role for less invasive screening methods such as 
explosive trace detection, canines, and other emerging technologies. 
While there may be a role for AIT and pat-downs in screening, they need 
not be the primary methods for most travelers.
    Any new technology for primary or secondary passenger screening 
should meet two fundamental standards:
    (1) Ensure gender-neutral screening, eliminating not only the 
infamous pink and blue buttons TSOs must select for each traveler but 
also gender-based algorithms.
    (2) Substantially reduce false alarms caused by body parts, 
undergarments, hair, or religious headwear. Alarms caused solely by 
these factors, no matter how courteously handled by TSOs, invariably 
lead to intrusive and embarrassing questions and pat-downs. Any 
technology that does not fix this problem cannot be considered a real 
improvement.
    These basic principles should be part of any new procurement 
program and standards for passenger screening. Technology that can meet 
these goals should replace current AIT; technology that doesn't meet 
these goals shouldn't be procured.
    TSA's current exploration of face recognition software for use in 
airports also raises serious privacy and civil liberties concerns. Such 
concerns with this technology were highlighted in a recent hearing by 
the House Committee on Oversight and Government Reform.\14\ In addition 
to many other concerns, face recognition technology is subject to 
serious inaccuracies with respect to gender, potentially subjecting 
transgender people and others who do not conform to gender stereotypes 
to additional discrimination.\15\ For this reason, civil rights and 
civil liberties advocates have called for a Federal moratorium on these 
technologies in law enforcement contexts.
---------------------------------------------------------------------------
    \14\ Facial Recognition Technology (Part 1): Its Impact on our 
Civil Rights and Liberties Before the House Oversight and Reform Comm., 
116th Cong. (2019). See also U.S. Gov't Accountability Office, GAO-16-
267, Face Recognition Technology: FBI Should Better Ensure Privacy and 
Accuracy (May 2016), available at https://www.gao.gov/assets/680/
677098.pdf.
    \15\ Os Keyes, ``The Misgendering Machines: Trans/HCI Implications 
of Automatic Gender Recognition,'' Proceedings of the ACM on Human 
Computer Interaction 2, CSCW, Article 88 (Nov. 2018), https://doi.org/
10.1145/3274357.
---------------------------------------------------------------------------
Recommendations:
    NCTE makes the following policy recommendations:
  <bullet> Reconsider the reliance on AIT and pat-downs as primary 
        screening methods.--TSA's goal should be to make it a rare 
        occurrence for uniformed officials to touch passengers' bodies 
        or ask intrusive questions about their body parts or 
        undergarments.
  <bullet> Ensure any new procurement program and standards for AIT: 
        (1) ensure gender-neutral screening and (2) substantially 
        reduce false alarms based on body parts, undergarments, hair, 
        or religious headwear.--Procurement programs and standards will 
        drive the passenger experience for years to come--it would be a 
        serious mistake for them to perpetuate the current ineffective 
        and intrusive gender-based screening process.
  <bullet> Ensure any new AIT hardware or software procured by TSA 
        actually meets these two fundamental goals.
  <bullet> Ensure new technology or procedures reduce the use of pat-
        downs and ensure travelers aren't singled out based on their 
        race, religion, or gender.
  <bullet> Require TSOs to adhere to consistent and transparent 
        standards of discretionary criteria that reduce the likelihood 
        of profiling and ensure secondary screening is no more 
        intrusive than necessary to clear an alarm.
  <bullet> Mandate regular and independent Civil Liberties Impact 
        Assessments at all airports Nation-wide.
  <bullet> Mandate random TSO screener audits to prevent and detect 
        discriminatory profiling and harassment and ensure effective 
        responses by supervisors.
  <bullet> Congress should re-introduce and pass the End Racial 
        Profiling Act to comprehensively address discriminatory law 
        enforcement practices, including in TSA. This bill would 
        explicitly prohibit discriminatory law enforcement practices 
        based on race, color, national origin, religion, or sex 
        (including on the basis of gender identity or sexual 
        orientation). These protections are critical to address 
        profiling and other biased practices and build public trust.
  <bullet> Congress should re-introduce and pass the Screening with 
        Dignity Act to codify existing passenger protections and 
        require TSA to improve its technology, procedures, and 
        training..--This legislation should be strengthened to provide 
        a definite time line for phasing out gender-based AIT 
        screening.
  <bullet> Congress should adopt a Federal moratorium on the use of 
        face recognition technology for law enforcement, immigration, 
        or security purposes.
    NCTE will, of course, continue to engage with TSA and encourage 
travelers to share their experiences and their complaints. We urge this 
committee to take decisive action through oversight and legislation to 
ensure that no traveler must sacrifice their dignity, privacy, or civil 
rights in order to travel.

    Chairman Thompson. The Members of the committee may have 
additional questions for the witnesses, and we ask that you 
respond expeditiously in writing to those questions.
    Without objection, the committee record shall be kept open 
for a 10 days.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 11:48 a.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              


   Questions for W. William Russell From Chairman Bennie G. Thompson

    Question 1. DHS's response to GAO's report noted that the 
Department was ``pleased to note'' that GAO's analysis of civil 
rights complaint data ``identified only 3,700 complaints 
related to passenger screening alleging civil rights and civil 
liberties violations.''
    Do you believe the Department treats allegations of civil 
rights and civil liberties violations with the seriousness they 
deserve?
    Answer. Over the course of our recent review, our 
observation was that TSA generally treated the civil rights and 
civil liberties complaints received in a professional manner. 
We reviewed about 3,700 complaints received by TSA from October 
2015 through February 2018 alleging civil rights and civil 
liberties violations related to passenger screening.\1\ For the 
2,059 complaints with complete information, we found that TSA's 
Multicultural Branch--the office responsible for reviewing 
complaints alleging civil rights and civil liberties 
violations--reviewed the complaints to determine if the 
complaint included indications of discrimination. Through this 
process, the Multicultural Branch found indications of 
potential discrimination and unprofessional conduct that 
involved race or other factors in 1,066 complaints. In 
response, TSA recommended a range of refresher training across 
airports or for screeners at individual airports identified in 
these complaints. In addition, TSA's Office of Human Capital 
Employee Relations reported that it took a range of 
disciplinary actions--from letters of reprimand to 
termination--for 100 screeners from October 2015 through 
February 2018, in part in response to passenger complaints 
alleging civil rights and civil liberties violations.\2\
---------------------------------------------------------------------------
    \1\ GAO, Aviation Security: TSA Has Policies that Prohibit Unlawful 
Profiling But Should Improve Its Oversight of Behavior Detection 
Activities, GAO-19-268 (Washington, DC: June 4, 2019).
    \2\ TSA officials stated that none of the complaints that resulted 
in the disciplinary actions were specific to behavior detection. TSA's 
Human Capital Employee Relations officials determined that more than 60 
percent of the 100 screeners used inappropriate comments or were 
engaged in misconduct, including offensive comments or actions based on 
another's race, national origin, and/or sex, among other factors.
---------------------------------------------------------------------------
    Question 2. Has GAO studied the extent to which DHS and TSA 
focus on civil rights and civil liberties compliance when 
developing technologies and procedures?
    Answer. GAO has not studied this issue directly. However, 
in 2014, we found that test results on TSA's advanced imaging 
technology (AIT) screening systems indicated that certain 
factors had an effect on false alarm rates.\3\ According to 
Transportation Security Laboratory test results of AITs with 
automated target recognition (ATR) system from 2009 through 
2012, certain factors, such as body mass index (BMI) and 
headgear, such as turbans and wigs, may contribute to greater 
fluctuations in the false alarm rate, either above or below 
that threshold.\4\
---------------------------------------------------------------------------
    \3\ GAO, Advanced Imaging Technology: TSA Needs Additional 
Information Before Procuring Next-Generation Systems, GAO-14-357 
(Washington, DC: March 31, 2014).
    \4\ AIT systems equipped with ATR (AIT-ATR) automatically interpret 
the image and display anomalies on a generic outline of a passenger 
instead of displaying images of actual passenger bodies like the AIT 
systems that used IOs (AIT-IO). Screening officers (SO) use the generic 
image of a passenger to identify and resolve anomalies on site in the 
presence of the passenger. BMI is a number calculated from a person's 
weight and height and is considered a fairly reliable indicator of body 
fatness by the Centers for Disease Control and Prevention. BMI 
categories include underweight (BMI below 18.5), normal (BMI from 18.5 
to 24.9), overweight (BMI from 25.0 to 29.9), and obese (BMI over 
30.0).
---------------------------------------------------------------------------
    In the course of work, we also found that in August 2018, 
as part of a Broad Agency Announcement (BAA), TSA invited 
vendors to submit proposals for AIT improvements that promote 
Federal Civil Rights compliance.\5\ Vendors were also 
encouraged to submit solutions that addressed capability gaps 
in civil rights compliance, including upgrades to improve 
screening of transgender passengers.
---------------------------------------------------------------------------
    \5\ TSA Innovation Task Force: Innovative Demonstrations for 
Enterprise Advancement (IDEA) 2018 BAA (August 2, 2018) https://
www.fbo.gov/index.php?s=opportunity&- 
mode=form&id=7f581e20fe1e865a60437d733c14992b&tab=core&_cview=1.
---------------------------------------------------------------------------
    The BAA stated that submissions ``should ensure access and 
equal opportunity as required by Section 504 of the 
Rehabilitation Act, 6 C.F.R. Part 15, and DHS Directive No. 
065-01 (Sept. 25, 2013) and DHS Instruction No. 065-01-001 
(Mar. 13, 2015) for individuals with disabilities, and to 
improve screening of headwear and hair in compliance with Title 
VI of the Civil Rights Act.''
    Question 3. Has GAO studied whether the DHS and TSA Office 
for Civil Rights and Civil Liberties are appropriately 
empowered within their respective organizations?
    Answer. GAO has not studied this issue.

      Questions for Sim J. Singh From Chairman Bennie G. Thompson

    Question 1a. What interactions has the Sikh Coalition had 
with TSA's Multicultural Branch?
    Has TSA been willing to meet with you and listen to your 
concerns?
    Answer. The TSA Multicultural Branch has met with the Sikh 
Coalition in the past and invited us to participate in 
coalition conference calls. Our most recent TSA Multicultural 
Coalition conference call occurred on June 7, 2019, where the 
Sikh Coalition and other civil rights advocacy groups listened 
to the TSA's presentation on progress it was making towards 
addressing concerns raised by passenger complaints.
    During the last call with TSA, the Sikh Coalition discussed 
complaints we received from several Sikh passengers who were 
subjected to secondary screenings because of their turbans 
based on ``local rules''. We expressed concerns about the 
inconsistency of TSA's policies at different airports. 
Multicultural Branch officials stated that they did not believe 
any such ``local rules'' existed but assured us they would look 
into the issue. Subsequently, the Sikh Coalition filed a 
complaint (see attached) on this issue regarding a Sikh 
passenger who was subjected to secondary screening based on an 
alleged ``local rule'' after he had already been cleared from 
the screening area. The individual in question originally filed 
a FlyRights complaint but was asked by TSA to provide 
additional information before they would review his complaint. 
We learned on the Multicultural Coalition conference call that 
responses to these requests for additional information must be 
submitted within 10 days. However, the email requesting that 
additional information does not provide a time line for 
submitting responses, nor does it provide a contact email to 
submit this supplemental information. Our client, therefore, 
submitted a new complaint through TSA's website. We are still 
waiting to learn the results of the investigation into his 
complaint. Additionally, TSA has not yet provided us with any 
information about the steps it will take to ensure that agents 
are not relying on local rules to subvert civil rights of 
travelers with turbans.
    Question 1b. Do you believe the Multicultural Branch is 
appropriately empowered to drive change within TSA?
    Answer. The Multicultural Branch at the TSA has frequently 
attempted to resolve all traveler concerns with all known civil 
rights stakeholders participating in the same events. Events 
such as the Annual Disability and Multicultural Coalition 
Conference or periodic Coalition Conference Calls are well-
attended by disparate community interest groups. As a result, 
specific concerns experienced by community groups are not 
provided adequate consideration by the Multicultural Branch as 
attendees are severely constrained in time to address wide-
ranging community concerns. The infrequency of these meetings 
contributes to competition amongst civil rights groups to flag 
their concerns with the TSA. The Multicultural Branch should 
seek to institute quarterly meetings for community groups with 
similar concerns. One such model to follow is the DOJ 
Interagency regular meetings with civil rights organizations of 
the Muslim, Arab, Sikh, and South Asian (MASSA) community to 
narrowly tailor discussions and solutions pertinent to the 
specific community.
    Question 2a. The Sikh Coalition developed the FlyRights App 
to help passengers file complaints with TSA.
    Why was it necessary to create your own app for this 
purpose?
    Answer. In the third quarter of 2011, the TSA claimed to 
have received a mere 11 complaints, and as such the agency was 
able to claim it did not profile travelers. The Sikh Coalition 
received many more incidents of TSA profiling from travelers 
during this time period and it became abundantly clear action 
was required to help address the under-counting of reports.
    While the TSA was accepting email complaints and complaints 
submitted through the TSA's website, many travelers were unsure 
of how to file a complaint, felt intimidated, or would forget 
details and lose motivation as time passed following an 
incident. FlyRights was launched in April 2012 to give 
travelers a quick and easy way to file their complaints. The 
App was also able to add a layer of transparency that the TSA 
lacked. Travelers are able to track the frequency of complaints 
at specific airports and gain access to know your rights 
materials. The application has been used hundreds of times 
since its launch, and the data further supports our previous 
claim that Sikhs remain disproportionately targeted in cases of 
profiling at airports.
    Question 2b. Please describe the range of travelers that 
have used FlyRights App besides Sikh travelers.
    Answer. Travelers from all walks of life and identities 
have used the FlyRights App. Reports submitted through 
FlyRights do not track an individual's specific identity but 
track whether the traveler believes that they were 
discriminated against based on a category of race, ethnicity, 
religion, nationality, gender, and/or disability. The FlyRights 
App has been promoted within various community stakeholder 
groups that are not Sikh and used by non-Sikh travelers, 
including travelers with disabilities, transgender, and/or 
African Americans.
    Question 2c. What types of complaints have you seen from 
other communities, and are these shared experiences?
    Answer. We have received profiling complaints from Muslim 
travelers who were subject to secondary screening, including 
one instance where the traveler had already been cleared from 
the screening area and boarded his flight, yet was taken off 
the plane because he was allegedly ``chosen for extra 
screening.'' Similarly, we have seen complaints from African-
American travelers being subject to secondary screening of 
their hair and subsequently having their bags thoroughly 
searched. We have also received complaints from transgender 
travelers who reported they were told by TSA officers that they 
had to go through a heightened security screening--including a 
full body pat-down and a thorough search of all their personal 
belongings. Other complaints from transgender travelers report 
being denied a pat-down by an officer of the same gender as 
they present themselves. Lastly, we have seen complaints of 
gender discrimination, where a female passenger who maintains 
short hair was designated as male and subsequently subject to a 
pat-down by a male officer. On numerous occasions, nursing 
mothers have also filed complaints about attempting to bring 
breast milk through security.
    Although complaints filed by Members of other communities 
are not always identical to the complaints filed by Sikh 
travelers, there is a clear pattern of heightened security 
screening for minority communities.

     Question for Janai S. Nelson From Chairman Bennie G. Thompson

    Question. TSA says it has strengthened training for TSO's 
in recent years, including for working with diverse passenger 
populations.
    What aspects of these civil rights and civil liberties 
complaints can be addressed solely through increased officer 
training and professional development? Which aspects of these 
complaints would instead require changes to TSA's technologies 
or standard operating procedures?
    Answer.
1. No aspects of hair discrimination and other civil rights 
complaints against TSA can be addressed solely through 
increased officer training and professional development.
    With respect to discriminatory hair pat-downs that 
disproportionately burden Black people, the subject of my 
testimony on June 4, 2019, increased officer training and 
professional development are necessary but, unfortunately, not 
sufficient to address this problem. Training and professional 
development are essential to constrain some of the potentially 
discriminatory and/or unconstitutional aspects and effects of 
Transportation Security Administration (TSA) policies, 
practices, and technologies. However, while training, including 
anti-bias training and professional development, must be funded 
and required, they are insufficient on their own to eliminate 
most aspects of civil rights concerns. As long as TSA maintains 
policies and practices such as requiring screeners to conduct 
unscientific behavior detection activities and using 
technologies like facial recognition \1\ and full-body scanners 
that cannot distinguish between contraband and Black hair, the 
disparate and disproportionate harm will continue. Training and 
professional development can help mitigate that harm, but it 
will not eliminate the sources of the harm, which are the 
technologies, policies, and practices that perpetuate racial 
discrimination.
---------------------------------------------------------------------------
    \1\ Facial recognition technology or systems are ``computer-based 
security systems that are able to automatically detect and identify 
human faces'' based on a ``recognition algorithm.'' Electronic Privacy 
Info. Ctr., Face Recognition, https://www.epic.org/privacy/
facerecognition/ (last visited July 5, 2019). The dangers of both 
facial recognition technology and TSA's behavior detection procedures 
are discussed further in response to Question 2, infra.
---------------------------------------------------------------------------
    In addition to eliminating the sources of the harm, TSA 
should immediately evaluate its current anti-bias and anti-
discrimination training and assess the data it is has 
collected, particularly with respect to hair pat-down 
complaints filed by Black women. In 2015, a lawsuit filed by 
the ACLU of Northern California against TSA because of TSA's 
racially discriminatory hair searches resulted in TSA agreeing 
to ``make certain that current training related to 
nondiscrimination is clear and consistent for TSA's workforce'' 
and to ensure that its Multicultural Branch ``will specifically 
track hair pat-down complaints filed . . . [by] African-
American females throughout the country to assess whether a 
discriminatory impact may be occurring at a specific TSA 
secured location.''\2\ The agreement also stipulated that two 
airports, Los Angeles International Airport (LAX) and 
Minneapolis St. Paul International Airport (MSP), will retrain 
their TSA workforces ``to stress TSA's commitment to race 
neutrality in its security screening activities with special 
emphasis on hair pat-downs of African-American female 
travelers.''\3\
---------------------------------------------------------------------------
    \2\ Letter from Bryan W. Hudson, TSA, to Novella Coleman, ACLU 
(Jan. 12, 2015), https://www.aclunc.org/sites/default/files/
2015.01.12%20Singleton%20TSA%20resolution_0.pdf (setting forth terms of 
agreement).
    \3\ Id.
---------------------------------------------------------------------------
    Given that this agreement was executed in 2015, TSA should 
have already begun implementing a plan to evaluate its training 
with respect to racial discrimination and hair pat-downs. This 
plan should have included consistently reviewing and assessing 
complaints regarding hair pat-downs and whether the increased 
and more-targeted trainings were having an impact on the 
quantity or the substance of the complaints, both on a National 
level and specifically with respect to LAX and MSP. There is no 
evidence, though, that TSA has in fact implemented such a plan, 
or that TSA is treating the issue with the appropriate level of 
attention and importance. As a result, it is difficult to have 
any confidence in TSA's record keeping or its transparency with 
the public.
    At bottom, the burdens that Black passengers face when 
traveling by air as a result of TSA's technology, policies, and 
practices are unacceptable. Responsive training and 
professional development that are informed by complaint data 
and comprehensive evaluation can help ensure that, when full-
body scanners single out Black women for hair pat-downs, for 
example, these searches are done in the least invasive and most 
culturally competent ways that preserve the passenger's dignity 
and privacy. However, mitigating the harm visited upon Black 
travelers through improved training and professional 
development is a short-term and ultimately inadequate goal. 
Instead, TSA must eliminate fully the discriminatory burdens on 
Black passengers.
    2. Aspects of hair discrimination and other civil rights 
complaints against TSA that require changes to TSA's 
technologies or standard operating procedures.
    As an initial matter, while it is essential for TSA to pay 
attention and act responsively to discrimination complaints, 
the focus must be on rooting out and addressing the underlying 
discrimination and civil rights violations--not simply on 
minimizing the number of complaints. First, there are many 
indicators that discriminatory searches, including hair pat-
downs, are under-reported. Some frequent flyers may notice that 
they are being disproportionately selected for searches; others 
may not. In addition, there are many instances of 
discriminatory hair pat-downs that are reported or are not 
advanced in the complaint process.\4\ Reports also suggest that 
Black women are subjected to hair pat-downs at far greater 
rates than other passengers.\5\ Second, even the best training 
may minimize the number of complaints, but it is not a 
substitute for addressing the root problem. For example, 
through effective training, it is possible for TSA screeners to 
interact with Black women flagged for a hair pat-down in a 
manner that treats them with fairness, dignity, respect, and 
privacy. Relatedly, the number of complaints submitted to TSA 
could conceivably decrease even though the full-body scanners 
continue to misidentify Black hair as potential contraband. The 
potentially hidden nature of this discrimination underscores 
the need for a sustained effort to bring transparency and 
reform to the technologies and policies that have a 
discriminatory impact on Black women, other people of color, 
and the LGBTQ community.
---------------------------------------------------------------------------
    \4\ Brenda Medina, TSA Agents Say They're Not Discriminating 
Against Black Women, but Their Body Scanners Might Be, ProPublica (Apr. 
17, 2019), https://www.propublica.org/article/tsa-not-discriminating-
against-black-women-but-their-body-scanners-might-be (``Most people we 
heard from said they had not known they could file a complaint.'').
    \5\ See id.; Tatiana Walk-Morris, Why is the TSA Still Searching 
Black Women?, Cosmopolitan (Apr. 24, 2018), https://
www.cosmopolitan.com/lifestyle/a18666534/tsa-black-women-hair-searches/
; Gaby Del Valle, How Airport Scanners Discriminate Against Passengers 
of Color, Vox (Apr. 17, 2019), https://www.vox.com/the-goods/2019/4/17/
18412450/tsa-airport-full-body-scanners-racist.
---------------------------------------------------------------------------
    My testimony on June 4 focused largely on the effects of 
full-body scanners and called for, among other things, 
increased transparency, more robust data collection, a more 
publicized and navigable complaint process, an explanation from 
TSA regarding how the many false-positive results from full-
body scanners are justified by a security need, and a 
revisiting of the programming and algorithms used in the full-
body scanners to make clearer the distinction between Black 
hair and actual security threats. I stress again here that it 
is unacceptable for technological flaws to perpetuate racism. 
Agencies must be held accountable when the systems they 
sanction and oversee reflect racial bias and impermissibly 
discriminatory decision making. If TSA would not tolerate a 
screener who disproportionately and with no basis singles out 
Black women for hair pat-downs, there is no excuse for TSA to 
continue relying on a technology that consistently does the 
same. TSA must provide the necessary fixes to full-body 
scanners or use a non-discriminatory alternative.
    Other TSA security technologies and procedures are equally 
concerning. For example, TSA's plan for a sweeping expansion of 
its use of facial recognition technology,\6\ with little public 
oversight, has drawn censure from many, including Senators 
concerned about, among other things, the technology's 
potentially discriminatory effects and TSA's refusal to submit 
its plan to formal rulemaking before beginning to roll it 
out.\7\ TSA's facial recognition technology is part of its 
expansive biometrics plan, which also includes collecting and 
storing fingerprint data from TSA Pre-Check passengers to 
perform criminal background checks.\8\ TSA also plans to share 
passenger biometrics data with other DHS agencies.\9\ It does 
not appear that TSA has adequately responded to concerns raised 
about the ways in which facial recognition technology operates 
in a racially discriminatory manner. The Department of Homeland 
Security's Office of the Inspector General published a 2018 
report in which it questioned the U.S. Customs and Border 
Protection's (CBP) use of facial recognition and biometric 
technology, noting that ``CBP could not consistently match 
individuals of certain age groups or nationalities'' and that 
``biometric confirmation'' was ``limited . . . to only 85 
percent of all passengers processed.''\10\ Ample research 
reveals race-based disparities in the accuracy of facial 
recognition.\11\ It would be a hollow achievement to have a 
workforce adequately trained in anti-bias and anti-
discrimination principles when race-based discrimination 
continues unchecked through automation and algorithms.
---------------------------------------------------------------------------
    \6\ Transp. Sec. Admin., TSA Biometrics Roadmap 5, (Sept. 2018), 
https://www.tsa.gov/sites/default/files/tsa_biometrics_roadmap.pdf 
[hereinafter TSA Biometrics Roadmap] (``Facial recognition has long 
been TSA's modality of choice in aviation security operations. . . .The 
TSA Biometrics Roadmap seeks to leverage facial recognition technology 
to automate that process to enhance security effectiveness, improve 
operational efficiency, and streamline the passenger experience.'').
    \7\ Electronic Privacy Info. Ctr., Comments to the Transp. Sec. 
Admin., Review of the 2018 National Strategy for Transportation 
Security (Apr. 25, 2019), https://epic.org/apa/comments/EPIC-Comments-
TSA-National-Strategy-for-Transportation-Security-Apr-2019.pdf (quoting 
Senator Udall (`` `it is unclear . . . whether the software treats all 
travelers and Americans equally in practice . . . '') and Senator 
Markey (`` `I'm very disappointed that [TSA] will not commit to 
ensuring these fundamental protections are in place through a formal 
rulemaking . . . ' '')).
    \8\ TSA Biometrics Plan at 12.
    \9\ Id. at 13 (``TSA will integrate existing biometric holdings and 
newly collected biometric data with the DHS enterprise biometric system 
of record (IDENT/HART) and gain access to additional biometric services 
in accordance with applicable laws, regulations, and policy.'').
    \10\ U.S. Dep't of Homeland Sec., Office of Inspector Gen., OIG-18-
80, Progress Made, but CBP Faces Challenges Implementing a Biometric 
Capability to Track Air Passenger Departures Nation-wide 2 (Sept. 21, 
2018), https://www.oig.dhs.gov/sites/default/files/assets/2018-09/OIG-
18-80-Sep18.pdf.
    \11\ See, e.g., James Vincent, Gender and racial bias found in 
Amazon's facial recognition technology (again), The Verge (Jan. 25, 
2019), https://www.theverge.com/2019/1/25/18197137/amazon-rekognition-
facial-recognition-bias-race-gender); Joy Buolamwini and Timnit Gebru, 
Gender Shades: Intersectional Accuracy Disparities in Commercial Gender 
Classification, Proceedings of Machine Learning Research 81:1-15, 1 
(2018), http://proceedings.mlr.press/v81/buolamwini18a/
buolamwini18a.pdf (noting that ``[r]ecent studies demonstrate that 
machine learning algorithms can discriminate based on classes like race 
and gender,'' using an evaluation tool to determine ``bias present in 
automated facial analysis algorithms,'' and finding ``substantial 
disparities in the accuracy of classifying'' people of color).
---------------------------------------------------------------------------
    In addition to problematic technologies like facial 
recognition, biometrics, and the full-body scanners, TSA has 
employed pseudo-scientific ``behavior detection'' procedures 
for well over a decade.\12\ Under these procedures, screeners 
rely on a checklist of behavioral indicators to assess whether 
a passenger is acting suspiciously. After years of growing 
concerns from Congressmembers and others over ineffectiveness 
and misuse, TSA eliminated its Behavior Detection Officer 
position consistent with a Congressional mandate and, in 
November 2017, eliminated its stand-alone behavior detection 
program.\13\ In August 2017, the behavior detection program was 
revised and the behavior indicator list was cut down from 96 
indicators to 36. TSA now refers to the procedures as 
``Optimized Behavior Detection''\14\--essentially a secret risk 
assessment tool that TSA claims is scientifically proven to 
identify people who pose security threats. Despite the 
persistent racial profiling claims and complaints from 
passengers over the years, TSA ``rapidly expanded'' its 
behavior detection program while ``never produc[ing] empirical 
data in support of the program'' and ``costing taxpayers a 
total of $1.5 billion between 2007 and 2015.''\15\ In 2013, the 
Government Accountability Office found that ``TSA was unable to 
demonstrate that the agency's behavior detection activities 
could reliably and effectively identify high-risk passengers. . 
. .''\16\ Worse, TSA's own scientific record not only shows 
behavior detection to be unreliable, but also shows ``an 
unacceptable risk of racial and religious profiling'' while 
containing ``materials that range from culturally insensitive 
to racially and religiously biased and sexist.''\17\
---------------------------------------------------------------------------
    \12\ U.S. Gov't Accountability Office, Aviation Sec., TSA has 
policies that prohibit unlawful profiling but should improve its 
oversight of behavior detection activities 1 (Apr. 2019) [hereinafter 
GAO Report].
    \13\ See GAO Report at 7-9; Michael Nunez, TSA knows its racist 
profiling system doesn't work, Gizmodo (Feb. 8, 2017), https://
gizmodo.com/the-tsa-knows-its-racist-profiling-program-doesnt-work-
1792129898).
    \14\ Id. at 9-10.
    \15\ Nunez, supra note 13.
    \16\ GAO Report at 1.
    \17\ ACLU, Bad Trip: Debunking the TSA's `Behavior Detection' 
Program 1 (2017).
---------------------------------------------------------------------------
    In multiple contexts, we have seen technology (e.g., social 
media platforms) develop at a rapid pace while executives and 
decision makers ignore certain warning signs along the way, 
creating intractable problems that would have been more 
manageable to address earlier in the process. We hope that TSA 
is not intent on taking this path and is listening to critical 
concerns, including those about racial discrimination, as it 
makes its security decisions. According to TSA, it is 
adequately training its screeners on TSA's policies against 
racial profiling,\18\ and, since the 2015 agreement with the 
ACLU of Northern California, TSA should have been ensuring that 
training related to nondiscrimination is clear and consistent 
for all of its employees. Instead of simply promising more 
trainings, TSA should evaluate what it is currently offering 
and assess why it has been insufficient. Most importantly, TSA 
should be fully transparent with its technologies, such as 
full-body scanners and facial recognition technology, as well 
as its procedures, such as behavior detection. It must also 
undertake the work necessary to understand the risks of 
discriminatory effects, and then develop the technology and 
procedures in a way that eliminates those risks.
---------------------------------------------------------------------------
    \18\ GAO Report at 14-15.
---------------------------------------------------------------------------
    As a Government agency that interacts with millions of 
people of color each year as they navigate air travel in the 
United States, it is TSA's responsibility to ensure that they 
are safe, treated fairly, and can travel by air without civil 
rights violations. These problems have persisted for too long, 
and TSA or an oversight body must strike at their root before 
the spread of untested and unchecked technology causes them to 
grow out of reach.

                                 [all]
</pre></body></html>
